<html>
<title> - LEGISLATIVE HEARING ON H.R. 6344, TO AMEND THE ENDANGERED SPECIES ACT OF 1973 TO ENCOURAGE VOLUNTARY CONSERVATION EFFORTS, ``LOCAL ACT OF 2018''; ...... ``PETITION ACT OF 2018''</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


H.R. 6344, ``LOCAL ACT OF 2018''; H.R. 6360, ``PREDICTS ACT OF 2018''; 
H.R. 6346, ``WHOLE ACT OF 2018''; H.R. 6354, ``STORAGE ACT OF 2018''; 
 H.R. 6345, ``EMPOWERS ACT OF 2018''; H.R. 3608, ``ENDANGERED SPECIES 
   TRANSPARENCY AND REASONABLENESS ACT''; H.R. 6364, ``LAMP ACT OF 
2018''; H.R. 6356, ``LIST ACT OF 2018''; AND H.R. 6355, ``PETITION ACT 
                               OF 2018''

=======================================================================

                           LEGISLATIVE HEARING

                               BEOFRE THE

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                     Wednesday, September 26, 2018

                               __________

                           Serial No. 115-55

                               __________

       Printed for the use of the Committee on Natural Resources
       
       
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]      


        Available via the World Wide Web: http://www.govinfo.gov
                                   or
          Committee address: http://naturalresources.house.gov
          
          
                               __________
	                                              
	                                              
	               U.S. GOVERNMENT PUBLISHING OFFICE                    
31-631 PDF                  WASHINGTON : 2018                     
	            
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="fe998e91be9d8b8d8a969b928ed09d9193d0">[email&#160;protected]</a> 
          
          
          
                     COMMITTEE ON NATURAL RESOURCES

                        ROB BISHOP, UT, Chairman
            RAUL M. GRIJALVA, AZ, Ranking Democratic Member

Don Young, AK                        Grace F. Napolitano, CA
  Chairman Emeritus                  Madeleine Z. Bordallo, GU
Louie Gohmert, TX                    Jim Costa, CA
  Vice Chairman                      Gregorio Kilili Camacho Sablan, 
Doug Lamborn, CO                         CNMI
Robert J. Wittman, VA                Niki Tsongas, MA
Tom McClintock, CA                   Jared Huffman, CA
Stevan Pearce, NM                      Vice Ranking Member
Glenn Thompson, PA                   Alan S. Lowenthal, CA
Paul A. Gosar, AZ                    Donald S. Beyer, Jr., VA
Raul R. Labrador, ID                 Ruben Gallego, AZ
Scott R. Tipton, CO                  Colleen Hanabusa, HI
Doug LaMalfa, CA                     Nanette Diaz Barragan, CA
Jeff Denham, CA                      Darren Soto, FL
Paul Cook, CA                        A. Donald McEachin, VA
Bruce Westerman, AR                  Anthony G. Brown, MD
Garret Graves, LA                    Wm. Lacy Clay, MO
Jody B. Hice, GA                     Jimmy Gomez, CA
Aumua Amata Coleman Radewagen, AS    Nydia M. Velazquez, NY
Daniel Webster, FL
Jack Bergman, MI
Liz Cheney, WY
Mike Johnson, LA
Jenniffer Gonzalez-Colon, PR
Greg Gianforte, MT
John R. Curtis, UT

                      Cody Stewart, Chief of Staff
                      Lisa Pittman, Chief Counsel
                David Watkins, Democratic Staff Director
                                 
                                 
                              ----------                          

                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Wednesday, September 26, 2018....................     1

Statement of Members:

    Biggs, Hon. Andy, a Representative in Congress from the State 
      of Arizona, prepared statement of..........................    92

    Bishop, Hon. Rob, a Representative in Congress from the State 
      of Utah....................................................     5
        Prepared statement of....................................     7
    Gosar, Hon. Paul A., a Representative in Congress from the 
      State of Arizona, prepared statement of....................    60
    Grijalva, Raul M., a Representative in Congress from the 
      State of Arizona...........................................     3
        Prepared statement of....................................     5
    Huffman, Hon. Jared, a Representative in Congress from the 
      State of California........................................     2
    Johnson, Hon. Mike, a Representative in Congress from the 
      State of Louisiana, prepared statement of..................    59
    McClintock, Hon. Tom, a Representative in Congress from the 
      State of California........................................    69
    Norman, Hon. Ralph, a Representative in Congress from the 
      State of South Carolina....................................    53
    Tipton, Hon. Scott R., a Representative in Congress from the 
      State of Colorado..........................................     8
    Westerman, Hon. Bruce, a Representative in Congress from the 
      State of Arkansas..........................................    84
    Young, Hon. Don, a Representative in Congress from the State 
      of Alaska..................................................    75

Statement of Witnesses:

    Dreher, Robert, Senior Vice President, Conservation Programs 
      and General Counsel, Defenders of Wildlife, Washington, DC.    25
        Prepared statement of....................................    27
        Questions submitted for the record.......................    36
    Johansson, Jamie, President, California Farm Bureau 
      Federation, Sacramento, California.........................    16
        Prepared statement of....................................    18
    Renkes, Gregg, Director, Office of Policy Analysis, U.S. 
      Department of the Interior, Washington, DC.................     9
        Prepared statement of....................................    11
    Sauter, David, County Commissioner, Klickitat County, Lyle, 
      Washington.................................................    21
        Prepared statement of....................................    23
    Wood, Jonathan, Attorney, Pacific Legal Foundation, 
      Washington, DC.............................................    38
        Prepared statement of....................................    40

Additional Materials Submitted for the Record:

    Submissions for the record by Representative Bishop

        List of organizations and letters of support endorsing 
          all nine bills.........................................    93
        Morning Consult poll.....................................    96

    Submissions for the record by Representative LaMalfa

        Pit Resource Conservation District, Letter dated 
          September 14, 2018 to Secretary Ryan Zinke.............    97

    Submissions for the record by Representative Grijalva

        Alaska Wilderness League et al., Letter dated September 
          25, 2018 to Rep. Grijalva..............................    98
        Comments of Attorneys General of Massachusetts, 
          California, Maryland, New York, Oregon, Pennsylvania, 
          Rhode Island, Vermont, Washington, and the District of 
          Columbia...............................................   103
        Goodall, Dr. Jane, Testimony submitted for the record....    48
        GreenLatinos, Letter dated September 26, 2018 to Rep. 
          Grijalva...............................................   101
        Hawkins, Rev. Jimmie R., et al., Letter dated September 
          25, 2018 to Members of Congress........................   102
        Union of Concerned Scientists, Letter dated September 25, 
          2018 to Rep. Grijalva..................................    71
                                     
 
   LEGISLATIVE HEARING ON H.R. 6344, TO AMEND THE ENDANGERED 
    SPECIES ACT OF 1973 TO ENCOURAGE VOLUNTARY CONSERVATION 
    EFFORTS, ``LOCAL ACT OF 2018''; H.R. 6360, TO AMEND THE 
ENDANGERED SPECIES ACT OF 1973 TO PROVIDE FOR GREATER CERTAINTY 
   AND IMPROVED PLANNING FOR INCIDENTAL TAKE PERMIT HOLDERS, 
 ``PREDICTS ACT OF 2018''; H.R. 6346, TO AMEND THE ENDANGERED 
    SPECIES ACT OF 1973 TO PROVIDE FOR CONSIDERATION OF THE 
TOTALITY OF CONSERVATION MEASURES IN DETERMINING THE IMPACT OF 
  PROPOSED FEDERAL AGENCY ACTION, ``WHOLE ACT OF 2018''; H.R. 
 6354, TO AMEND THE ENDANGERED SPECIES ACT OF 1973 TO PROHIBIT 
DESIGNATION AS CRITICAL HABITAT OF CERTAIN AREAS IN ARTIFICIAL 
   WATER DIVERSION OR DELIVERY FACILITIES, ``STORAGE ACT OF 
  2018''; H.R. 6345, TO PROVIDE FOR GREATER COUNTY AND STATE 
  CONSULTATION WITH REGARD TO PETITIONS UNDER THE ENDANGERED 
SPECIES ACT OF 1973, AND FOR OTHER PURPOSES, ``EMPOWERS ACT OF 
2018''; H.R. 3608, TO AMEND THE ENDANGERED SPECIES ACT OF 1973 
    TO REQUIRE PUBLICATION ON THE INTERNET OF THE BASIS FOR 
     DETERMINATIONS THAT SPECIES ARE ENDANGERED SPECIES OR 
   THREATENED SPECIES, AND FOR OTHER PURPOSES, ``ENDANGERED 
 SPECIES TRANSPARENCY AND REASONABLENESS ACT''; H.R. 6364, TO 
AMEND THE ENDANGERED SPECIES ACT OF 1973 TO INCREASE STATE AND 
 LOCAL INVOLVEMENT IN MANAGEMENT PLANS, ``LAMP ACT OF 2018''; 
   H.R. 6356, TO AMEND THE ENDANGERED SPECIES ACT OF 1973 TO 
 PROVIDE FOR IMPROVED PRECISION IN THE LISTING, DELISTING, AND 
 DOWNLISTING OF ENDANGERED SPECIES AND POTENTIALLY ENDANGERED 
  SPECIES, ``LIST ACT OF 2018''; AND H.R. 6355, TO AMEND THE 
ENDANGERED SPECIES ACT OF 1973 TO DEFINE PETITION BACKLOGS AND 
PROVIDE EXPEDITED MEANS FOR DISCHARGING PETITIONS DURING SUCH A 
               BACKLOG, ``PETITION ACT OF 2018''

                              ----------                              


                     Wednesday, September 26, 2018

                     U.S. House of Representatives

                     Committee on Natural Resources

                             Washington, DC

                              ----------                              

    The Committee met, pursuant to notice, at 2:11 p.m., in 
room 1324, Longworth House Office Building, Hon. Rob Bishop 
[Chairman of the Committee] presiding.
    Present: Representatives Bishop, Young, McClintock, Gosar, 
Tipton, LaMalfa, Denham, Westerman, Radewagen, Bergman; 
Grijalva, Costa, Sablan, Huffman, Beyer, and Gallego.
    Also present: Representative Norman.

    The Chairman. All right. I want to welcome you all here 
today. This Committee hearing is going to come to order.
    The Committee is meeting to hear testimony on nine bills 
that modernize the Endangered Species Act.
    Under Committee Rule 4(f), any opening oral statements at 
this hearing are limited to the Chairman and the Ranking 
Minority Member. This will allow us to hear from our witnesses 
sooner and keep Members to their schedules. Therefore, I ask 
unanimous consent that other Members' opening statements be 
made part of the hearing record if they are submitted to the 
Subcommittee Clerk by 5:00 p.m.
    Without objection, that is so ordered.
    I also ask unanimous consent that the following list of 
Members who are not on the Committee be allowed to sit on the 
dais and participate in this hearing from the dais. 
Specifically, Mr. Norman from Louisiana if and when he is 
there. Others will obviously be recognized from the dais, as 
well.
    Let me switch the order here, and allow Mr. Huffman, 
representing the Minority--if you would like 5 minutes for an 
opening statement.

   STATEMENT OF THE HON. JARED HUFFMAN, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Huffman. Thank you, Mr. Chairman. The slate of bills 
before us today, I am sorry to say, Mr. Chairman, is a painful 
reminder of how far we have moved away from the bipartisan 
agreement that Democrats and Republicans used to share over a 
core set of values, and the values of conservation and respect 
for science, in particular.
    Both sides of the aisle used to agree that protecting 
America's natural heritage for the enjoyment of this generation 
and future ones was a worthy goal, and that relying on sound 
science to guide conservation policy was the gold standard for 
natural resource management.
    I would like to remind everyone that when the ESA was 
enacted, it had strong bipartisan support, passed out of the 
Senate unanimously, was voted 390 to 12 out of the House of 
Representatives, and signed by a Republican President.
    The Endangered Species Act has long been one of our most 
successful and broadly supported conservation laws, and it has 
prevented the extinction of 99 percent of the species that have 
received its protection.
    The ESA, it is important to remember, only kicks in when a 
species is in danger of extinction, or when it is foreseeable 
that it will be in such danger. And if you think about it, if 
an emergency room doctor saved 99 percent of the patients that 
came through the door and put 90 percent of them on a clear and 
timely road to recovery, as the ESA has done with imperiled 
species, that doctor would receive universal praise.
    So, following on this analogy, it is alarming to note that 
one of the bills before us today wouldn't even let the patient 
into the waiting room. If the waiting room is full, it would 
kick the patient out of the hospital, leaving it to suffer 
alone. This is not a way to manage species.
    So, why does the ESA receive so much criticism by the Trump 
administration and some of my colleagues across the aisle? I 
suspect the answer is simple. The law requires Federal agencies 
to use the best available science to determine decisions, to 
prevent extinction, regardless of who produced the science. And 
that can be bad news for mining companies, oil and gas 
companies, big developers, and others.
    For example, one of the bills before us, H.R. 3608, deems 
anything submitted by states, tribes, or localities to be the 
best-available science, regardless of the quality of that 
information.
    Another bill, the STORAGE Act, would prohibit Federal 
agencies from designating critical habitat in man-made water 
infrastructure areas, further endangering California salmon and 
steelhead populations.
    And yet another bill, the LIST Act, would require the 
Secretary to de-list a species if he receives substantial 
scientific or commercial information showing that a species has 
recovered. Another handout to those wishing to develop and 
destroy important habitat for imperiled species.
    These bills ignore the fact that protecting fish and 
wildlife is not just good, in principle. It is good for the 
economy, and good for people, as well. The salmon fishermen in 
my district and elsewhere on the West Coast, for example, 
depend on a strong and functioning ESA to protect salmon runs, 
allowing them to continue catching healthy stocks.
    The bottom line is that the ESA has worked because 
decisions under the law must be made based on data and 
evidence. That is a pretty reasonable standard to uphold.
    So, yes, we no longer just cut down as many trees or catch 
as many fish as possible without thinking about the future. But 
that is a good thing, not just for fish and wildlife, but for 
future generations of people, as well.
    It would be a welcome change if we were really talking 
about modernizing the ESA, so that it works better for both 
people and wildlife. But these bills, unfortunately, won't get 
us there.
    With that, I yield back, Mr. Chairman.

    The Chairman. I haven't done my statement, but I will 
recognize Mr. Grijalva for yours before I do that.

  STATEMENT OF RAUL M. GRIJALVA, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF ARIZONA

    Mr. Grijalva. Thank you, Mr. Chairman. It is a shame that 
the last hearing that this Committee is going to have before we 
return in November is such a fraud. It really is.
    The bills before us today are not in the best interest of 
the American public. They aren't meant to fix the Endangered 
Species Act, as will be claimed by my Republican colleagues. 
They are not thoughtful pieces of legislation to fix real 
problems like the extinction crisis we currently face. They are 
bad-faith proposals designed to destroy the law and give 
handouts to oil and gas companies.
    It is no coincidence that the American Petroleum Institute, 
the American Exploration and Mining Association, and the 
Western Energy Alliance have endorsed all these bills.
    While this political stunt of a hearing is ridiculous on 
its own, the titles of some of these bills are really insults 
to the public's intelligence. My personal favorite is the 
STORAGE Act, or the Stop Takings on Reserve Antithetical to the 
Germane Encapsulation Act. It makes me wonder--to all my 
friends, both Republicans and Democrats--what the phrase 
``germane encapsulation'' really even means.
    I am a little disappointed that Mr. McClintock's bill is 
the only one without an acronym. I guess he missed the acronym 
meeting.
    The important thing to remember today is that the 
Endangered Species works. Despite years of Republican efforts 
to weaken the Act, to cut funding for agencies that protect and 
recover American wildlife, 99 percent of the listed species 
have continued to survive, and 90 percent are on schedule to 
meet recovery goals. These are facts that are not up for 
debate.
    Last year, the Committee passed a package of five 
extinction bills. They got no traction in the Full House 
because the public didn't want them. Few people outside oil, 
gas, and mining industries actually opposed the Endangered 
Species Act.
    So, we hold these hearings and hold these votes and we have 
to wonder exactly why.
    Here, today, is a new package of damaging and misguided 
bills. They harm protected species and their habitats, they 
create barriers to listing species that need protection, they 
allow states to potentially over-ride listing decisions, they 
allow the use of faulty science, and undermine citizen 
involvement in the enforcement of the Act. They make too many 
other destructive and unwarranted changes to list them all. And 
we will do everything in our power to ensure that these bills 
suffer the same fate as the previous bills.
    These attacks on one of the most successful and popular 
conservation statutes in the history of the world are old, they 
are tired, and they are not fooling anyone.
    We are going to be hearing today that ESA kills jobs, or 
impedes economic growth. We hear this every time, and we still 
don't have evidence. Words are not evidence. These claims are 
simply not grounded in reality. The U.S. economy has more than 
tripled in size since the law was passed, from $5 trillion in 
1973 to $16 trillion today.
    We have a duty to preserve species for the next generation. 
Indeed, a moral duty to do that. Instead of debating these 
bills, which are, in my mind, an embarrassment and a waste of 
time, we should be talking about how we can truly support the 
ESA, fund it fully, provide the personnel, and with that, let 
the job be done that legislation was intended to do.
    With that, Mr. Chairman, I yield back.

    [The prepared statement of Mr. Grijalva follows:]
   Prepared Statement of the Hon. Raul M. Grijalva, Ranking Member, 
                     Committee on Natural Resources
    Thank you, Mr. Chairman. It's a shame that the last hearing we'll 
have in this Committee before we return in November is such a fraud.
    The bills before us today are not in the best interest of the 
American public. They aren't meant to ``fix the Endangered Species 
Act,'' as my Republican colleagues will claim. They are not thoughtful 
pieces of legislation to fix real problems--like the extinction crisis 
we currently face. They are bad faith proposals designed to destroy the 
law and give handouts to oil and gas companies.
    It's no coincidence that the American Petroleum Institute, the 
American Exploration & Mining Association, and the Western Energy 
Alliance have all endorsed these bills.
    While this political stunt of a hearing is ridiculous on its own, 
the titles of some of these bills are insults to the public's 
intelligence. My personal favorite is the STORAGE Act, or the Stop 
Takings on Reserves Antithetical to Germane Encapsulation Act. It makes 
me wonder what my Republican friends think the phrase ``germane 
encapsulation'' even means.
    I'm a little disappointed that Mr. McClintock's bill is the only 
one without an acronym--I guess he missed the memo--but I digress.
    The important thing to remember today is that the Endangered 
Species Act works. Despite years of Republican efforts to weaken the 
Act and cut funding for agencies that protect and recover American 
wildlife, 99 percent of listed species have continued to survive, and 
90 percent are on schedule to meet their recovery goals. These facts 
are not up for debate. Deep down, even many Republicans know this. But 
the Republicans on this Committee pretend otherwise.
    Last year, this Committee passed a package of five extinction 
bills. They got no traction in the Full House because the public 
doesn't want this. Few people outside the oil, gas and mining 
industries actually oppose the Endangered Species Act.
    So, we hold these meaningless hearings and hold these meaningless 
votes, and we have to wonder why.
    Here we are today with a new package of damaging and misguided 
bills. They harm protected species and their habitats. They create 
barriers to listing species that need protection. They allow states to 
potentially over-ride listing decisions. They allow the use of faulty 
science and undermine citizen involvement in enforcement of the Act. 
They make too many other destructive and unwarranted changes to list 
them all. And I will do everything in my power to ensure that these 
bills suffer the same fate as the previous bills.
    These attacks on one of the most successful and popular 
conservation statutes in the history of the world are old, they're 
tired, and they're not fooling anyone.
    The Fish and Wildlife Service and the National Marine Fisheries 
Service have provided us with more than 40 years of evidence that the 
law gives states, localities, landowners, and private interests an 
incredible amount of flexibility to proceed with development projects. 
The law makes sure we build things and create jobs in ways that 
conserve fish, wildlife, plants and the landscapes they need to 
survive. These agencies are good at what they do. Congress needs to 
provide adequate funding for them to do their jobs, and then get out of 
the way.
    We're going to hear today that complying with the ESA kills jobs or 
impedes economic growth. We hear this every time, and we still don't 
have the evidence. Words are not evidence. These claims are simply not 
grounded in reality. The U.S. economy has more than tripled in size 
since the law was passed, from $5 trillion in 1973 to $16 trillion 
today.
    We have a moral duty to preserve species for the next generation, 
instead of debating these bills. They are an embarrassment and a waste 
of time.

    I yield back.

                                 ______
                                 

    The Chairman. Thank you, I think. I now want to yield to 
myself 5 minutes for my opening remarks.

STATEMENT OF THE HON. ROB BISHOP, A REPRESENTATIVE IN CONGRESS 
                     FROM THE STATE OF UTAH

    The Chairman. I am appreciative of the wonderful comments 
that have been made by the Ranking Member, as well as the 
Ranking Vice Member here today. I am very happy that you are so 
supportive of the piece of legislation that was signed by 
Richard Nixon. It is, indeed, his legacy. In fact, maybe we 
should have a monument on the Mall to Richard Nixon for ESA, 
EPA, Clean Air, and Clean Water Act. They all kind of roll 
together.
    Mr. Grijalva. Wilderness?
    The Chairman. Yes, all sorts of bad ideas.
    So, what Mr. Grijalva said is actually correct. We are here 
today to talk about modernizing this Act. I want to thank the 
witnesses, the bills' sponsors for being here today. I want to 
thank the Western Caucus and others who live in the West who 
understand. They have done a tremendous amount of work in 
drafting measures and building coalitions of support.
    The Endangered Species Act is an important law that is in 
need of improvements. Despite what some might have you believe, 
Americans actually do agree. The Morning Consult poll, which I 
want to ask unanimous consent to put into the record, conducted 
nationwide in September of 2018, showed 73 percent of Americans 
favor updating the Endangered Species Act. The poll also showed 
that a majority of Americans believe the main purpose of the 
Endangered Species Act should be to aid in the recovery of 
endangered plants and animal species, something it does not do 
now.
    More registered voters believe that states should be more 
responsible for managing the recovery of species than the 
Federal Government. And since 2015, there has been an 8 percent 
increase in voter opinions that state and local governments 
should be most responsible for managing endangered species 
efforts, primarily because the states actually work, and the 
Federal Government efforts don't.
    Two in three support removing species from the endangered 
species list, returning it to state management if they meet all 
of the recovery goals, something that does not happen in 
practice today. Sixty-eight percent support revising the 
Endangered Species Act to focus efforts on conserving species 
before they become threatened or endangered. And they are right 
in all those approaches.
    Too often, species are indefinitely kept on the endangered 
species list. Litigation focuses the law on listing more 
species and not enough on actual recovery and eventually de-
listing of species.
    State and local communities, and their expertise on the 
ground, are often cut out of the process. They have very little 
to say in the decisions to list and the most effective recovery 
strategies that can be used.
    At the end of the day, more focus needs to be on actual 
recovery and eventually de-listing a species. States should 
have a role in the recovery, rather than being ignored by the 
Federal Government. Science and best practices, rather than 
litigation and judges, should guide our decisions.
    The bills we are addressing today address these issues and 
they improve the law for the betterment of species and 
communities.
    Everything needs to be updated occasionally. It has been 
far too long since this was updated because we can do a better 
job, and we must do a better job. The Endangered Species Act is 
not necessarily being maligned, it is simply saying it is not 
working, and it needs to be made to work.
    I yield back the remainder of my time.

    [The prepared statement of Mr. Bishop follows:]
   Prepared Statement of the Hon. Rob Bishop, Chairman, Committee on 
                           Natural Resources
    It's been almost 45 years since the Endangered Species Act was 
first passed by Congress to protect and recover species at risk of 
extinction. Despite these worthy intentions, less than 2 percent of 
species have recovered enough to warrant removal from the list of 
endangered and threatened species.
    In the past several years, the Committee has held numerous hearings 
and heard testimony from dozens of witnesses on how the ESA has failed 
in its fundamental goal of recovering species. Further, the law has 
been misused to restrict land use, block economic activity, and stifle 
resource and infrastructure development. Excessive litigation has only 
exacerbated these issues and worked to drain resources away from actual 
conservation efforts. Clearly something is not working.
    I am optimistic that working with our colleagues in the Senate and 
this Administration, we can continue to lay the groundwork for ESA 
modernization. That is why we are here today to consider a package of 
bills from the Western Caucus that modernize the ESA. The nine bills 
before us today--two of which are bipartisan--seek to improve the Act 
in a manner that enhances species recovery without unduly burdening 
communities, economies and livelihoods.
    Action needs to be taken on numerous fronts to achieve these goals. 
Increasing efficiency and providing certainty regarding regulations are 
paramount to resolving conflict arising from the ESA. Bills presented 
today promote regulatory certainty and reward good behavior of public 
and private entities to help recover species.
    H.R. 6344, the LOCAL Act, is a bipartisan effort that will codify 
programs and increase certainty on regulations, incentivizing private 
property owners to manage land in a way that will benefit species we 
are so desperately trying to protect.
    H.R. 6360, the PREDICTS Act, will codify the Clinton 
Administration's ``No Surprises'' regulation, supporting public and 
private entities that faithfully uphold their agreements to help 
endangered species.
    H.R. 6346, the bipartisan WHOLE Act, will allow the totality of 
conservation efforts to be considered before Federal actions are taken, 
ensuring projects won't harm species while incentivizing private 
contributions to help recover species.
    H.R. 6354, the STORAGE Act, ensures misunderstandings, like 
designating limited water reservoirs and water infrastructure areas as 
critical habitat, will not take place, benefiting not only endangered 
species, but also water and power infrastructure operators and their 
customers.
    In addition to improving regulatory certainty, the ESA should be 
adapted to provide more meaningful opportunities for states, tribes, 
and local communities to be involved in the ESA decision-making 
process. These local entities often have some of the most specialized 
knowledge about the threats facing species and have successful local 
conservation measures in place to counter such threats and to ensure 
the survival of the species.
    H.R. 6345, the EMPOWERS Act, requires Federal agencies to consult 
states for data when listing decisions are considered that will impact 
a state.
    H.R. 3608, sponsored by Congressman McClintock, improves 
transparency by requiring that relevant state data be utilized in 
listing decisions and that data used as the basis for a listing 
decision be publicly disclosed, as well as information concerning ESA 
litigation.
    H.R. 6364, the LAMP Act, will assist state and local governments by 
allowing the establishment of cooperative agreements to manage species 
and habitats.
    Last, one thing we can all agree on is species recovery. H.R. 6356, 
the LIST Act, will help bring the ESA up to date, authorizing the 
Secretary of the Interior to de-list species discovered to be 
ecologically abundant.
    H.R. 6355, the PETITION Act, will reform the highly abused petition 
process, allowing for a petition backlog when frivolous petitions stack 
up and the Federal Government becomes vulnerable to lawsuits.
    I look forward to discussing these bills today and working 
together, along with my colleagues on the other side of the aisle, to 
find common ground on how to best improve this important law to ensure 
its success for future generations.
    I want to thank our witnesses and bill sponsors for being here 
today, and I look forward to hearing their testimony about these 
important measures.

                                 ______
                                 

    The Chairman. Now I am going to introduce the witnesses. We 
have, first of all, Mr. Greg Renkes, who is the Director of 
Office Policy Analysis with the U.S. Department of the 
Interior.
    I appreciate you being here.
    I wish to yield 30 seconds for Mr. LaMalfa, so he can 
introduce our second witness.
    If you would, please.
    Mr. LaMalfa. All right. Thank you, Mr. Chairman, for the 
honor of doing that.
    The President of California Farm Bureau, Jamie Johansson, 
has joined us today, and we are very pleased to have him and 
part of his team and his leadership out here with us.
    So, thank you for your attendance today.
    He is also a neighbor of mine in my home county, and 
purveys a very, very find olive oil product up there that is 
part of a very, very nice Ag. tour that goes on in October in 
Butte County, so it is fun to take part of that and see his 
family and operation there. I know that it really comes from 
the heart, where the Ag. background is.
    So, thank you for joining us today.
    And thank you, Mr. Chairman.

    The Chairman. Thank you. Our third witness is David Sauter, 
who is a County Commissioner in Washington State.
    I am saying that because there is no way I am ever going to 
pronounce your county properly, so you will have to do that for 
me. Thanks.
    Then Mr. Robert Dreher, who is the Senior Vice President 
with the Conservation Program and General Counsel at Defenders 
of Wildlife.
    And our last witness is Mr. Jonathan Wood, attorney with 
the Pacific Legal Foundation in Washington, DC.
    I remind our witnesses that, under our Committee Rules, 
they are limited on their oral statement to 5 minutes, but the 
entire written statement will appear in the hearing record.
    I am assuming you have all been here before, and recognize 
the mechanism in front of you. When your time starts, the green 
light goes on. As soon as it hits yellow, you have 1 minute 
left. When it is red, I am going to be snotty to you and 
actually cut you off in mid-sentence. So, please watch that red 
light. Don't let it hit you.
    With that, we are going to go through each bill 
individually and allow Members to ask witnesses questions 
pertaining to the bills being considered.
    We are going to start with H.R. 6344 by Mr. Tipton, which 
amends the Endangered Species Act of 1973 to encourage 
voluntary conservation efforts.
    The Chair is now going to recognize Mr. Tipton if he would 
like to introduce his piece of legislation.

  STATEMENT OF THE HON. SCOTT R. TIPTON, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF COLORADO

    Mr. Tipton. Thank you, Mr. Chairman. I want to also thank 
our panel for taking the time to be here today. I do appreciate 
the opportunity to be able to speak in support of the 
bipartisan Land Ownership Collaboration Accelerates Life Act, 
otherwise known as the LOCAL Act.
    I firmly believe that the most effective approach to 
species recovery and conservation is through proactive, 
localized efforts that take into account the unique landscape, 
habitat, and ecological conditions of an area. It is critical 
to empower the landowners who have their boots on the ground 
every day to lead critical conservation and recovery efforts.
    The LOCAL Act would amend and, I believe, strengthen the 
Endangered Species Act to give the Federal Government the 
opportunity to engage non-Federal landowners in voluntary 
conservation efforts through the species recovery agreements, 
habitat reserve agreements, private party conservation grants, 
and a conservation planning loan program.
    I don't think you can find a better steward of public lands 
or a protector of animals than landowners who are out working 
their land every day for farming, ranching, or other purposes. 
They know the challenges that threatened and endangered species 
face, and they are in a unique position to be able to provide 
input on the best conservation strategies.
    Through a species recovery agreement or a habitat reserve 
agreement, the Secretary of the Interior could enter into an 
agreement with a non-Federal landowner who agrees to carry out 
activities that protect or restore habitat and contribute to 
the recovery of an endangered or threatened species. The 
landowner would receive payments to cover the costs of these 
agreements.
    Through private-party conservation grants, a private 
property owner could receive financial conservation aid to 
alleviate the burdensome ESA compliance, and states, counties, 
and municipalities could receive assistance for conservation 
planning to the conservation planning loan programs.
    We have seen how collaboration and localized initiatives 
have benefited species like the sage-grouse in Colorado. The 
best way to be able to protect species is by preventing them 
from getting listed in the first place, so we need to start 
being proactive instead of reactive. This is the goal of the 
LOCAL Act.
    Thank you, Mr. Chairman, and I yield back.
    The Chairman. All right. We are now going to turn to our 
panel.
    Once again, you can have 5 minutes to begin with. You have 
nine bills that we are going to handle here. If you wish to 
speak to all nine bills, that is fine. If you want to try to 
sum up your entire statement the first time around and then, if 
you want to add to that when we hit the other bills, however 
you would like to handle that.
    Mr. Renkes, let me recognize you first to talk about, 
hopefully, all nine. And then we will see if there is stuff 
that can be added to you afterwards.

STATEMENT OF GREGG RENKES, DIRECTOR, OFFICE OF POLICY ANALYSIS, 
        U.S. DEPARTMENT OF THE INTERIOR, WASHINGTON, DC

    Mr. Renkes. Thank you, Chairman Bishop, Ranking Member 
Grijalva, and members of the Committee. My name is Gregg 
Renkes. I am the Director of the Office of Policy Analysis in 
the Department of the Interior, and I appreciate the 
opportunity to present the Department's views to you today on 
the nine bills to amend the Endangered Species Act.
    The Administration supports the goals of the ESA to prevent 
extinction and foster recovery of species in danger of 
extinction. We pursue these goals, knowing the Federal 
Government must be a good neighbor, and also knowing that 
critical expertise and resources for species recovery most 
often lie with the states.
    We must partner with the states and private landowners, who 
often bear a disproportionate share of the burden in conserving 
Endangered Species-listed species, particularly in the West. 
And we are working to make common-sense improvements to ESA 
implementation in recently proposed regulations.
    Earlier this month, Secretary Zinke issued a memorandum 
reaffirming the authority of states to exercise broad powers as 
stewards of the Nation's fish and wildlife on Federal public 
lands and waters. He instructed all bureaus to complete a 
review of Fish and Wildlife regulations, policies, and 
guidance, and provide recommendations as to how the Department 
can better align with states.
    The Secretary recognizes that states are good stewards of 
our natural resources, and have a long history of sound fish 
and wildlife management. This is why the Department 
participates in the joint Federal-State task force on ESA 
policy, and was a participant with the Western Governors 
Association endangered species efforts. The Administration is 
committed to making the ESA work for the American people, and 
we will continue to work with the states and Congress to 
improve implementation of the law.
    Mr. Chairman, a modern vision of conservation is one that 
uses cooperative federalism, public-private partnerships, 
market-based solutions, the best-available science, 
transparency, and sensible, efficient regulation to achieve the 
greatest good for the greatest number of people over the 
longest term.
    The bills before the Committee today are excellent examples 
of these principles, and complement the Administration's 
efforts. Collectively, these bills seek to improve the ESA by 
providing greater regulatory certainty, embracing federalism 
and transparency, and improving frameworks for listing, de-
listing, and recovery of species. The Department supports these 
goals.
    Staying within my allotted time, I refer the Committee to 
my written statement for the Department's more detailed 
comments on each of the nine bills.
    Four of the bills being discussed today seek to improve 
regulatory certainty for states, local governments, and private 
landowners impacted by the ESA. Consistent with the goals of 
the LOCAL Act, the Department believes strongly in the value of 
voluntary conservation, the power of financial incentives, and 
in providing regulatory assurances to landowners doing good 
work on their land.
    And we agree with the sponsors of the WHOLE Act, the 
STORAGE Act, and the PREDICTS Act, that improving 
predictability and regulatory certainty under the ESA is of 
paramount importance to the American people.
    We support the themes of the EMPOWERS Act, LAMP Act, and 
Endangered Special Transparency and Reasonableness Act to 
strengthen the cooperative federalism structure of the ESA, and 
improve transparency.
    The Department recognizes that state fish and game agencies 
are experts in the conservation field, and critical partners in 
our work to achieve ESA goals.
    The PETITION Act and LIST Act seek to improve procedures 
for listing and de-listing. The Department agrees more needs to 
be done. We have proposed regulations to clarify the factors 
used to determine species recovery. The petition process needs 
to be improved. We all understand the time and cost of 
litigation have become significant challenges in implementing 
ESA.
    As the ESA approaches its 50th anniversary, the Department 
recognizes the need to modernize the law and make it work for 
the American people. Our commitment to improving implementation 
of the ESA is reflected in the Administration's reform and re-
organization recommendations, which return the National Marine 
Fisheries Service to Interior, merging it with the Fish and 
Wildlife Service. This would consolidate the Endangered Species 
Act and Marine Mammal Protection Act into one agency within 
Interior, resulting in more consistent policy and improve 
service to stakeholders.
    The Administration is committed to common-sense solutions 
that make the ESA as efficient, reliable, and defensible as 
possible, and conserving threatened and endangered species and 
protecting the ecosystems upon which they depend. We appreciate 
the Committee's work toward this end, and support the goals of 
the nine bills before the Committee today.
    The Department stands ready to work with you to address 
these and other legislative efforts to improve the Endangered 
Species Act. Thank you.

    [The prepared statement of Mr. Renkes follows:]
    Prepared Statement of Gregg Renkes, Director, Office of Policy 
 Analysis, Department of the Interior on H.R. 6356, LIST Act of 2018; 
  H.R. 6345, EMPOWERS Act of 2018; H.R. 6344, LOCAL Act of 2018; H.R. 
  6355, PETITION Act of 2018; H.R. 6364, LAMP Act of 2018; H.R. 6360, 
PREDICTS Act of 2018; H.R. 6346, WHOLE Act of 2018; H.R. 6354, STORAGE 
   Act of 2018; and H.R. 3608, ``Endangered Species Transparency and 
                          Reasonableness Act''
                              introduction
    Good afternoon Chairman Bishop, Ranking Member Grijalva, and 
members of the Committee. I am Gregg Renkes, Director of the Office of 
Policy Analysis in the Department of the Interior (Department). I 
appreciate the opportunity to testify before you today on nine bills to 
amend the Endangered Species Act of 1973 (ESA). The Administration 
supports the goals of the ESA to prevent the extinction of species and 
to foster recovery of species in danger of extinction. We pursue these 
goals knowing that the Federal Government must be a good neighbor and 
work collaboratively with states and landowners who often bear a 
disproportionate burden in conserving species protected under the ESA, 
given that approximately two-thirds of lands in the United States are 
privately owned. That is why the Administration is working diligently 
to partner with states and landowners and make common-sense 
improvements to how we administer the ESA, while maintaining our 
environmental standards and stewardship responsibilities.
    Each of the bills being discussed today--H.R. 6356, H.R. 6345, H.R. 
6344, H.R. 6355, H.R. 6364, H.R. 6360, H.R. 6346, H.R. 6354, and H.R. 
3608--seeks to improve implementation of the ESA. In general, the 
Administration supports the goals of these bills to improve 
coordination with, and expand the role of, the states in implementing 
the ESA, to improve transparency in decision making, to expand tools to 
encourage voluntary conservation on private lands, and to improve the 
processes for listing, down-listing, de-listing and recovery of 
species. The Department welcomes the opportunity to work with the 
Committee to improve the ESA's effectiveness at its primary goals--
preventing extinction and recovery--while reducing and avoiding 
unnecessary burdens.
                               background
    The ESA is one of our Nation's most important wildlife conservation 
laws. It is implemented jointly by the U.S. Fish and Wildlife Service 
(Service) and the National Oceanic and Atmospheric Administration's 
National Marine Fisheries Service (NMFS) (together known as ``the 
Services''). The law's stated purpose is to provide a program and means 
for the conservation of threatened and endangered species and the 
ecosystems upon which they depend. When a species is designated as 
threatened or endangered--or ``listed'' under the ESA--it is in urgent 
need of help. The law directs the Services to use the best available 
scientific and commercial information to determine whether a species 
needs to be listed, to identify and address the threats to the species, 
and to facilitate the recovery of the species.
                       administration priorities
    The Administration is committed to making the ESA work for the 
American people. The ESA has had some notable success since its passage 
over 40 years ago--bald eagles and peregrine falcons, once rare in the 
lower 48 states, are fully recovered, and we have brought species like 
the California condor and black-footed ferret back from the very brink 
of extinction. But as we look at our record of de-listing and recovery 
there is clearly room for improvement. Implementation of the law 
regularly generates frustration and controversy among private 
landowners, states, regulated industries, and environmental advocates 
alike. Some argue that getting species on the list is easier than 
getting them off. Particularly in western states, the law and certain 
species have become lightning rods for intense disagreement.
    Our commitment to improving implementation of the ESA is reflected 
in the Administration's Reform Plan and Reorganization Recommendations 
which includes a proposal to merge the Department of Commerce's NMFS 
with the Service. This merger would consolidate the administration of 
the ESA and Marine Mammal Protection Act in one agency and combine the 
Service's science and management capacity, resulting in more consistent 
Federal fisheries and wildlife policy and improved service to 
stakeholders and the public, particularly on infrastructure permitting.
    The Department is focused on improving implementation of the ESA 
and has placed a high priority on regulatory reform. A modern vision of 
conservation is one that uses cooperative federalism, public-private 
partnerships, market-based solutions, the best available science, and 
sensible regulations in order to achieve the greatest good in the 
longest term. To that end, in July of this year, the Service and NMFS 
jointly proposed regulations to modify the parameters for Federal 
agency consultation; clarify and improve some of the standards under 
which listings, de-listing, reclassifications, and critical habitat 
designations are made; and adopt a change in approach to how the 
Service applies protections to threatened species. These proposed 
revisions are based on public input, the best available science, and 
best practices and are intended to improve conservation results and 
reduce the regulatory burden on the American people.
    In addition to pursuing these regulatory revisions, the Department 
and the Service continue to work to address concerns raised by state 
and local governments, as well as other stakeholders, through 
administrative initiatives to improve implementation of the ESA. As 
part of these efforts, the Service has sought to bring greater 
transparency and predictability to the listing process, which benefits 
stakeholders and the public. To achieve this, the Service developed and 
released a National Listing Workplan, which prioritizes listing and 
critical habitat decisions over a 7-year period. In addition to 
providing transparency and predictability, the workplan helps the 
Service and its partners be strategic in delivering conservation on the 
ground to prevent the need to list species under the ESA. The workplan 
identifies candidate species and species petitioned for listing and 
undergoing a 12-month finding.
    In a similar vein, late last year, the Service also developed a 
National Downlisting and Delisting Workplan that outlines upcoming 
actions addressing 5-year status reviews, petitions undergoing a 12-
month finding, and proposed rules to down-list and de-list species over 
a 3-year period. The workplan was developed to provide greater 
predictability regarding the timing of recovery actions.
    The Service also developed the Species Status Assessment (SSA) 
framework as part of the ongoing effort to improve implementation of 
the ESA and enhance conservation success. An SSA is a focused, science-
based, repeatable, and rigorous assessment of a species' ability to 
maintain self-sustaining populations over time. The result is a single 
document that delivers foundational science for informing all ESA 
decisions, including listing determinations, consultations, grant 
allocations, permitting, and recovery planning.
    When it comes to developing guidance on how to best help listed 
species achieve recovery, the Service has revised its approach. 
Informed by the Species Status Assessment, the Services is improving 
and streamlining the way it develops recovery plans to produce them 
faster and with more flexibility to adapt to new information or 
circumstances affecting species.
    Additionally, the Service is tackling the backlog of recovery 
plans, 5-year status reviews, and de-listing and down-listing actions. 
The Service must manage its multiple responsibilities for recovery 
planning, recovery actions, de-listing and down-listing rulemaking, and 
5-year status reviews concurrently and is working to develop a national 
multi-year strategy to ensure balance among these responsibilities. In 
the FY2019 Budget, the Administration proposed modest funding increases 
to expand the Service's capacity to ensure that recovery plans have 
objective and measurable recovery criteria and to address 5-year status 
review recommendations.
    Finally, the Department and Service are committed to being good 
partners to the states and working to incorporate that in all they do. 
In support of that, earlier this month, Secretary Zinke issued a 
Memorandum to all Bureaus reaffirming the authority of the states to 
exercise their legal authority to regulate fish and wildlife species on 
Federal public lands and waters, except as otherwise required by 
Federal law. The Secretary recognizes that states are good stewards of 
our natural resources and practice sound management of fish and 
wildlife while allowing appropriate opportunities for citizens to enjoy 
public resources.

    I offer the following comments on the individual bills under 
consideration today.
H.R. 6356--Less Imprecision in Species Treatment (LIST) Act of 2018
    The LIST Act would require the Secretary to initiate a de-listing 
rule when a species meets the recovery goals described in an associated 
recovery plan, or when the Secretary determines that the species is 
recovered based on available information. It requires a species to be 
de-listed if the Secretary finds that it was listed based on 
inaccurate, fraudulent, or misrepresentative information. Additionally, 
it would prevent parties from submitting petitions for a period of 10 
years if the Secretary determines that they knowingly submitted 
fraudulent species data. The LIST Act would transform recovery plans 
from advisory documents, the content of which are not subject to legal 
challenge, into action-forcing documents. If enacted, recovery plans 
would become decision documents and may be subject to legal challenge. 
The bill would also shield negative petition findings and de-listing 
determinations from public review and comment, and shield a subset of 
negative findings from judicial review, while retaining those public 
participation and oversight mechanisms for positive petition findings 
and listing determinations.
    The Department and the Service values science-based decision making 
and want to ensure that it continues. The Department would welcome the 
opportunity to work with the Committee on these areas of the bill.
H.R. 6345--Ensuring Meaningful Petition Outreach While Enhancing Rights 
        of States (EMPOWERS) Act of 2018
    The EMPOWERS Act would require petitioners to notify affected 
states and counties prior to submitting petitions to the Secretary. It 
would also enable states to advise the Secretary on petitions and 
require the Secretary to demonstrate that the information provided by a 
state or county government is incorrect if the Secretary disagrees with 
a recommendation that the petition is not warranted. The bill would 
also require the Secretary to provide advance notice to affected states 
and counties of a proposed regulation, invite recommendations from the 
state and county governments, and require the Secretary to respond 
within a certain time frame if the Secretary disagrees with a not 
warranted recommendation.
    The Department supports advance notification from petitioners to 
state governments regarding forthcoming petitions as an important means 
of increasing transparency and raising awareness among affected 
entities, and recently revised the regulations governing processing of 
petitions to require such advance notification. The Department welcomes 
the information, data, and advice provided by state and local 
governments. The Secretary will continue to make species determinations 
based on the best available scientific and commercial information. 
State fish and wildlife agencies are expert agencies in the 
conservation of fish, wildlife and plants, and the Service makes 
special effort to obtain information from those agencies and give 
special consideration to their views. Federal agencies will continue to 
work with the states and local communities to ensure the best possible 
science is used for decision making. For wide ranging species, the 
requirement to provide advance notification and treat information from 
county governments as the best available science will be procedurally 
burdensome and problematic. Additionally, requirements and associated 
deadlines related to proposed regulations in the bill may increase 
workload for agency staff and may expose the Department to additional 
litigation risk. We welcome the opportunity to discuss these issues 
with the Committee.
H.R. 6344--Land Ownership Collaboration Accelerates Life Act (LOCAL) of 
        2018
    The LOCAL Act would establish new programs administered by the 
Secretary to incentivize voluntary conservation on private lands. These 
include incentive payments for short-term conservation agreements for 
listed species; cost-share payments and incidental take permits for 
long-term conservation contracts for listed species, candidate species, 
or species of concern; incentive payments for the preservation of 
habitat for listed species; and grants for private landowners 
implementing conservation practices for listed species on their land. 
It also establishes a habitat conservation planning loan program for 
state and local governments. The bill also creates an aid program to 
compensate landowners for the fair market value of a project on their 
land that would not comply with section 9(a). Additionally, the bill 
requires the Secretary to review applications for incidental take 
permits for private landowners within a certain time frame.
    The Department strongly supports voluntary conservation agreements 
for species and habitats and recognizes the need for incentives to 
encourage broad participation. To that end, the Service offers 
Candidate Conservation Agreements with Assurances (CCAAs), Safe Harbor 
Agreements (SHAs), and Habitat Conservation Plans (HCPs) to landowners, 
with the incentive for participation primarily based on regulatory 
assurances. This bill would direct the Service to offer a variety of 
new species and habitat conservation programs to landowners, with the 
primary incentive for participation being financial support. 
Considering the creation of a significant new financial assistance 
program requires careful consideration of budgetary impacts to ensure 
consistency with the Administration's broader fiscal goals. While 
Federal funding, to the extent that it is available, could provide 
strong incentives to encourage conservation efforts by additional 
landowners, we would like to work with the Committee to promote broader 
participation in CCAAs, SHAs, and HCPs, which all provide regulatory 
assurances.
    In light of the overlap between the provisions of H.R. 6344, H.R. 
6360, and H.R. 6364 concerning voluntary conservation agreement 
vehicles and provisions, we recommend that the Committee work with the 
Department to reconcile the separate but related provisions in these 
three bills. We would like to work with the Committee to ensure these 
programs are structured in a manner consistent with the 
Administration's proposals to achieve operational efficiencies in 
similar conservation programs managed by the U.S. Department of 
Agriculture.
H.R. 6355--Providing ESA Timing Improvements That Increase 
        Opportunities for Nonlisting (PETITION) Act of 2018
    The PETITION Act would establish a procedure through which the 
Secretary could declare ``petition backlogs'' for 90-day and 12-month 
findings. It would set guidelines and restrictions for the Secretary's 
work on petitions during a backlog period, and would establish 
deadlines for completing review of listing and uplisting petitions. 
Additionally, it shields from judicial review any negative 90-day and 
12-month findings for listing or uplisting petitions made due to the 
expiration of a deadline set in the bill.
    The Department appreciates and supports the goals of the PETITION 
Act to address the workload challenges associated with the petition 
process. And while we agree with the need to focus efforts on recovery 
and de-listing, we would like to work with the Committee to determine 
more appropriate deadlines that would not place additional constraints 
on the work of the agency.
H.R. 6364--Localizing Authority of Management Plans (LAMP) Act of 2018
    The LAMP Act would authorize the Secretary to delegate to a state 
the authority to manage listed species in that state. It would also 
expand the existing authority for the Service to establish cooperative 
agreements with states to also cover agreements with groups of states, 
political subdivisions of states, Indian tribes, local governments, and 
non-Federal persons.
    The Department appreciates and supports the goals of the LAMP Act 
to expand the role of state, local, and tribal governments, and 
individuals in implementing the ESA. The Department would like to work 
with the Committee on the practical application of this bill and the 
implications to the public.
    The LAMP Act would re-shape the relationship between the Services 
and non-Federal parties in conserving species under the ESA. By 
replacing the permitting authorities of the ESA that underlie existing 
voluntary conservation agreements with a straight-forward exemption 
from the take prohibitions under the ESA, we are uncertain how this 
would affect incidental take permitting and look forward to working 
with the bill's sponsors to better understand their intent. 
Additionally, the provisions authorizing the Secretary to delegate ESA 
authorities to a state are silent with regard to the implementing 
regulations, policies, and procedural manuals that guide the details of 
implementing the Act across the country. As written, this language has 
the potential to authorize variable ESA implementation across the 
country, with different policies and procedures among states and 
between states and the Services.
    We welcome the opportunity to work with the Committee to further 
consider this legislation and develop provisions that could ensure 
consistent implementation among Federal and state agencies, and the 
states themselves.
H.R. 6360--Permit Reassurances Enabling Direct Improvements for 
        Conservation, Tenants, and Species (PREDICTS) Act of 2018
    The PREDICTS Act would codify certain Federal regulations that 
enable the development of HCPs, CCAAs, and SHAs. The bill would also 
authorize the Secretary to provide grants of up to $10,000 to assist 
qualifying landowners.
    The Department supports the PREDICTS Act, which would codify 
several important tools we use to incentivize voluntary conservation 
and provide regulatory predictability to non-Federal entities. We 
would, however, welcome the opportunity to work with the Committee to 
clarify the approval standard for CCAAs and SHAs to ensure that these 
plans continue to contribute to species recovery.
H.R. 6346--Weigh Habitats Offsetting Locational Effects (WHOLE) Act of 
        2018
    The WHOLE Act would require that when making a determination of 
whether a Federal action is likely to jeopardize a species, destroy, or 
adversely modify critical habitat, the Secretary must consider the 
offsetting effects of all avoidance, minimization, and conservation 
measures already in place or proposed to be implemented, including 
habitat conservation measures.
    The Department supports the WHOLE Act, which, with one exception, 
would codify processes already a part of long-standing practice and 
policy for Federal agency consultation under the ESA. That exception 
concerns determinations of the effect of Federal actions on designated 
critical habitat. The legislative language does not limit the 
offsetting measures to those carried out only within the designated 
critical habitat. The Department would welcome the opportunity to work 
with the Committee to improve that language.
H.R. 6354--Stop Takings on Reserves Antithetical to Germane 
        Encapsulation (STORAGE) Act of 2018
    The STORAGE Act would prohibit the Secretary from designating 
critical habitat for any area in a water storage reservoir, water 
diversion structure, canal, or other water storage, diversion, or 
delivery facility, where habitat is periodically created and destroyed 
as a result of changes in water levels caused by the operation of such 
facility.
    The Department supports the intent of the STORAGE Act. While it is 
current Service practice to not designate critical habitat within the 
operational pool of water storage reservoirs, if species presence is in 
direct conflict with the purposes of the facility, there are 
circumstances where operations and maintenance of conveyance facilities 
is compatible with the function of critical habitat. The Department 
would appreciate the opportunity to work with the Committee to refine 
the language in this legislation.
H.R. 3608--Endangered Species Transparency and Reasonableness Act
    The Endangered Species Transparency and Reasonableness Act would 
require that data used in species listings be made publicly available 
and that all data used shall be provided to states in advance of 
listing determination. It broadens the definition of ``best scientific 
and commercial information available'' to include data provided by 
state, county, and tribal governments. It requires the Secretary to 
submit a report to Congress and make public any expenditures related to 
litigation. Additionally, the bill would cap attorney's fees to 
prevailing parties in ESA citizen suites at $125 per hour, consistent 
with current Federal law governing other actions against the United 
States.
    The Department has worked to address concerns regarding 
transparency of the data used to make listing determinations. As in 
previous testimony by this Administration, the Department would 
recommend modifying this legislation to require the Service to consider 
all data submitted by states, tribes, and local governments, rather 
than automatically deeming that data to be the ``best scientific and 
commercial data available'' as currently required in the bill. Defining 
that term to automatically include data submitted by states, tribes, 
and counties, without regard to its quality, would be a significant 
departure from scientific integrity standards.
    Also as stated in previous testimony by this Administration, this 
legislation would in effect limit attorneys' fees for successful 
citizen plaintiffs in ESA cases against the Federal Government. The 
time and cost of litigation is one of the significant challenges we 
face in implementing the ESA. As currently drafted, it is unclear 
whether the legislation would require that all prevailing fee awards be 
paid through annual appropriations, rather than having the option to 
pay through the Judgment Fund as is the case under current law. The 
Department would welcome the opportunity to work with the Committee to 
clarify this aspect of the legislation.
                               conclusion
    The Department recognizes our shared interest in modernizing the 
ESA and making it work for wildlife and the American people. We 
appreciate the Committee's attention to this effort. We support the 
goals of improving the ESA through cooperative federalism, public-
private partnerships, market-based solutions, utilization of the best 
available science, and effective, sensible regulations. We welcome the 
opportunity to work with the Committee to address some technical 
modifications to the proposed legislation. The Department is committed 
to making the ESA as efficient, predictable and effective as possible 
in accomplishing its purpose of conserving threatened and endangered 
species and protecting the ecosystems upon which they depend. While the 
ESA has had some success since its passage over 40 years ago, there are 
greater opportunities ahead. The Department looks forward to working 
with the Committee to address these and other legislative efforts to 
improve the ESA.

                                 ______
                                 

    The Chairman. Thank you, sir. I appreciate that.
    To our other witnesses, let me try to explain what we are 
trying to do here. There are nine bills. If you wish to address 
all nine bills in the first 5 minutes, we can do that. Then we 
will come back with specifics afterwards, as we go through 
them, bill by bill. Or, if you want to just speak on the bills 
for which you want to speak about, and not the others, we can 
do that at the same time. So, I give you that option, whether 
you want to comment on all of them at once, or just on this 
specific one.
    But we are going to talk, first of all, about the Tipton 
bill. We will ask questions about the Tipton bill before we go 
to the others.
    So, with that, Mr. Johansson.

STATEMENT OF JAMIE JOHANSSON, PRESIDENT, CALIFORNIA FARM BUREAU 
               FEDERATION, SACRAMENTO, CALIFORNIA

    Mr. Johansson. Thank you, Chairman Bishop and Ranking 
Member Grijalva, for the opportunity to testify before you from 
the American Farm Bureau. I am Jamie Johansson. I am president 
of the California Farm Bureau Federation. We represent more 
than 39,000 members across 56 counties, contributing the 
largest agricultural economy of any state in the Nation.
    Our farmers and ranchers provide food, fiber, and feed to 
our local communities, the Nation, and across the globe. In 
California, battles over everything from spotted owls to delta 
smelt have reshaped our rural communities and, sadly, have 
created tremendous industries of conflict. All this with little 
to show in the way of improvements for the species.
    This culture of conflict and lack of success is evidence 
that conservation is at a crossroads. We can either continue 
down the path of escalating conflict and seemingly endless 
cycles of listings and lawsuits, or we can take a long, hard 
look at what the past 45 years of implementing the Endangered 
Species Act can teach us, as we strive to make the ESA work 
better.
    The law could be better for species, whether listed or 
unlisted. And better for people, whether farmer or 
conservationist. There are three reasons this is the case.
    First, we all value protecting species from extinction. Our 
disagreements are not about the goals of species protection, 
but the best way to achieve that goal.
    Second, there is widespread acknowledgment that ESA can be 
improved to work better for species and people.
    Third, the key to the ESA working better is improving 
opportunities for collaborative conservation by reducing 
conflict and increasing regulatory certainty. The bills under 
deliberation today move in the direction of bringing regulatory 
certainty.
    Regarding my first point, I wish to state that we are not 
here to question the Act's fundamental goal of striving to 
conserve species from extinction. This goal will not and should 
not change. What we grapple with today is not whether we should 
conserve species from extinction, but how we should conserve 
species from extinction.
    To expand on my second point, I believe that there is 
widespread acknowledgment that the ESA could work better for 
both species and people. Though everyone may not state it 
precisely that way, if you look at how the issue is discussed, 
the conservation groups are increasingly acknowledging the need 
to take care of landowners who are well positioned to help 
species.
    Meanwhile, farmers and ranchers believe they need to take 
care of the species if we want to continue to take care of our 
future. While we all may say it differently, there is a common 
message that the ESA can and should be functioning more 
effectively for both species and people.
    This leads me to my third point, and the principal reason I 
am here today. I believe that if the ESA is to work better for 
species, it must work better for people. This is the reason for 
your convening today to consider legislation that could provide 
improvements in areas where the existing law has created 
unnecessary and unproductive conflict. What we know is that to 
actually take care of species on the land, we need to work 
together, not against the people on the land. For this to 
happen, we must increase the opportunities for collaboration 
and decrease the opportunities for conflict.
    Currently, landowners view the ESA as a threat. The history 
of the ESA has generally shown landowners that having species 
or habitat on their land creates a lot of risk, and provides no 
real benefit. Given that half of listed species spend 80 
percent of their lives on private land, this situation offers 
little opportunity for people or species.
    Under the current regulatory climate, the ESA 
disincentivizes landowners from protecting and growing habitat. 
We can all agree that rational landowners should do everything 
they can to reduce their risk by minimizing habitat or species 
on their land. Despite this hard logic, I am proud to say that 
farmers and ranchers are good stewards, and generally accept 
that risk.
    But escalating conflicts and expanding lists of endangered 
and threatened species are consistently straining the situation 
now. Now is the time to focus on improvements to the ESA that 
will encourage collaborative conservation by reducing conflict 
and improving regulatory certainty.
    We appreciate the Committee's hard work to identify aspects 
of the ESA that can be improved, and offer the American Farm 
Bureau Federation's support for the measures being considered 
before the Committee today.
    Ideas to prioritize petitions, improve transparency of data 
and litigation, and provide greater opportunity for state and 
local governments to participate in management of species are 
ideas that have been discussed in many forms, and are concepts 
also included in Senator Barrasso's discussion draft of the 
Endangered Species Act Amendments of 2018.
    As the legislative efforts move forward in the House and 
Senate, we emphasize the importance of incorporating the 
breadth of perspectives into the process in order to develop 
viable and durable solutions that will result in long-term, 
meaningful improvements to the Endangered Species Act.
    Thank you.

    [The prepared statement of Mr. Johansson follows:]
   Prepared Statement of Jamie Johansson, President, California Farm 
 Bureau Federation on behalf of the American Farm Bureau Federation on 
H.R. 6344, H.R. 6360, H.R. 6346, H.R. 6354, H.R. 6345, H.R. 3608. H.R. 
                     6364, H.R. 6356, and H.R. 6355
    Thank you, Chairman Bishop and Ranking Member Grijalva for the 
opportunity to testify. I am Jamie Johansson, President of the 
California Farm Bureau Federation. We represent more than 39,000 
members across 56 counties contributing the largest agricultural 
economy of any state in the Nation. Our farmers and ranchers provide 
food, fiber, and feed to our local communities, to the Nation, and 
across the globe.
    In California, battles over everything from spotted owls to delta 
smelt have reshaped rural communities, and sadly, have created 
tremendous industries of conflict. All this with little to show in the 
way of improvements for the species.
    This culture of conflict and lack of success is evidence that 
conservation is at a crossroads. We can either continue down the path 
of escalating conflict and seemingly endless cycles of listings and 
lawsuits, or we can take a long hard look at what the past 45 years of 
implementing the Endangered Species Act (ESA or ``the Act'') can teach 
us as we strive to make the ESA work better. The law can be better for 
species, whether listed or unlisted, and better for people, whether 
farmer or conservationist.

    There are three reasons this is the case.

    First, we all value protecting species from extinction. Our 
disagreements are not about the goal of species protection, but the 
best way to achieve that goal.
    Second, there is widespread acknowledgement that the ESA can be 
improved to work better for species and people.
    Third, the key to the ESA working better is improving opportunities 
for collaborative conservation by reducing conflict and increasing 
regulatory certainty. The bills under deliberation today move in the 
direction of bringing regulatory certainty.
    Regarding my first point, I wish to state that we are not here to 
question the Act's fundamental goal of striving to conserve species 
from extinction. This goal will not and should not change. What we 
grapple with today is not whether we should conserve species from 
extinction, but how we should conserve species from extinction.
    To expand on my second point. I believe that there is widespread 
acknowledgement that the ESA could work better for both species and 
people. Though everyone may not state it precisely that way, if you 
look at how the issue is discussed, the conservation groups are 
increasingly acknowledging the need to take care of landowners who are 
well positioned to help species. Meanwhile, farmers and ranchers 
believe they need to take care of the species if we want to take care 
of our future. While we all may say it differently, there is a common 
message that the ESA can and should be functioning more effectively for 
both species and people.
    This convergence of messages from what traditionally has been 
sparring groups, was perhaps best reflected in the Western Governors' 
Association's ``Initiative on Species Conservation and the Endangered 
Species Act.'' This thorough and inclusive process, in which Farm 
Bureau was an active participant, brought together stakeholders on all 
sides of the issue. The initiative involved several years exploring 
ideas ``for improving the efficacy of the Endangered Species Act,'' and 
included all manner of positions and viewpoints. A common theme was 
that improvements could, and should, be made.
    This leads me to my third point, and the principle reason I am here 
today. I believe that if the ESA is to work better for species, it must 
work better for people. This is the reason for your convening today, to 
consider legislation that could provide improvements in areas where the 
existing law has created unnecessary and unproductive conflict. What we 
know is that to actually take care of species on the land, we need to 
work with, not against, the people on the land. For this to happen, we 
must increase the opportunities for collaboration and decrease the 
opportunities for conflict.
    Currently, landowners view the ESA as a threat. The history of the 
ESA has generally shown landowners that having species or habitat on 
their land creates a lot of risk and provides no real benefit. Given 
that half of listed species spend 80 percent of their lives on private 
land, this situation offers little opportunity for people or 
species.\1\
---------------------------------------------------------------------------
    \1\ U.S. Fish & Wildlife Service, ``Our Endangered Species Program 
and How It Works With Landowners,'' 2009. https://www.fws.gov/
endangered/esa-library/pdf/landowners.pdf.
---------------------------------------------------------------------------
    Perhaps no species is more symbolic and perhaps symptomatic of the 
ESA's challenges than the northern spotted owl. Listed as threatened in 
1990, this listing kicked off the timber wars that reshaped the Pacific 
Northwest and the ESA. Thriving rural communities lost a significant 
portion of their economic base because of the costs and restrictions 
placed on timber harvest. As much as any other species, the spotted owl 
proved to landowners that endangered species and their habitat were 
major hazards to be avoided at all costs.
    All this, and yet the spotted owl is still not doing well. The 
primary threat now appears to be the barred owl--a species that over 
the past century has expanded its range from the east, outcompeting, 
breeding, and killing the spotted owl.
    In sum, the listing harmed our rural communities. The ensuing 
battles weaponized the Endangered Species Act and led to the creation 
of a massive industry of conflict. This resulted in turning the ESA 
into a feared threat to landowners. Currently, the spotted owl is worse 
off than ever.
    Several more examples illustrate the very real conflicts in 
California, both those experienced in the past and problems we 
anticipate in the future.
                      delta smelt: a failed system
    Another example of extraordinary harm, without commensurate 
benefit, is the crippling effect litigation over the delta smelt has 
had on California's water system. Questionable science has focused 
regulatory controls on California's state and Federal water projects 
because this is the easiest ``knob'' the regulators have had to turn. 
Litigation-focused advocacy groups have also turned the smelt into a 
nuclear weapon in court to further their own narrow agenda.
    The real causes of the smelt's decline, however, are much more 
complex than just the state and Federal projects. In fact, one of the 
biggest causes appears to be an invasive clam that has wiped out the 
smelt's primary food supply. While there's not a lot we can do about 
the clams, the best science today suggests that any threat from the 
projects can be managed without eliminating the water supply to cities 
and farms. Working with water users and landowners to improve habitat 
and food supply are the more effective ``knobs'' we should be turning.
                        salmon: lost opportunity
    In Northern California, farmers and ranchers worked for decades to 
make improvements beneficial to salmon and steelhead. Millions have 
been invested in putting in fish screens to prevent juvenile salmon 
from being pulled into water diversions. Significant amounts of water 
historically used for irrigation and municipal supply have flowed 
through the California Bay Delta and out to sea in an effort to improve 
the survival of salmon. However, these efforts have not had the 
intended effect of increasing salmon populations. Instead, we are 
finding that collaborative efforts to allow juvenile salmon to spend 
time in flooded rice fields are having a much better effect than simply 
keeping more water in our river systems. This is yet another example of 
the need for collaboration rather than conflict.
    Elsewhere in the battles over salmon, farmers and ranchers sought 
to work with local, state and Federal agencies to implement a small-
scale supplementation program. The constraints of the ESA and 
bureaucratic reluctance to engage in supplementation (it is out of 
fashion in the latest conservation thinking) resulted in the project 
going nowhere. This reinforced in the minds of farmers and ranchers 
that the real motivations are something other than actually helping 
species.
      small success in collaborative conservation on working lands
    There are positive examples of collaboration on working lands 
during the last two administrations. The Bush administration 
promulgated 4(d) rules that exempt routine ranching activities from the 
prohibitions of the Act for the California Tiger Salamander and 
California Red Legged Frog. In both examples, the U.S. Fish and 
Wildlife Service (FWS) recognized that ranches provided the bulk of 
habitat for these species. They saw that continued ranching was more 
beneficial to the species than preventing the possible deaths of a few 
critters and potentially driving ranchers to sell for development or 
switch to more profitable crops.
    Another successful example of collaboration came during the Obama 
administration when the Modoc Sucker (a small fish) was de-listed after 
extensive work between the agency and ranchers in Modoc and Lassen to 
improve habitat.
    Unfortunately, these positive stories are more aberration than 
opportunity under the current ESA, as there are few examples that have 
worked for both people and species. The fact is that very limited 
circumstances have proven just right enough to fit the narrow 
opportunities currently provided for in the ESA.
              monarch butterfly: a promising future model
    While the spotted owl and delta smelt are stories of how the ESA 
has failed people and species, the monarch butterfly could shape how we 
approach conservation in the future. The USFWS received a petition to 
list the monarch in 2014 and agreed pursuant to a settlement to make a 
listing decision by June 2019.
    We are striving hard, as are many conservation groups, to find 
solutions that work for species and people. While we believe the 
solutions to improve habitat are feasible, it is clear the ESA is not 
flexible enough to ensure that those proactive collaborative 
conservation efforts are not derailed by litigation.
    As we address the monarch butterfly, we have a question before us. 
Will we continue to allow the ESA to be about conflict, or can we work 
together to create a path toward conservation that works for species 
and people?
                             good stewards
    Under the current regulatory climate, the ESA disincentivizes 
landowners from protecting and growing habitat. We can all agree that 
rational landowners should do everything they can to reduce their risks 
by minimizing habitat or species on their land. Despite this hard 
logic, I am proud to say that farmers and ranchers are good stewards 
and generally accept the risk. But escalating conflicts and expanding 
lists of endangered and threatened species are consistently straining 
this situation. Now is the time to focus on improvements to the ESA 
that will encourage collaborative conservation by reducing conflict and 
improving regulatory certainty.
    In order for any landowner to work collaboratively to conserve the 
species, they need to know at the start what will be expected of them, 
and they must be confident the rules are not going to change once they 
are in.
    Several provisions before the Committee today recognize this point. 
Providing incentives and regulatory assurances to landowners--topics in 
the LOCAL Act, H.R. 6344, the LAMP Act, H.R. 6364, and the PREDICTS 
Act, H.R. 6360--are two of the elements necessary to providing 
landowners with the real opportunity to engage in collaborative 
conservation. For future success in species conservation, it is 
important to recognize the costs of implementing conservation on the 
land for farmers and ranchers. And it is important to recognize 
farmers' and ranchers' need for regulatory certainty.
                               conclusion
    As the Committee considers legislation intended to improve the 
efficacy and efficiency of the ESA, we stand at a crossroads in 
conservation. No one is suggesting we should turn back. Rather, we are 
now choosing on which path to move forward. To do nothing is to reject 
decades of lessons from applied conservation and continue down the path 
of conflict-based environmentalism that developed in the 20th century, 
failing species and people alike. We have another, better option. We 
can take a hard look at the lessons we have learned about conservation 
and forge a path toward conservation in the 21st century that works 
with our farmers and ranchers and not against them.
    We appreciate the Committee's hard work to identify aspects of the 
ESA that can be improved and offer the American Farm Bureau 
Federation's support for the measures being considered before the 
Committee today. Ideas to prioritize petitions,\2\ improve transparency 
of data and litigation,\3\ and provide greater opportunity for state 
and local governments to participate in management of species \4\ are 
ideas that have been discussed in many forums, and are concepts also 
included in Senator Barrasso's discussion draft of the Endangered 
Species Act Amendments of 2018. As legislative efforts move forward in 
the House and Senate, we emphasize the importance of incorporating the 
breadth of perspectives into the process in order to develop viable and 
durable solutions that will result in long term, meaningful 
improvements to the Endangered Species Act.
---------------------------------------------------------------------------
    \2\ H.R. 6355.
    \3\ H.R. 3608.
    \4\ H.R. 6345, H.R. 6364.

---------------------------------------------------------------------------
                                 ______
                                 

    The Chairman. Thank you.
    All right, Commissioner, go through the same thing. If you 
want to talk about all nine at first, or emphasize just the 
LOCAL Act, whichever you want to do. You are recognized for 5 
minutes.

   STATEMENT OF DAVID SAUTER, COUNTY COMMISSIONER, KLICKITAT 
                    COUNTY, LYLE, WASHINGTON

    Mr. Sauter. Chairman Bishop, Ranking Member Grijalva, and 
members of the Natural Resources Committee, on behalf of the 
National Association of Counties, thank you for your invitation 
to testify in support of your Endangered Species Act 
modernization package. Counties appreciate your work to ensure 
the ESA better protects species using the best scientific data, 
and cooperative efforts between the Federal and local 
governments.
    My name is David Sauter. I am in my third term as a 
Klickitat County, Washington Commissioner. Our is a rural 
county of about 21,000 people, and bordered by the Gifford 
Pinchot National Forest and the Columbia River. I have lived 
there my entire life, and I have witnessed the detrimental 
impacts of ESA listings firsthand.
    Klickitat County historically relied on a resource-based 
economy of timber, agriculture, and fishing. However, over the 
past 20 years, a major timber mill closed after the northern 
spotted owl listing, resulting in high unemployment and a 
shuttered community. Farmers and ranchers struggled to comply 
with management plans written without input of local experts.
    We need a new approach to conservation policies focused on 
good stewardship, without ignoring the needs of communities. We 
must modernize the ESA.
    We appreciate your work on these nine bills to guarantee 
ESA policies are based on the best scientific data with a 
maximum level of involvement from counties. My testimony will 
focus on three bills, each of which will promote federalism and 
greater transparency: H.R. 6345, the EMPOWERS Act; H.R. 3608, 
the Endangered Species Transparency and Reasonableness Act; and 
H.R. 6364, the LAMP Act.
    The EMPOWERS Act would require Federal agencies to consult 
with states before making final listing decisions, and mandates 
Federal agencies explain when their decisions diverge from 
states' advice. This bill will strengthen the role state and 
local governments play.
    We currently partner with Federal agencies in wildlife 
management and habitat conservation efforts. States and 
counties have adopted management plans which may include 
scientific data that can be used to benefit listed species. 
Collaboration will benefit species and create better policy 
outcomes.
    For example, the Oregon spotted frog was listed as 
threatened in 2014. Critical habitat proposals included private 
lands within the Glenwood Valley. The Klickitat County 
responded to landowners' concerns by convening meetings with 
Federal and state wildlife officials. Eventually, 20 landowners 
signed a cooperative agreement that was incorporated into the 
frog's critical habitat. It was a win-win for all. Consultation 
creates strong relationships and local buy-in. The EMPOWERS Act 
will ensure this level of consultation.
    ESA decisions often do not conform to the process under 
law, but instead are mandated by court decisions through the 
abuse of our legal system by special interest groups. These 
lawsuits may also require taxpayers to pay special interest 
legal fees. From 2002 to 2017, the Department of the Interior 
entered into 96 separate settlements, paying $1.7 billion in 
legal fees.
    H.R. 3608 would require information on ESA lawsuits be 
available online, and put in place the same $125-per-hour 
attorney's fees caps for ESA suits as for suits under the Equal 
Access to Justice Act.
    Klickitat County is home to the most wind turbines in 
Washington State, accounting for nearly one-third of our tax 
base. Some of these capital-intensive projects were threatened 
with litigation. Most settled to maintain their tight 
construction schedules, but this legal threat can have a 
chilling effect on future developments.
    H.R. 3608 steers the ESA back to focus on good stewardship, 
not lawsuits.
    It also defines the term ``best available scientific and 
commercial data'' to include data provided by affected local 
governments. Counties have developed data to assist Federal 
agencies in species conservation plans. This bill would ensure 
this data is used when available.
    The LAMP Act would allow agencies to enter into cooperative 
agreements with local governments to improve species recovery 
and habitat management. Under the LAMP Act, the ESA would 
become a more collaborative conservation tool that welcomes the 
input of non-Federal partners. This bill ensures Federal 
support for locally driven solutions. County governments are 
partners to Federal agencies in implementing species 
conservation plans. Allowing these partnerships to flourish 
will lead to greater efficiencies and better outcomes.
    Once again, thank you for holding today's legislative 
hearing on the ESA. We must work in a bipartisan constructive 
manner to ensure that our approach to our shared objective of 
species recovery and habitat conservation is driven by 
coordination----
    The Chairman. Time is expired.
    Mr. Sauter. Thank you.

    [The prepared statement of Mr. Sauter follows:]
    Prepared Statement of the Honorable David Sauter, Commissioner, 
 Klickitat County, Washington on behalf of the National Association of 
            Counties on H.R. 6345, H.R. 3608, and H.R. 6364
    Chairman Bishop, Ranking Member Grijalva, and members of the U.S. 
House Committee on Natural Resources, on behalf of the National 
Association of Counties (NACo), thank you for your invitation to 
testify today in support of your efforts to modernize the Endangered 
Species Act (ESA). County governments appreciate the Committee's 
efforts to ensure that this landmark conservation law better protects 
species and their habitat using the best available scientific data and 
cooperative efforts between the Federal Government and its 
intergovernmental partners, including local governments.
    My name is David Sauter, and I am serving my third term on the 
Klickitat County, Washington Board of Commissioners. Klickitat County 
is bordered by the Gifford Pinchot National Forest to the West and the 
Columbia River to the South. We are a rural county with a population of 
about 21,000 people.
            the importance of esa modernization to counties
    Klickitat County historically relied on a resource-based economy of 
timber harvests, ranching, farming and fishing. I have lived in the 
county my entire life and have witnessed the detrimental impacts of ESA 
listings firsthand. I have seen a prosperous, well-kept community 
demoralized and discouraged when its mill closed because of a lack of 
timber supply due to the listing of the Northern spotted owl--a mill 
that provided strong, middle class jobs for generations, the closure of 
which resulted in a blighted community with high unemployment and a 
reduced standard of living. I have witnessed farm and ranch families 
struggling to continue generations-old operations as they attempt to 
comply with resource management plans that were made without meaningful 
consultation of state and local expertise--the very people that are on 
the landscape and have direct, real-world experience with local issues. 
We need a new approach to species conservation policy that ensures good 
stewardship of resources without ignoring the voices and economic needs 
of local communities. This is why it is imperative that we modernize 
the ESA.

    The National Association of Counties, which represents America's 
3,069 counties, parishes and boroughs, has adopted into the American 
County Platform several goals for modernizing the ESA to ensure the 
legislation meets its mandate and serves as a strong part of our 
Nation's conservation legacy. NACo's platform specifically highlights 
the importance of the ESA, and further states:

        ``NACo supports reforming the ESA to mandate that the federal 
        government treat state and county governments as cooperating 
        agencies with full rights of coordination, cooperation, 
        consultation and consistency to decide jointly with appropriate 
        federal agencies when and how to list species, designate 
        habitat and plan and manage for species recovery and de-
        listing.''

    As this language makes clear, American counties support the 
Committee's efforts to modernize the ESA. We appreciate your leadership 
in developing common-sense bills that ensure the maximum level of 
involvement for county governments in ESA processes and that ESA 
policies are based on the best available scientific data. If enacted, 
the nine ESA modernization bills under consideration by the Committee 
would greatly improve how we protect species and conserve their habitat 
while assuring that our Nation's resource management policies are built 
through a strong federal-state-local partnership.

    While counties hope to see all nine ESA modernization bills under 
consideration by the Committee (H.R. 6344, H.R. 6360, H.R. 6346, H.R. 
6354, H.R. 6345, H.R. 3608, H.R. 6364, H.R. 6356 and H.R. 6355) enacted 
into law, my testimony will focus on three particularly important 
pieces of legislation to be considered by the Committee, each of which 
will promote federalism and greater transparency under the ESA: H.R. 
6345, the EMPOWERS Act; H.R. 3608, the Endangered Species Transparency 
and Reasonableness Act; and H.R. 6364, the LAMP Act.
H.R. 6345, EMPOWERS Act of 2018
    The Ensuring Meaningful Petition Outreach While Enhancing Rights of 
States (EMPOWERS) Act would require Federal agencies making listing 
decisions under the ESA to meaningfully consult with state governments 
before a listing determination is made. It also mandates Federal 
agencies provide an explanation when their decisions diverge from the 
findings or advice of a state government.
    County governments strongly support H.R. 6345 because it will 
strengthen the role that state governments and their political 
subsidiaries play in the ESA process. State game and fish departments 
assist the Federal Government in species and habitat conservation 
efforts. Further, states and many counties have adopted their own 
resource management plans (RMPs), which can provide existing, 
verifiable and scientific information that the Federal Government can 
use in its species, habitat or natural resource management plans.
    I can give you an example of where this approach has been very 
successful in my county: the Oregon spotted frog was listed as a 
threatened species under the ESA in 2014. The U.S. Fish and Wildlife 
Service (USFWS) initially proposed to include a large portion of the 
Glenwood Valley of Klickitat County, including private property, as the 
frog's critical habitat. The residents and the county were highly 
concerned about the potential impacts that the designation would have 
on ranching and county road operations. To help address these concerns, 
our county government facilitated meetings between USFWS, the 
Washington Department of Fish and Wildlife, and local ranching 
interests. It took considerable time and effort to build trust between 
the parties, but eventually these meetings culminated in an agreement 
that was signed by over 20 private landowners and was incorporated into 
the critical habitat designation in 2016. It was a win-win for all 
involved, especially the frogs. This example illustrates what can 
happen when Federal agencies trust their local partners and engage in 
meaningful consultation and dialogue before finalizing decisions.
    We want to thank Congressman Pearce for sponsoring this common-
sense legislation that recognizes the need for the Federal Government 
to include state and local governing partners in developing the best 
possible species conservation policies. If Federal, state and local 
governments craft and implement resource management decisions in good 
faith, policies are more likely to be accepted by local residents, thus 
increasing the possibility of future intergovernmental cooperation on 
other important community issues.
H.R. 3608, The Endangered Species Transparency and Reasonableness Act
    Too often, ESA decisions do not conform to the process spelled out 
under the ESA, but instead are mandated by court decisions forced on 
the Federal Government through the abuse of our legal system by special 
interest groups. To make matters worse, these lawsuits may require 
taxpayers to pay the legal fees of entities who sue on technical 
grounds to prevent common-sense, locally supported species and habitat 
management plans from being implemented. According to the U.S. 
Department of the Interior, from 2012 to 2017, the Federal Government 
entered into 96 separate settlement agreements or consent decrees and 
paid out $1.7 billion in legal fees.\1\
---------------------------------------------------------------------------
    \1\ https:/ /www.doi.gov/sites/doi.gov/files/elips/documents/
so_3368_promoting_transparency_and_ 
accountability_in_consent_decrees_and_settlement_agreements.pdf.
---------------------------------------------------------------------------
    This system needs to be fixed to prevent further abuse. This is why 
counties support H.R. 3608, the Endangered Species Transparency and 
Reasonableness Act, and urge its adoption by Congress. If enacted, this 
bill would require USFWS to track, report to Congress, and make 
available online information on ESA lawsuits and attorney payouts from 
those lawsuits. This bill would also put in place the same $125 per 
hour cap on attorney's fees for suits filed under the ESA as for those 
filed under the Equal Access to Justice Act.
    I can give an example of why this is important: Klickitat County is 
home to large wind energy farms. We are proud to have the most wind 
turbines of any county in Washington State and third-most in the Nation 
behind a couple of counties in Texas. Wind projects now make up nearly 
one-third of the entire tax base of the county. These are very capital-
intensive projects that are on tight construction schedules. Many of 
these projects were threatened with litigation by third parties and 
most paid out some form of settlement to maintain their construction 
schedules. Unfortunately, lawsuits have become a whole new industry in 
my county, holding up projects until a settlement can be extracted. 
This cycle of litigation and settlement is likely to have a chilling 
effect on the county's flourishing and much-needed wind energy 
industry. Conservation policy should be based on good stewardship of 
the land, not profit incentives for special interests. Limiting 
opportunities to ``sue and settle'' represents a step in the right 
direction.
    Additionally, under current law, the science used to justify ESA 
listing decisions may not be publicly available. H.R. 3608 would 
address this issue by mandating Federal agencies to make publicly 
available the data used for ESA listing decisions and to make the data 
accessible through the Internet. The bill also requires the Federal 
Government to disclose to states all data justifying an ESA listing 
decision and defines the term ``best available scientific and 
commercial data'' to include data provided by affected states, tribes, 
and local governments. Species listings and recovery decisions should 
be based on the best available scientific data and consistent, reliable 
timelines. Counties have developed data that can assist our Federal 
partners in species conservation plans, and we encourage the Federal 
Government to use this data where available.
H.R. 6364, LAMP Act of 2018
    The LAMP Act would allow the Federal Government to enter into 
cooperative management agreements with state and local governments, 
tribes and non-Federal stakeholders to improve endangered species 
recovery and habitat management. States with strong, scientific 
approaches to species conservation would also take the lead in species 
conservation efforts. Under the LAMP Act, the ESA would become a more 
collaborative conservation statute that welcomes the input and 
expertise of non-Federal governing partners for species and habitat 
protection.
    Counties support the adoption of H.R. 6364 because this legislation 
would empower county governments by ensuring Federal support for local 
management solutions. In a time of strained resources and manpower 
within the Federal Government, developing cooperative solutions to our 
environmental challenges can lead to greater efficiencies in decision 
making and improve long-term recovery. County governments have already 
served as partners to Federal agencies in implementing various species 
conservation plans and creating new opportunities for these 
partnerships to flourish will lead to better outcomes for communities 
and the environment.
                               conclusion
    Once again, thank you, Chairman Bishop, Ranking Member Grijalva, 
and Committee members for holding today's legislative hearing on the 
ESA. We must pull together and work in a bipartisan, constructive 
manner to ensure that our approach to the mutually shared objective of 
species recovery and protection is driven by coordination between 
Federal, state and local governments. We hope Congress acts on and the 
president signs all of the ESA modernization bills before the Committee 
and appreciate the opportunity to express counties' support for these 
important efforts.

                                 ______
                                 

    The Chairman. Thank you.
    All right, Mr. Dreher, apparently everyone is going through 
all nine, so go through all nine at first. You have 5 minutes.

STATEMENT OF ROBERT DREHER, SENIOR VICE PRESIDENT, CONSERVATION 
     PROGRAMS AND GENERAL COUNSEL, DEFENDERS OF WILDLIFE, 
                         WASHINGTON, DC

    Mr. Dreher. Good morning, Chairman Bishop, Ranking Member 
Grijalva, and members of the Committee. My name is Bob Dreher, 
and I am Senior Vice President of Conservation Programs at 
Defenders of Wildlife, a national non-profit conservation 
organization dedicated to the protection of all native animals 
and plants in their natural communities. Thank you for inviting 
me here today to discuss the nine Western Caucus bills related 
to the Endangered Species Act that are before this Committee.
    My testimony draws on nearly four decades of experience in 
conservation law and policy, including service with the Federal 
Government as Associate Director of the U.S. Fish and Wildlife 
Service, and as Acting Assistant Attorney General for the 
Environment and Natural Resources for the Department of 
Justice. I have represented and advised business clients, state 
governments, tribes, and environmental groups on environmental 
matters, and taught Federal natural resources law for almost 
two decades.
    Thanks to the visionary goals and flexible framework 
Congress established when it passed the Endangered Species Act 
in 1973, the ESA is the world's most effective law for 
protecting wildlife in danger of extinction. In its 45-year 
history, only 11 species of the more than 1,600 on the list 
have been declared extinct. That is, in itself, a cause for 
celebration.
    But the Act has also contributed to the recovery of 54 
species, including iconic species such as the bald eagle, brown 
pelican, humpback whale, and the American alligator. And many 
more species have been set on a path to recovery.
    The ESA is effective because it requires that decisions 
under the law be based on the best available science, not 
politics. It has been improved by continuous administrative 
reforms that have made the ESA work better, both for imperiled 
species and for stakeholders affected by its provisions. And 
the ESA, like many of our bedrock environmental and civil 
rights statutes, gives individual citizens the right to hold 
agencies accountable for complying with the law.
    Simply put, the ESA works. And it is a good thing it does, 
because the need for a strong ESA is greater than ever. 
Humanity is confronted with a global extinction crisis of epic 
proportions. In the last 40 years, we have lost half of all 
wild animals on Earth. Extinction is happening at a pace at 
least 100 times greater than what would be considered normal.
    During this biological crisis, what is most needed to 
improve ESA's effectiveness is to fully fund it. Rather than 
change the structure of this successful law, Congress should 
reaffirm our national commitment to protecting our biodiversity 
heritage, and provide the funding necessary for the ESA to 
realize its full potential.
    Unfortunately, the legislation being considered today does 
nothing to improve the ESA, and many things to weaken it. The 
bills would gut the ESA's science-based listing process by 
mandating reliance on any information, apparently even 
erroneous or irrelevant data submitted by states and counties. 
They would create arbitrary barriers to listing species, 
including prioritizing de-listing of species at the expense of 
species that may face imminent extinction.
    One bill would even allow states and counties to 
effectively veto decisions to list species, barring the 
Secretary from acting unless he can prove that information 
submitted by such governments is incorrect, regardless if it is 
sufficient to outweigh the scientific evidence showing the need 
to list.
    Another bill would allow the Secretary to delegate 
management of endangered species to states, which often lack 
legal authority or resources to conserve imperiled species 
effectively. More than that, the Secretary could delegate 
management of endangered species to local governments, 
corporations, or private individuals, undermining both Federal 
and state authorities over wildlife.
    Other bills would limit designation of critical habitat; 
force the government to pay landowners to comply with the ESA, 
which would swiftly bankrupt the ESA program; and set time 
limits that automatically approve projects that may take 
species.
    Several bills undermine the rule of law by excluding agency 
decisions from judicial review. Although not all decisions, I 
would note, since these manifestly partisan bills typically 
preclude citizens from challenging decisions not to protect 
species, while allowing landowners and industry full rights to 
challenge decisions to protect them.
    I have addressed each of these bills in more detail in my 
written testimony. Taken together, however, the Western Caucus 
bills are a prescription for extinction. None of these bills 
would improve species conservation. Each would undermine, 
sometimes dramatically, the ESA and the fundamental commitment 
of our Nation to conserve and recover imperiled species.
    On behalf of Defenders of Wildlife and our 1.8 million 
members and supporters, I strongly urge this Committee to 
reject these dangerous bills.
    Thank you for the opportunity to testify. I would be happy 
to answer any questions.

    [The prepared statement of Mr. Dreher follows:]

   Prepared Statement of Robert G. Dreher, Senior Vice President of 
 Conservation Programs, Defenders of Wildlife on H.R. 3608, H.R. 6344, 
 H.R. 6345, H.R. 6346, H.R. 6354, H.R. 6355, H.R. 6356, H.R. 6360, and 
                               H.R. 6364

    Good morning Chairman Bishop, Ranking Member Grijalva, and members 
of the Committee. My name is Bob Dreher and I am Senior Vice President 
of Conservation Programs at Defenders of Wildlife (Defenders), a 
national non-profit conservation organization dedicated to the 
protection of all native animals and plants in their natural 
communities. For 70 years, Defenders has protected and restored 
imperiled species throughout North America by establishing on the 
ground programs at the state and local level; securing and improving 
state, national, and international policies that protect species and 
their habitats; and upholding legal safeguards for native wildlife in 
the courts. We represent more than 1.8 million members and supporters.

    Before joining Defenders in June 2016, I served as Associate 
Director of the U.S. Fish and Wildlife Service, serving as the primary 
policy advisor for the Director. Prior to that, I served in the 
Department of Justice as Principal Deputy Assistant Attorney General 
and Acting Assistant Attorney General for the Environment and Natural 
Resources Division, and previously served during the Clinton 
administration as Deputy General Counsel of the U.S. Environmental 
Protection Agency. I have spent my career in conservation law, having 
represented business clients in private practice and conservation 
organizations as managing attorney for the Washington, DC office of the 
Sierra Club Legal Defense Fund (now Earthjustice). I also taught 
Federal natural resources law as an adjunct professor for almost 20 
years at George Washington University Law School and Georgetown 
University Law Center.

    Thank you for inviting me here today to discuss the nine Western 
Caucus bills related to the Endangered Species Act (ESA) that are 
before this Committee. I welcome the opportunity to speak about 
conserving imperiled wildlife under the ESA and the negative impact 
these bills would have on that important work.

    As I will describe in detail, the bills before this Committee today 
would undermine key provisions of the ESA and result in increased harm 
to protected species and their habitat. The bills would gut the ESA's 
science-centered listing process by mandating reliance on any 
information provided by state and local governments. They would create 
arbitrary barriers to listing species, including prioritizing de-
listing species at the expense of species that may face imminent 
extinction; one bill would even allow states and county governments to 
effectively veto decisions to list species. Other bills would limit 
designation of critical habitat, force the government to pay landowners 
to comply with the ESA, and undermine the rule of law by excluding 
agency decisions from judicial review. One bill would allow the 
Secretary to delegate management of endangered species to local 
governments, corporations or private individuals, undermining both 
Federal and state authorities over wildlife.
    Taken together, the Western Caucus bills are a prescription for 
extinction. Rather than adopt any of these proposals, Congress should 
reaffirm our national commitment to protecting our biodiversity 
heritage for current and future generations.
                  the esa: a commitment worth keeping
    Congress passed the ESA in 1973 out of a growing realization that 
our natural heritage was in peril and needed to be preserved. In 
section 2 of the law, Congress declared ``various species of fish, 
wildlife, and plants in the United States have been rendered extinct as 
a consequence of economic growth and development untempered by adequate 
concern and conservation.'' \1\ Congress further recognized that many 
more species were in danger of extinction and that ``these species of 
fish, wildlife, and plants are of esthetic, ecological, educational, 
historical, recreational, and scientific value to the Nation and its 
people.'' \2\
---------------------------------------------------------------------------
    \1\ 16 U.S.C. Sec. 1531(a)(1).
    \2\ Id. Sec. 1531(a)(3).
---------------------------------------------------------------------------
    With these values in mind, Congress set forth an ambitious goal. 
The ESA would not only address actions directed at species themselves--
such as hunting and trade--but also would ``provide a means whereby the 
ecosystems upon which endangered species and threatened species depend 
may be conserved.'' \3\ Congress also pledged to ``take such steps as 
may be appropriate to achieve the purposes of the treaties and 
conventions'' under which our Nation had pledged to the world that we 
would conserve threatened and endangered species.\4\
---------------------------------------------------------------------------
    \3\ Id. Sec. 1531(b).
    \4\ Id.
---------------------------------------------------------------------------
    The commitment we made as a Nation in enacting the ESA is embodied 
in its definition of conservation, which is ``the use of all methods 
and procedures which are necessary to bring any endangered species or 
threatened species to the point at which the measures provided pursuant 
to this chapter are no longer necessary.'' \5\ As the Supreme Court has 
recognized, the ``plain intent of Congress'' in enacting the ESA ``was 
to halt and reverse the trend toward species extinction, whatever the 
cost. This is reflected not only in the stated policies of the ESA, but 
in literally every section of the statute.'' \6\ The result is ``the 
most comprehensive legislation for the preservation of endangered 
species enacted by any nation.'' \7\
---------------------------------------------------------------------------
    \5\ Id. Sec. 1532(3).
    \6\ Tennessee Valley Auth. v. Hill, 437 U.S. 153, 184 (1978).
    \7\ Id. at 180.
---------------------------------------------------------------------------
    The ESA works by establishing a framework for the conservation of 
imperiled species, with specific management actions left to the 
scientific judgment of the U.S. Fish and Wildlife Service or the 
National Marine Fisheries Service (Services or Service). First, the 
appropriate Service determines whether a species warrants listing as 
``threatened'' or ``endangered.'' \8\ In making this determination, the 
first factor the Service considers is ``the present or threatened 
destruction, modification, or curtailment of its habitat or range.'' 
\9\ Consistent with Congress' emphasis on habitat preservation, the 
Service must also at the time of listing and ``to the maximum extent 
prudent and determinable'' designate ``any habitat of such species 
which is then considered to be critical habitat.'' \10\
---------------------------------------------------------------------------
    \8\ 16 U.S.C. Sec. 1533(a)(1).
    \9\ Id. Sec. 1533(a)(1)(A).
    \10\ Id. Sec. 1533(a)(3)(A), (a)(3)(A)(i).
---------------------------------------------------------------------------
    Once a species is listed, a series of substantive and procedural 
requirements attach. While section 9 prohibits ``take'' of endangered 
species without prior authorization,\11\ section 7(a)(1) imposes on 
Federal agencies a substantive obligation to promote the conservation 
of listed species.\12\ Moreover, section 7(a)(2) obligates Federal 
agencies to consult with the Service whenever they act, authorize, or 
fund a project that may affect a listed species or its designated 
critical habitat.\13\ Through consultation, Federal agencies must 
ensure that their actions will not ``jeopardize the continued 
existence'' of a listed species or ``result in the destruction or 
adverse modification'' of critical habitat.\14\ This consultation 
process is designed to lessen the impact of Federal or federally 
permitted activities on species and their critical habitats.
---------------------------------------------------------------------------
    \11\ Id. Sec. 1538(a)(1)(B).
    \12\ Id. Sec. 1536(a)(1).
    \13\ Id. Sec. 1536(a)(2).
    \14\ Id. Sec. 1536(a)(2).
---------------------------------------------------------------------------
    Section 7 consultation protects species while allowing most 
development projects to proceed with no more than minor modifications. 
Defenders of Wildlife examined every section 7 consultation recorded by 
the U.S. Fish and Wildlife Service between January 2008 and April 2015, 
and in that time not one project had been stopped or extensively 
altered as a result of a finding of jeopardy to a species or adverse 
modification of critical habitat.\15\ Our research proves that 
consultation does not in theory or practice hamstring private 
development. To the contrary, it advances the ESA's recovery goals by 
striking a science-driven balance between conservation and economic 
activity.
---------------------------------------------------------------------------
    \15\ Jacob W. Malcom & Ya-Wei Li, Data Contradict Common 
Perceptions About A Controversial Provision of the U.S. Endangered 
Species Act, 112 PNAS 15844, 15848 (2015), https://defenders.org/
publications/section-7-pnas.pdf.
---------------------------------------------------------------------------
                      the esa is a proven success
    Thanks to the visionary goals and flexible framework Congress 
established, the ESA is the world's most effective law for protecting 
wildlife in danger of extinction. A remarkable 99 percent of species 
have survived since being listed. In its 45-year history only 11 listed 
species have been officially declared extinct.\16\ That in itself is a 
cause for celebration.
---------------------------------------------------------------------------
    \16\ U.S. Fish & Wildlife Serv., Delisted Species, https://
ecos.fws.gov/ecp0/reports/delisting-report.
---------------------------------------------------------------------------
    The total number of ESA de-listings due to recovery is now 54, with 
28 of those overseen by the Obama administration.\17\ More recoveries 
were declared under the Obama administration's watch than all past 
administrations combined, not because that administration was 
necessarily more committed to the ESA than prior administrations but 
because recovery of species takes time. We have achieved dramatic 
successes through decades of effort with species like the bald eagle, 
brown pelican, humpback whale, black-capped vireo, the Louisiana black 
bear, and the Steller sea lion, all of which have recovered to the 
point where they no longer require Federal protection. But an equal 
measure of the ESA's success may be the many more species that have 
been set on a path to recovery, including the iconic grizzly bear, the 
whooping crane, and the Florida manatee.\18\ With adequate resources 
and commitment, the ESA can save these and other imperiled species.
---------------------------------------------------------------------------
    \17\ Id.
    \18\ Daniel M. Evans et al., Species Recovery in the United States: 
Increasing the Effectiveness of the Endangered Species Act, Issues in 
Ecology, Winter 2016, at 1.
---------------------------------------------------------------------------
    The ESA has been effective because it requires that decisions under 
the law be based on the best scientific data available--not politics. 
It has been improved by continuous administrative reforms that have 
made the ESA work better both for imperiled species and for 
stakeholders affected by its provisions. From habitat conservation 
planning to candidate conservation agreements with assurances that 
provide regulatory certainty to landowners, the Services have taken 
advantage of the ESA's inherent flexibility to find win-win solutions. 
The ESA has also been successful because, like many of our most 
important environmental and civil rights statutes, it gives individual 
citizens the right to hold agencies accountable for complying with the 
law.
    Put simply, the ESA works. What is most needed now to improve the 
ESA's effectiveness is to fully fund it. To clear the backlog of 
species that require listing decisions, develop recovery plans, and 
work with stakeholders to promote conservation, the Services must have 
the necessary resources to achieve the ESA's visionary purposes and 
goals. Rather than change the structure of this successful law, 
Congress should provide the funding necessary for the ESA to realize 
its full potential.
    Given its visionary purpose and numerous success stories, it should 
come as no surprise that the ESA also is broadly popular with the 
American people. Recently published peer-reviewed research from Ohio 
State University found that roughly four out of five Americans support 
the ESA.\19\ Previous studies by Hart Research in 2016 and Tulchin 
Research in 2015 found similar results; between 80 and 90 percent of 
Americans supported the ESA and agree that saving at-risk wildlife from 
going extinct is an important goal for the Federal Government.\20\
---------------------------------------------------------------------------
    \19\ Misti Crane, Most Americans Support Endangered Species Act 
Despite Increasing Efforts to Curtail It, Ohio State News, July 19, 
2018, https://news.osu.edu/most-americans-support-endangered-species-
act-despite-increasing-efforts-to-curtail-it/; Jeremy T. Bruskotter et 
al., Support for the U.S. Endangered Species Act Over Time and Space: 
Controversial Species Do Not Weaken Public Support for Protective 
Legislation, Conservation Letters, e12595 (2018), https://doi.org/
10.1111/conl.12595.
    \20\ Tulchin Research, Poll Finds Overwhelming, Broad-Based Support 
for the Endangered Species Act Among Voters Nationwide, July 6, 2015, 
http://www.defenders.org/publications/Defenders-of-Wildlife-National-
ESA-Survey.pdf; Hart Research Associates, CAP Energy/Environment/
Climate Voters Survey, Dec. 2016, https://cdn.americanprogress.org/
content/uploads/2017/01/18040011/FI-CAP-Energy-Enviro-Dec2016.pdf.
---------------------------------------------------------------------------
                       the sixth mass extinction
    Unfortunately, the need for a strong ESA is greater than ever. 
Despite significant efforts to prevent extinction, the loss of 
biodiversity, driven largely by habitat degradation and destruction, 
remains a rapidly growing problem.\21\ Climate change and ocean 
acidification, which were barely on the radar when the ESA was written, 
are only exacerbating the trend.
---------------------------------------------------------------------------
    \21\ See, e.g., Stuart L. Pimm et al., The Biodiversity of Species 
and Their Rates of Extinction, Distribution, and Protection, 344 
Science 987 (2014); David S. Wilcove et al., Quantifying Threats to 
Imperiled Species in the United States, 48 Am. Inst. Bio. Sciences 607 
(1998); National Research Council, Science and the Endangered Species 
Act 72 (1995), https://www.nap.edu/read/4978/chapter/6#72 (``[T]here is 
no disagreement in the ecological literature about one fundamental 
relationship: sufficient loss of habitat will lead to species 
extinction.'').
---------------------------------------------------------------------------
    The result is a global extinction crisis of epic proportion, in 
which half of all species could be facing extinction by the end of the 
century. In a 2017 study published in the Proceedings of the National 
Academy of Sciences, researchers found that of the 27,600 land-based 
mammals, birds, amphibians and reptile species studied, nearly one-
third are shrinking in population numbers and territorial ranges.\22\ 
Even more startling, in just the last 40 years, we have lost half of 
all wild animals on Earth.\23\ That is a sobering statistic. Further, 
the rate of extinction is happening at a pace at least 100 times 
greater than what would be considered normal. Scientists estimate that 
by 2050, well within our children's lifetime, 10 percent of all 
terrestrial species will be ``committed to extinction.'' \24\
---------------------------------------------------------------------------
    \22\ Gerardo Ceballos, Paul R. Ehrlich, and Rodolfo Dirzo, 
Biological Annihilation Via the Ongoing Sixth Mass Extinction Signaled 
By Vertebrate Population Losses and Declines, PNAS E6089-E6096 (July 
10, 2017), http://www.pnas.org/content/pnas/114/30/E6089.full.pdf.
    \23\ Id.
    \24\ Elizabeth Kolbert, The Sixth Extinction: An Unnatural History 
167-68 (2014); see also Daniel A. Farber, Separated at Birth? 
Addressing the Twin Crises of Biodiversity and Climate Change, 42 
Ecology L.Q. 841, 846 (2016) (noting that climate change will 
exacerbate biodiversity loss).
---------------------------------------------------------------------------
    This is what scientists now call the Sixth Extinction. Unlike 
previous extinction events, it is largely being caused by man himself. 
Faced with the impact of our own hands on the diversity of life, we 
have a responsibility to ourselves, to our children and to the planet 
itself to act. As famed scientist E.O. Wilson has said, ``The one 
process now going on that will take millions of years to correct is the 
loss of genetic and species diversity by the destruction of natural 
habitats. This is the folly our descendants are least likely to forgive 
us.'' \25\ It is up to us to halt and reverse this damage to the web of 
life.
---------------------------------------------------------------------------
    \25\ Edward O. Wilson, Biophilia 121 (1984).
---------------------------------------------------------------------------
    Biodiversity decline is the proverbial canary in the coal mine, a 
symbol of what we are doing to the Earth. And what befalls the Earth 
ultimately will come back to haunt us. As Congress once understood, 
there are many reasons to be alarmed about the loss of biodiversity, 
not the least of which is its ultimate impact on humans. Threatened and 
endangered species provide tangible services and benefits to people, 
playing important roles in providing us with clean water, food, 
medicines and more. Beyond such material benefits, species have 
intangible existence and spiritual value. The value of Earth's 
biodiversity ``is, quite literally, incalculable,'' the House Report 
for the ESA stated back in 1973. ``Sheer self-interest impels us to be 
cautious.'' \26\
---------------------------------------------------------------------------
    \26\ H.R. Rep. 93-412, pp. 4-5 (1973).
---------------------------------------------------------------------------
      the western caucus bills would cripple species conservation
    So why, when the need for conservation and concern for our future 
is greater than ever, is this Committee considering a suite of bills 
that would, each in its own way, undermine the ESA and cripple our 
efforts to conserve endangered species? If we are to avert this looming 
extinction crisis we should strengthen the laws and policies, 
especially the ESA, that protect imperiled species and their habitat. 
But these bills would do just the opposite. While some of these 
proposals are solutions looking for a problem, others are direct 
attacks on the very foundations of the ESA.
    Despite their superficially attractive yet often Orwellian acronyms 
(like the LOCAL Act or the EMPOWERS Act), not one of these bills would 
enhance the conservation of endangered species in this country or 
stimulate their recovery. Rather, they would undermine sound science-
based decision making, create unnecessary barriers to the listing of 
species, weaken protections against take, exempt areas from critical 
habitat designation, decrease opportunities for public participation, 
and increase burdens on already fiscally-strapped wildlife agencies. 
Overall, these bills would take a wrecking ball to the ESA, and all to 
benefit a minority of special interests in a few western states.
H.R. 3608: Endangered Species Transparency and Reasonableness Act of 
        2018
    This bill would subvert the ESA's bedrock requirement that listing 
decisions be based on sound science by simply declaring that all 
information submitted by state, tribal or county governments must be 
considered as the best scientific and commercial data available, 
irrespective of its actual merit. The ESA already encourages 
governments to submit information that may aid the Services in making 
listing decisions. That information is assessed, like any other, for 
its accuracy and reliability. Under this provision, information of any 
quality provided by state, tribal, and county governments--even data 
that are flatly wrong--would be presumed equivalent, if not superior, 
to peer-reviewed research from leading species experts. Adding an 
additional burden, the bill requires the Services to make information 
that served as the basis for listing and critical habitat 
determinations publicly available online, but it exempts information 
that is subject to state privacy laws. This exemption could undermine 
transparency and encourage states to pass laws shielding commercial 
data from public inspection to appease special interests.
    Notably, the bill also targets citizen enforcement of the ESA by 
capping and increasing the difficulty of obtaining litigation fees, in 
addition to requiring publication of yearly reports detailing Federal 
expenditures related to ESA cases, including settlements and attorneys' 
fees. Citizen enforcement is a critical part of the ESA's design, and 
central to the rule of law. These provisions could deter citizens from 
providing a vital check in the form of judicial review of erroneous 
agency decision making.
H.R. 6344: Land Ownership Collaboration Accelerates Life Act of 2018 
        (LOCAL Act)
    The LOCAL Act would create a major loophole in the ESA's 
prohibition on take of endangered and threatened species that could 
eviscerate protections for species that are already on the brink of 
extinction. This bill proposes to add provisions under a new section 
10(l) that would allow individuals to request a determination from the 
Secretary regarding whether a particular activity would constitute 
unlawful take. If the Secretary determines that the proposed activity 
complies with the law, then any use or action taken by the property 
owner in ``reasonable reliance'' would be exempted from the take 
prohibitions of the ESA. If the Secretary fails to respond to such a 
request within 180 days, the activity would automatically be exempt 
from the ESA's take prohibition.
    The LOCAL Act would unreasonably burden the Secretary, who may lack 
the resources necessary to provide a timely response, while at the same 
time creating incentives for individuals to inundate the Secretary with 
requests in the hopes of obtaining authority to take listed species 
outside of the normal permitting process. After a missed deadline, an 
automatic no take determination would remain effective for 5 years; if 
the Secretary responds that the requested activities do not constitute 
a take, this determination would be effective for 10 years. Under the 
bill, the Secretary may only withdraw such a determination in the case 
of unforeseen changed circumstances.
    Most disturbing, if the Secretary finds that the proposed use would 
not comply with the ESA's take prohibition (or withdraws a no take 
determination), the LOCAL Act would entitle the landowner to financial 
compensation for the full market value of its proposed use. This 
sweeping provision effectively pays property owners to comply with the 
law and would quickly bankrupt funding for the ESA. The requirement to 
pay full market value for a proposed use, without regard to the 
relative extent of the property owner's loss or the other economic uses 
to which its property can be put, violates settled constitutional 
principles governing compensation for regulatory takings and invites 
speculative and fraudulent claims. The Fifth Amendment of the 
Constitution guarantees just compensation when an individual's property 
is taken for public use, but a mere regulation does not trigger 
compensation unless the property owner suffers a physical appropriation 
or a near total loss of a property's economic value.\27\ All citizens 
benefit from government regulation that maintains a healthy 
environment, and their use of their property can be limited by such 
regulation without compensation except in the rare case where it rises 
to a government taking. As Justice Oliver Wendell Holmes, Jr. 
recognized in the seminal case that defined regulatory takings, 
``Government hardly could go on if to some extent values incident to 
property could not be diminished without paying for every such change 
in the general law.'' \28\ The LOCAL Act thus provides a financial 
windfall without any constitutional basis to selected property owners 
simply to ensure that they comply with the ESA. This would cripple the 
ESA's implementation.
---------------------------------------------------------------------------
    \27\ See, e.g., Lingle v. Chevron U.S.A. Inc., 544 U.S. 528 (2005); 
Penn Cent. Transp. Co. v. New York City, 438 U.S. 104 (1978).
    \28\ Pennsylvania Coal Co. v. Mahon, 260 U.S. 393, 413 (1922).
---------------------------------------------------------------------------
H.R. 6345: Ensuring Meaningful Petition Outreach While Enhancing Rights 
        of States Act of 2018 (EMPOWERS Act)
    The EMPOWERS Act would require the Services to engage in an 
elaborate notice and consultation process with states and counties and 
would provide states and counties with de facto veto power over listing 
and critical habitat decisions. Upon finding that a petition to list a 
species or revise its critical habitat may be warranted, H.R. 6345 
directs the Secretary to seek out from state and county governments 
information related not just to the species' status but also to the 
potential impacts of the petitioned action on the locality and invites 
state and county officials to advise whether such action is 
``merited.'' The EMPOWERS Act thus opens the door to elevating non-
biological factors, such as economic costs, in the listing process.
    Most concerning, if a state or county objects to a proposed listing 
or critical habitat determination, this bill would forbid the Secretary 
from proceeding with the action unless the Secretary demonstrates that 
information submitted by the locality is ``incorrect'' and that the 
action is warranted. The Secretary is thus precluded from listing a 
species or revising its critical habitat if any information submitted 
by a locality is correct (or cannot be demonstrated to be incorrect), 
regardless of whether that information is relevant to the decision or 
sufficient to overcome other scientific information in the record that 
supports the action.
    As with H.R. 3608, this bill elevates political considerations over 
sound science. States and local governments have ample opportunities to 
participate in the listing process and provide relevant information to 
the Services. The ESA already requires the Secretary to notify states 
and counties of proposals to list species or designate critical habitat 
and invite their comments, and requires the Secretary to furnish a 
written justification to a state if he or she issues a listing or 
critical habitat regulation that conflicts with the state's 
comments.\29\ A 2016 Obama administration regulation already requires 
petitioners to notify states of their intention to file a listing 
petition.\30\ The elaborate procedure that would be established under 
the EMPOWERS Act is thus unnecessary to ensure that states and 
localities can fully participate and submit relevant information in the 
petition process, and its provisions inviting consideration of non-
biological factors in listing and granting states and counties an 
arbitrary veto over listings and revisions of critical habitat plainly 
subvert the integrity of the ESA.
---------------------------------------------------------------------------
    \29\ 16 U.S.C. Sec. Sec. 1533(b)(5)(A), (i).
    \30\ 50 C.F.R. Sec. 424.14(b).
---------------------------------------------------------------------------
H.R. 6346: Weigh Habitat Offsetting Locational Effects Act of 2018 
        (WHOLE Act)
    The WHOLE Act strikes at what many have called the ``heart of the 
ESA''--the section 7 consultation process. Section 7 requires that 
Federal agencies consult with the Services whenever an action 
authorized, funded or carried out by the agency could jeopardize the 
continued existence of a listed species or adversely modify its 
critical habitat. Formal consultation results in a biological opinion 
and incidental take statement that sets forth reasonable and prudent 
measures to minimize the take of listed species. This bill adds a 
requirement that the Secretary consider the ``offsetting effects of all 
avoidance, minimization, and other species-protection or conservation 
measures that are already in place or proposed to be implemented as 
part of the action, including the development, improvement, protection, 
or management of species habitat whether or not it is designated as 
critical habitat of such species.''
    The Services already consider avoidance, minimization and other 
conservation measures that are included in a proposed action during 
consultation, as well as evaluating existing conservation measures that 
benefit a species as part of the environmental baseline. In doing so, 
however, the Services evaluate the reliability of such measures, 
including the extent to which they are funded, the certainty of their 
implementation and the likelihood that they will in fact provide the 
projected benefits to the species. Such evaluation is essential, since 
the environmental record is replete with instances where agencies or 
project proponents have failed to implement mitigation measures or 
where such mitigation fails to achieve its expected benefit. The 
direction in the WHOLE Act to consider ``all'' such measures appears to 
direct the Services to consider any mitigation proposal, regardless of 
how speculative, unfunded or ineffective it may be. Moreover, requiring 
the Services to consider ``the offsetting effects'' of existing 
conservation measures is illogical, since beneficial measures already 
in place cannot ``offset'' the detrimental impacts of new actions. The 
extent to which existing conservation measures have benefited a species 
is properly considered in evaluating the environmental baseline 
regarding the status of the species.
H.R. 6354: Stop Takings on Reserves Antithetical to Germane 
        Encapsulation Act of 2018 (STORAGE Act)
    This bizarrely named bill prohibits the designation of critical 
habitat within reservoirs, canals, and other water storage, diversion 
or delivery facilities where habitat is periodically created and 
destroyed due to changing water levels resulting from the operation of 
these facilities. This unnecessary bill would have limited application 
but risks blocking the designation of critical habitat that may be 
necessary for a species to survive. The prevalence of reservoirs and 
water projects throughout areas of the western United States has 
contributed to widespread losses of riparian habitat that are essential 
for imperiled species. As the West experiences changes in its long-term 
hydrological cycle due to climate change, many reservoirs operate at 
reduced capacity, restoring riparian habitat that may be highly 
valuable for listed species. Any designation of critical habitat in 
such areas would have to take into account adverse economic impacts, 
including constraints on the future operation of the facility, so such 
designation is unlikely except where changes in the operation of a 
project create opportunities to restore riparian habitat over a long 
term without disruption of a project. This bill would preclude 
consideration of such habitat protection altogether.
H.R. 6355: Providing ESA Timing Improvements That Increase 
        Opportunities for Nonlisting Act of 2018 (PETITION Act)
    The PETITION Act is among the most problematic bills being 
considered by this Committee. The bill declares, without evidence, that 
the listing petition process, a key safeguard that allows citizens to 
petition for protection of species that face extinction, is overloaded 
because of the intentional submission of frivolous petitions with the 
express purpose of forcing the Service to miss statutory deadlines or 
list species that do not deserve protection.
    These charges are unfounded. As the Government Accountability 
Office (GAO) recently found, other than setting schedules for 
completing actions required under section 4, settlement agreements in 
deadline litigation ``did not affect the substantive basis or 
procedural rulemaking requirements the Services were to follow in 
completing the actions.'' \31\ There is simply no basis for the claim 
that deadline settlements lead to species being listed that do not, as 
a scientific matter, warrant the protections of the ESA. Nor is there 
any basis for the conspiracy theory that environmentalists 
intentionally submit unwarranted listing petitions in order to overload 
the listing system. I am unaware of any court decision or agency 
determination that has concluded that environmentalists have done so. 
Although citizen petitions have at times strained the capability of the 
Services, that is a reflection of the limited resources the Services 
are provided for listing. Citizen petitions have led to the listing of 
many species from the loggerhead sea turtle to the polar bear and the 
red knot that are critically imperiled and fully warrant the 
protections of the ESA.\32\
---------------------------------------------------------------------------
    \31\ U.S. Government Accountability Office, Environmental 
Litigation: Information on Endangered Species Act Deadline Suits, GAO-
17-304 at 19 (Feb. 28, 2017), https://www.gao.gov/products/GAO-17-304.
    \32\ See also Editorial, The Public Role in Species Protection, 
N.Y. Times, Aug. 29, 2012, https://www.nytimes.com/2012/08/30/opinion/
the-public-role-in-species-protection.html (citing examples).
---------------------------------------------------------------------------
    If the premise that the petition process is being intentionally 
abused were limited to ``findings,'' the bill could be dismissed as 
partisan rhetoric. That demonstrably false accusation underlies highly 
damaging substantive provisions, however, that would cut the heart out 
of the ESA by precluding the Services from even considering listing 
petitions during any period when a backlog of listing petitions exists. 
Without providing additional resources to avoid such backlogs, this 
approach would prevent species from receiving the protections of the 
ESA and could lead to their extinction.
    This bill requires the Secretary to declare ``petition backlogs'' 
and suspend listing decisions if the number of species included in 
petitions with missed 90-day or 12-month findings exceeds 5 percent of 
the number of species for which 90-day or 12-month petitions have been 
presented over the last 15 years. Once a backlog for these petitions 
has been declared, under most circumstances, the bill requires the 
Secretary to prioritize addressing petitions to de-list or down-list 
species above petitions to list or uplist species until the backlog is 
resolved. The bill would suspend statutory deadlines for responding to 
petitions to list or uplist species, and automatically deny most 
petitions to list or uplist species during a petition backlog. The bill 
also precludes judicial review of decisions denying listing petitions, 
but not of decisions granting listing or denying de-listing or down-
listing petitions, thus depriving citizens seeking to protect species 
of their rights to seek court redress while empowering industries and 
property owners who oppose listings and press for de-listing species to 
challenge decisions adverse to their interests.
    The PETITION Act would deny ESA protection for imperiled species 
due to resource constraints that prevent the Secretary from meeting 
statutory petition deadlines, and that are wholly the fault of Congress 
in failing to provide adequate funding for the ESA. It would elevate 
de-listing of species that are, by definition, no longer in peril over 
the protection of species that face imminent extinction. It subverts 
the very purpose of the ESA.
H.R. 6356: Less Imprecision in Species Treatment Act of 2018 (LIST Act)
    Like the PETITION Act, the LIST Act also subverts the ESA's 
science-based process for evaluating whether a species is recovered and 
should be de-listed. The ESA currently requires that the same process 
and criteria be used to both list and de-list a species by making a 
determination on the basis of the best scientific and commercial data 
available when considering the five listing factors under section 
4(a)(1). The courts have held that those factors, and not other 
considerations such as the goals of recovery plans, must form the basis 
for any decision to list or de-list.\33\
---------------------------------------------------------------------------
    \33\ Friends of Blackwater v. Salazar, 691 F.3d 428, 432-33 (D.C. 
Cir. 2012).
---------------------------------------------------------------------------
    The LIST Act, however, directs the Secretary to de-list species if 
the Department of the Interior (oddly, the Department of Commerce, 
which shares the administration of the ESA, is omitted) has produced or 
received substantial information demonstrating that the species ``is 
recovered'' or that the goals of a recovery plan for a species have 
been met regardless of the statutory factors set forth in section 4(a). 
This change would subvert the integrity of the ESA because the de-
listing process would no longer require a methodical review of the 
listing factors to ensure that a listed species is not threatened or 
endangered, elevating recovery goals above the statutory factors that 
determine whether a species is threatened or endangered. The bill does 
not define what might constitute ``recovery,'' leaving that critical 
concept ambiguous and creating the obvious risk that species that still 
qualify under section 4(a) may lose statutory protection. Moreover, the 
bill dispenses with rulemaking requirements intended to ensure public 
transparency and reliability of agency information, directing that the 
Secretary only publish a notice that a species is being removed rather 
than the text of a proposed de-listing regulation, as now required by 
the ESA.
    The LIST Act also establishes a one-sided process for de-listing 
based on the false premise that many species are erroneously listed. 
The bill would allow for cursory de-listings if the Secretary 
determines, based on information submitted by third parties or 
developed by the Department of the Interior (again, oddly omitting the 
Department of Commerce), that the species was listed based on 
information that was ``inaccurate beyond scientifically reasonable 
margins of error,'' fraudulent, or misrepresentative. If the Secretary 
determines that the listing was less than likely to have occurred 
absent such information, the species would be cursorily de-listed 
(without consideration of the statutory factors in section 4(a)) and 
that determination would not be subject to judicial review. By 
contrast, as usual in these bills, a decision by the Secretary that 
finds that the original petition did not contain inaccurate, fraudulent 
or misrepresentative information would be subject to judicial review by 
parties interested in forcing the delisting of the species.
    Finally, in an apparent attempt to limit citizen petitions, the 
bill would punish a person who submitted a listing petition containing 
any information later determined to be inaccurate beyond scientifically 
reasonable margins of error, fraudulent, or misrepresentative by 
prohibiting the person from submitting future petitions for 10 years.
H.R. 6360: Permit Reassurances Enabling Direct Improvements for 
        Conservation, Tenants, and Species Act of 2018 (PREDICTS Act)
    This bill unnecessarily codifies the existing well-established 
practice of allowing non-Federal landowners to enter into Candidate 
Conservation Agreements with Assurances and Safe Harbor Agreements. 
H.R. 6360 requires that all Incidental Take Permits, Candidate 
Conservation Agreements with Assurances, and Safe Harbor Agreements 
contain assurances governing permit revocation, changed circumstances, 
and unforeseen circumstances. But the bill only allows the Secretary to 
revoke these permits and agreements in very limited circumstances. In 
contrast to current administrative practice established in Service 
regulations, the bill would not allow termination for the landowner's 
failure to implement the agreement or violations of law. The bill thus 
makes it more difficult for the Secretary to enforce these agreements 
or alter them in the face of changed circumstances.
H.R. 6364: Localizing Authority of Management Plans Act of 2018 (LAMP 
        Act)
    Like many of the bills under consideration, H.R. 6364 would expand 
the role of the states in implementing the ESA and impair the ability 
of Federal agencies to conserve species. Section 6 of the ESA allows 
states and the Federal Government to enter into cooperative agreements, 
whereby the states propose programs to conserve listed species and the 
Secretary assists with the management of those programs. The LAMP Act, 
however, would amend this provision to authorize the Secretary to 
broadly transfer management of resident listed species to state 
governments, and to provide Federal funding to support the state 
program. Unlike the current section 6, states will be permitted to 
protect only some species or taxonomic groups of species, rather than 
all species listed under the ESA. In addition, the bill removes 
language from current law that prevents states from enacting laws that 
are less restrictive than Federal laws, creating the risk that state 
programs established under this authority will relax existing 
protections for listed species.
    Proposals to delegate the ESA to the states raise very substantial 
risks for the integrity and effectiveness of the law. Although states 
play a vital role in conserving resident species of wildlife, their 
focus has historically been on the management of game species, and the 
funding for state fish and wildlife agencies is often derived primarily 
from hunting licenses and fishing permits. States have in more recent 
years begun to engage with conserving non-game species, in part 
stimulated by the provision of Federal funds for such conservation 
through state wildlife grants. But states still generally lack the 
legal authority under state law, the biological expertise, or the funds 
to effectively conserve imperiled species. A recent study by the 
University of California Irvine School of Law found that few state ESA 
laws protect all endangered species within their state, that many state 
ESA laws do not require decisions to be based on sound science, that 
few state ESA laws require consultation with expert state fish and 
wildlife agencies on the effects of state approved projects on listed 
species, that most state ESA laws do not allow citizens to petition for 
listing or de-listing species, that most state ESA laws fail to provide 
authority for the designation and protection of critical habitat, that 
few state ESA laws even protect against harm to listed species' 
habitat, that virtually no states have authority to plan for species 
recovery, and--perhaps most revealing--that state expenditures make up 
only approximately 5 percent of ESA spending.\34\ As the authors of the 
study conclude: ``[W]ithout significant state law reforms in most 
states, the proposed devolution of Federal authority and responsibility 
over threatened and endangered species to states is likely to undermine 
conservation and recovery efforts, lead to a greater number of species 
becoming imperiled, and result in fewer species recovered.'' \35\
---------------------------------------------------------------------------
    \34\ Alejandro E. Camacho, et al., Assessing State Laws and 
Resources for Endangered Species Protection, 47 Envtl. L. Inst. 10837 
(2017), https://www.law.uci.edu/centers/cleanr/news-pdfs/cleanr-esa-
report-final.pdf.
    \35\ Id. at 10837-10838.
---------------------------------------------------------------------------
    The LAMP Act would also allow non-Federal parties to manage species 
on certain public and private lands while being exempted from the ESA's 
consultation requirement and take prohibition. The ESA currently allows 
the Secretary to enter into ``management agreements'' with states that 
allow the state to manage areas established for the conservation of a 
listed species. The LAMP Act, however, would allow the Secretary to 
enter into ``cooperative management agreements'' with any unit of 
government or non-Federal person. In addition to expanding the scope of 
who may enter into such an agreement, the LAMP Act would allow parties 
to a cooperative management agreement to manage both species and land, 
as opposed to the current ESA's provisions that states may only manage 
land. Moreover, the LAMP Act would exempt parties to an agreement from 
sections 5, 7, and 9 of the ESA, allowing them to forgo consultation on 
Federal actions and ignore the ESA's take prohibition. These provisions 
empower local governments and non-Federal parties, such as oil and gas 
companies, to apply for authority to manage species, undermining the 
authority of both the Federal Government and the states over wildlife. 
Such entrants may have subversive motives or insufficient knowledge, 
pushing imperiled species even further toward extinction. Finally, the 
LAMP Act would exempt entry into cooperative management agreements from 
review under the National Environmental Policy Act, allowing the 
Secretary to ignore the potential environmental impacts of entering 
into such agreements.
                               conclusion
    The ESA has been an indispensable safety net for fish, wildlife and 
plants. As former Speaker of the House Newt Gingrich wrote in a recent 
book: ``Bold leadership produced the Endangered Species Act in 1973, 
perhaps the most effective piece of environmental legislation in our 
country's history. The Act has been, by any measure, a very successful 
guardian of wildlife and habitat and any attempt to weaken it should be 
resisted.'' \36\ Unfortunately, the bills pending before this Committee 
ignore the ESA's achievements and popularity and would seriously 
undermine species conservation.
---------------------------------------------------------------------------
    \36\ Newt Gingrich & Terry Maple, A Contract with the Earth: Ten 
Commitments You Can Make to Protect the Environment Now, 170 (2008).
---------------------------------------------------------------------------
    None of these bills would improve species conservation. Each would 
undermine the ESA, often dramatically. If these measures are enacted, 
species deserving of Federal protection will be denied the help they 
need to survive and recover.
    This is not the time to play politics. If the proponents of these 
bills are really interested in helping species recovery and avoiding 
further extinctions, they should support critically needed funding 
increases for the Services rather than advancing these damaging 
legislative proposals that only undermine the ESA. On behalf of 
Defenders of Wildlife and our 1.8 million members and supporters, I 
strongly urge this Committee to reject every one of these dangerous 
bills.

                                 ______
                                 

Questions Submitted for the Record by Rep. Gosar to Mr. Robert Dreher, 
    Senior Vice President, Conservation Programs & General Counsel, 
                         Defenders of Wildlife

    Question 1. Mr. Dreher, since 1976, your organization, the 
Defenders of Wildlife has been the litigant in 510 lawsuits. How many 
dollars in attorney's fees has Defenders of Wildlife collected as a 
result of litigation against the Federal Government?

    Answer. Since 2009, Defenders of Wildlife has recovered $824,279.58 
in attorney's fees under the Equal Access to Justice Act or other 
statutes that provide for an award of fees to a prevailing party in 
litigation against the United States. This amount represents a fraction 
of 1 percent of the organization's annual budget for those years. 
Defenders of Wildlife does not have records of attorney fee awards 
prior to 2009.

    Question 2. Mr. Dreher, you have opposition to all the bills in the 
package, which should come as no surprise to anyone given the extremist 
group you work for. You even spoke against the PREDICTS Act which 
codifies the Clinton administration's 1998 ``No Surprises'' rule. Can 
you name one reform to the ESA, other than throwing more money at 
problems you all likely caused, that the Defenders of Wildlife has 
pursued through congressional legislation and supported over the last 
30 years?

    Answer. Over the past 30 years, Defenders of Wildlife has supported 
various amendments to the ESA, including:

  1.  Endangered Species Act Amendments of 1988

          <bullet>  100th Congress--H.R. 1467

  2.  Endangered Species Recovery Act of 1997

          <bullet>  105th Congress--S. 1180, H.R. 2351

  3.  Endangered Species Recovery Act of 1999

          <bullet>  106th Congress--H.R. 960

  4.  Endangered Species Recovery Act of 2001

          <bullet>  107th Congress--H.R. 4579

    In addition to these bills, Defenders of Wildlife published a 
report in 1994, Building Economic Incentives Into the Endangered 
Species Act, advocating for legislative changes to the ESA which would 
create various tax incentive provisions, develop funds to reward and 
incentivize private landowners, and require Habitat Conservation Plans 
for candidate species. Several of these recommendations were adopted 
administratively by Secretary of the Interior Bruce Babbitt.

    Defenders of Wildlife has also supported a wide variety of 
legislation which would improve wildlife conservation in conjunction 
with the ESA. These bills include:

  1.  The Global Warming Wildlife Survival Act (which later became 
            known as the Safeguarding America's Future and Environment 
            Act)

          a.  110th Congress--S. 2204, H.R. 2338

          b.  112th Congress--S. 1881

          c.  113th Congress--S. 1202, H.R. 5065

          d.  114th Congress--S. 1601, H.R. 2804

          e.  115th Congress--S. 2176, H.R. 4490

  2.  The Protect America's Wildlife Act of 2007

          a.  110th Congress--H.R. 3663

          b.  111th Congress--S. 1535, H.R. 2281

  3.  Wildlife Corridors Conservation Act of 2016

          a.  114th Congress--H.R. 6448

  4.  The Scientific Assistance for Very Endangered North Atlantic 
            Right Whales Act of 2018

          a.  115th Congress--S. 3038, H.R. 6060

  5.  The Eliminate, Neutralize, and Disrupt Wildlife Trafficking Act 
            of 2016

          a.  114th Congress--S. 2385, H.R. 2494

  6.  America's Wildlife Heritage Act

          a.  111th Congress--H.R. 2807

          b.  112th Congress--H.R. 3496

    Defenders of Wildlife is not currently supporting any proposals for 
legislative changes to the ESA. Out of the over 110 bills, amendments 
and riders we have identified relating to the ESA that have been 
introduced in the current Congress, none would benefit species 
conservation. Instead, all are harmful to protected species and/or the 
ESA, including all of the bills that were the subject of the 
Committee's September 26, 2018 hearing. Defenders of Wildlife works 
continually to improve the implementation of the ESA, however, through 
its field programs and through its Center for Conservation Innovation 
(CCI), which uses data, technology, and interdisciplinary approaches to 
pioneer innovative, pragmatic conservation solutions. More information 
about CCI's initiatives can be found at: https://defenders.org/
innovation.

    Question 3. Mr. Dreher, you testified that these bills are and I 
quote, ``all to benefit a minority of special interests in a few 
western states.'' I take offense to that. I'd encourage you to look at 
our website and review the list of the 170 stakeholders throughout the 
country that are supporting these bills. Is the Florida Farm Bureau 
Federation from the West? How about the Missouri Sheep Producers? How 
about the National Association of Realtors, are they solely in the 
West? How about the U.S. Chamber, solely in the West? And by the way, 
what is your disdain for the West?

    Answer. I don't personally have any disdain for the West, nor does 
Defenders of Wildlife. We believe that all Americans have a vital stake 
in the protection of our natural heritage. Defenders of Wildlife works 
closely with state and local governments and people throughout the West 
to conserve wildlife and supports western communities through our co-
existence programs. For example, we work with ranchers to prevent 
attacks on livestock through range riders, livestock guard dogs, fladry 
and trail cameras. Defenders of Wildlife subsidizes construction of 
electric fences for securing grizzly bear attractants, such as garbage, 
fruit trees and livestock, in states like Washington, Idaho, Montana 
and Wyoming. These programs are central to our mission of reducing 
human-wildlife conflict and working toward sustainable solutions that 
benefit both wildlife and people.
    We can't, however, ignore the fact that the Western Caucus and its 
members took the lead on sponsoring these nine bills, which are all 
harmful to endangered species conservation. The goals of many of these 
bills appear to be to reduce protections for imperiled species, 
delegate regulatory authority to state or local governments, limit 
opportunities for judicial review by citizens concerned with protecting 
imperiled species, and otherwise facilitate development activities that 
might be constrained under the ESA. It is no coincidence that pro-
development interests, such as oil, gas, mineral extraction and farming 
interests make up a clear majority of the supporters to these bills. 
Many of those organizations are from the West or represent interests 
that are heavily engaged in development of western resources, including 
such groups as the American Petroleum Institute, the Independent 
Petroleum Association of America, the National Mining Association, the 
American Loggers Council, the National Grazing Lands Coalition, the 
Western Energy Alliance, and a host of others.

                                 ______
                                 

    The Chairman. Thank you.
    Mr. Wood.

STATEMENT OF JONATHAN WOOD, ATTORNEY, PACIFIC LEGAL FOUNDATION, 
                         WASHINGTON, DC

    Mr. Wood. Chairman Bishop, Ranking Member Grijalva, and 
honorable members of the Committee, thank you for giving me the 
opportunity to testify on this important issue. My name is 
Jonathan Wood. I am an attorney with the Pacific Legal 
Foundation, and also a research fellow with the Property 
Environment Research Center.
    The Endangered Species Act is the Nation's most popular 
environmental law. Yet, surveys reveal that most of the public 
has little understanding of how the law works, or what it has 
achieved. Thus, Congress should heed the public's deep concern 
for endangered species. But it would be a mistake to assume 
that because the law polls well, everything is working 
perfectly and we cannot improve on what we have now.
    In fact, the ESA's record of accomplishing its goals is 
rather mixed. On the bright side, only 1 percent of species 
protected by the law have gone extinct. Now, that is an 
accomplishment we can and all should celebrate. However, only 3 
percent of protected species have recovered, and I think we can 
do better.
    To better achieve both of the ESA's goals, we need bold 
reforms that improve the incentives for states, property 
owners, and conservationists to work together toward species 
recovery. That is why I am glad to see that the LOCAL Act 
provides financial incentives for efforts to protect species 
and recover habitat, transforming rare species from a liability 
into an asset.
    Similarly, the EMPOWERS Act seeks to better enlist states 
as partners in conservation. When combined with the reforms 
proposed by the Administration, these can help boost the rate 
at which we recover species without sacrificing the law's 
success at preventing extinction.
    But in addition to substantive reforms, we also need 
process reforms to address some of the persistent points of 
conflict under the Act. The PETITION Act and LIST Act, for 
instance, address some of the conflicts that arise under the 
listing process.
    It is undeniable that, historically, the number of 
petitions filed have exceeded the agency's ability to review 
them by the strict deadlines contained in the statute. 
Reviewing petitions is expensive. Even petitions that are 
meritless may cost the agency upwards of $150,000 to review. 
And unfortunately, as the Obama administration explained in a 
proposed rule in 2016, it is the weakest petitions that can 
impose the greatest burdens, because they require agency staff 
to decipher petitions that may lack any clear logic.
    Due to the backlog, listing policy has historically been 
driven primarily by the interest of whichever organizations 
petition and sue the most. Science on the threats to species, 
and the agency's policy judgments, by comparison, have played a 
reduced role.
    Fortunately, the Obama administration found a way to 
address this problem. It established a system to prioritize 
petitions based on the seriousness of threats species face, the 
quality of the data, and whether state and private conservation 
efforts are ongoing. The PETITION Act would codify this 
approach, confirming that agencies can prioritize petitions 
with the most merit over those with the least, which would 
allow the agency to focus their resources where they can do the 
most good, rather than having priorities arbitrarily set by 
litigation.
    Another persistent source of conflict is the difficulty in 
de-listing species. Although the law assigns the same standards 
and preference for listing and de-listing decisions, this has 
not been borne out in practice. In my written testimony, I 
describe several cases where the U.S. Fish and Wildlife Service 
ignored its own scientists' determination that a species' 
status had improved.
    In the case of the manatee, for instance, the agency 
dragged its heels for an entire decade, and it likely would 
have continued to delay the decision if PLF had not filed a 
petition and sued, sued, and sued again on behalf of affected 
property owners. The LIST Act would require a prompt de-listing 
of species, once agency scientists determine they no longer 
require protection. It would also require prompt de-listing 
where a species was listed based on bad data.
    A problem which a recent Heritage Foundation study found is 
far more significant than we previously assumed. In fact, if 
you properly allocate species between whether they recovered, 
went extinct, or were originally listed in error, that is the 
largest category, and it trumps the others.
    Thus, the proposals in the LIST Act are sensible changes. 
There is compelling evidence that merely listing a species 
without devoting resources to its conservation can cause more 
harm than good. Thus, when species linger on the list, they 
siphon conservation funding away from the species that truly 
need it.
    In my written testimony, I identify several points that 
could benefit from further clarification or improvement. Today, 
I want to particularly caution the Committee about barring 
judicial review. Undoubtedly, too many ESA issues wind up in 
litigation. But the solution is to address the underlying 
incentives behind that problem, as H.R. 3608 would do, by 
limiting attorney's fees to reasonable rates.
    But as I explained in my written testimony, broad bans on 
judicial review are an invitation for agency mischief.
    In conclusion, the reforms we are discussing today 
appropriately focus on reducing conflict, while providing 
better incentives for species recovery. That is precisely what 
we need to achieve the ESA's goals.
    Thank you, and I look forward to questions.

    [The prepared statement of Mr. Wood follows:]
Prepared Statement of Jonathan Wood,\1\ Pacific Legal Foundation \2\ on 
           H.R. 6355 (PETITION Act) and H.R. 6356 (LIST Act)
---------------------------------------------------------------------------
    \1\ Attorney, Pacific Legal Foundation; Research Fellow, Property 
and Environment Research Center.
    \2\ Founded in 1973, Pacific Legal Foundation is a nationwide 
public interest legal group that fights to secure all Americans' 
inalienable rights to live responsibly and productively in their 
pursuit of happiness. It has secured 10 wins at the Supreme Court of 
the United States on behalf of property owners and individuals whose 
rights were violated by government.
---------------------------------------------------------------------------
                              main points

  <bullet> For decades, the U.S. Fish and Wildlife Service has 
            struggled to keep up with a persistent backlog of listing 
            and de-listing petitions.

  <bullet> The backlog workplan is a sensible, bipartisan response to 
            this problem.

  <bullet> The public shouldn't have to bring multiple suits to get 
            agencies to listen to their own scientists.

    Chairman Bishop, Ranking Member Grijalva, and honorable members of 
the Committee, thank you for the opportunity to testify on this 
important issue.
    Forty-five years after the Endangered Species Act was enacted, we 
have learned a lot about how the law works and doesn't work. We can be 
proud that only 1 percent of protected species have gone extinct. But 
we should be equally dissatisfied that only 3 percent of those species 
have recovered. We can and must do better. And that requires a 
combination of reforms. First, bold reforms are needed to improve the 
incentives for states, property owners, and conservationists to work 
together toward species recovery.\3\ And, second, process reforms must 
address some of the persistent points of conflict that distract from 
those recovery efforts.
---------------------------------------------------------------------------
    \3\ See, e.g., Jonathan Wood, The Road to Recovery: How Restoring 
the Endangered Species Act's Two-Step Process Can Prevent Extinction 
and Promote Recovery, PERC Policy Report (2018).
---------------------------------------------------------------------------
    The PETITION Act and LIST Act address two of the most persistent 
bureaucratic problems in the administration of the Act. In fact, they 
codify or build on reforms proposed administratively by both the Obama 
and Trump administrations. Importantly, these reforms will restore the 
government's ability to focus on the species that most need protection 
while spurring the de-listing of species that no longer require it.
The popular but poorly understood Endangered Species Act
    The Endangered Species Act is one of our Nation's most popular 
environmental laws. Surveys routinely reveal broad, bipartisan 
support.\4\ Almost everyone, regardless of political persuasion, 
embraces the goals of the Endangered Species Act. However, it's equally 
clear that most Americans know very little about how the law works and 
what results it has achieved.
---------------------------------------------------------------------------
    \4\ See, e.g., Tulcin, et al., Poll Finds Overwhelming, Broad-Based 
Support for the Endangered Species Act Among Voters Nationwide, Tulchin 
Research Memo (July 6, 2015), available at https://earthjustice.org/
sites/default/files/files/PollingMemoNationalESASurvey.pdf.
---------------------------------------------------------------------------
    A recent survey by the Association of Zoos and Aquariums, for 
instance, found that the average American believes there are only 80-
100 species on the Endangered Species List.\5\ (There are nearly 
1,500.) They do not know that species like the bald eagle have 
recovered, despite the good news being widely publicized.\6\ Nor can 
many identify popular species that have recently been listed.
---------------------------------------------------------------------------
    \5\ See Press Release, Association of Zoos and Aquariums, U.S. 
Americans Greatly Underestimate How Many Animals on the Endangered 
Species List, Study Shows (May 14, 2018), available at https://
www.aza.org/aza-news-releases/posts/us-americans-greatly-underestimate-
how-many-animals-on-the-endangered-species-list-study-shows.
    \6\ See id.
---------------------------------------------------------------------------
    This lack of knowledge is understandable. Social scientists have 
long observed that the public is rationally ignorant of many important 
issues because time is limited, acquiring information is costly, and 
the odds that an investment in further knowledge will affect the 
outcome are extremely low.\7\ If any of us were quizzed on enough 
public policy topics, we'd inevitably have our own ``what is Aleppo?'' 
moment.\8\
---------------------------------------------------------------------------
    \7\ See generally Ilya Somin, Democracy and Political Ignorance: 
Why Smaller Government Is Smarter (2013).
    \8\ See Alan Rappeport, `What is Aleppo?' Gary Johnson Asks, in an 
Interview Stumble, N.Y. Times (Sept. 7, 2016), available at https://
www.nytimes.com/2016/09/09/us/politics/gary-johnson-aleppo.html.
---------------------------------------------------------------------------
    Because people care so deeply about the law's purposes, but 
understandably know little about its operation, any reform--whether a 
major reworking of the Act or the most minor tweak imaginable--will 
generate political conflict.\9\ This problem has dogged the agencies 
charged with implementing the law, regardless of whether the 
administration is perceived as a friend or foe of 
environmentalists.\10\
---------------------------------------------------------------------------
    \9\ See Tate Watkins, Changing the Endangered Species Act could 
actually help conservation, Wash. Post (July, 24, 2018), available at 
https://www.washingtonpost.com/news/posteverything/wp/2018/07/24/
changing-the-endangered-species-act-could-actually-help-conservation/
?utm_term= .0ef3d3eb8a24 (noting that environmentalists' views on the 
Trump administration's proposals ranged from the ``sky-is-falling'' to 
seeing opportunities for conservation benefits); Editorial, Endangered 
Species Scare, Wall St. J. (July 26, 2018), available at https://
www.wsj.com/articles/endangered-species-scare-
1532646111?mod=searchresults&page=1&pos=5.
    \10\ See, e.g., Lydia Wheeler, Endangered species rule changed, 
angering environmental groups, TheHill.com (Sept. 26, 2016), available 
at https://thehill.com/regulation/energy-environment/297752-rule-
changes-petitioning-process-for-animal-protections (describing 
environmental opposition to one minor rule change to the petition 
process proposed and finalized by the Obama administration).
---------------------------------------------------------------------------
    We can't even agree on whether the law is a success or failure. 
Supporters of the Act point to the fact that only 1 percent of species 
protected by it have gone extinct,\11\ while critics note that only 3 
percent of those species have recovered.\12\ To anyone not entrenched 
in the conflict, the answer would seem obvious: it's a little of both. 
The Endangered Species Act provides an effective backstop against 
species extinction but fails to adequately incentivize recovery 
efforts.\13\ But such a nuanced view often escapes the debate.
---------------------------------------------------------------------------
    \11\ See Lisa Feldkamp, What has the Endangered Species Act ever 
done for us? More than you think., Nature.org May 8, 2017), available 
at https://blog.nature.org/science/2017/05/08/what-endangered-species-
act-done-effective-extinction-conservation/.
    \12\ See Jonathan H. Adler, The Leaky Ark: The Failure of 
Endangered Species Regulation on Private Land, in Rebuilding the Ark: 
New Perspectives on Endangered Species Act Reform (2011) (noting the 
distressingly few number of successful recoveries, several of which 
cannot directly be attributed to the ESA).
    \13\ See Jonathan Wood, The Endangered Species Two-Step, PERC 
Reports vol. 37 (Sum. 2018), available at https://www.perc.org/2018/07/
13/the-endangered-species-two-step/; see also Tate Watkins, If a Frog 
Had Wings, Would It Fly to Louisiana?, PERC Reports, vol. 37 (Sum. 
2018), available at https://www.perc.org/2018/07/13/if-a-frog-had-
wings-would-it-fly-to-louisiana/ (describing the challenges and 
incredible efforts by the Nature Conservancy to restore habitat for the 
dusky gopher frog).
---------------------------------------------------------------------------
    All of this is to say that Congress should heed the public's deep 
concern for the protection and recovery of endangered species. But it 
would be a mistake to assume that, because the Endangered Species Act 
polls well, it is working perfectly and cannot be improved. It can.
The chronic listing backlog and its causes
    The Endangered Species Act permits any interested person to 
petition the U.S. Fish and Wildlife Service or the National Marine 
Fisheries Service urging the listing or de-listing of a species. There 
is no cost to file a petition and minimal paperwork requirements. In 
principle, this is a laudable effort to empower anyone to participate 
in the process, regardless of their resources.
    In practice, a handful of well-healed organizations, not plucky 
citizen-scientists, dominate the petition process. From 2007 to 2011, 
for instance, two organizations filed 90 percent of listing petitions, 
according to the New York Times.\14\ Together, these two organizations 
have annual budgets exceeding $15 million and receive significant 
amounts in attorney's fees paid by the Federal Government.
---------------------------------------------------------------------------
    \14\ Todd Woody, Wildlife at Risk Face Long Line at U.S. Agency, 
N.Y. Times (Apr. 20, 2011), available at https://www.nytimes.com/2011/
04/21/science/earth/21species.html.
---------------------------------------------------------------------------
    Although a petition is virtually free to the petitioner, the mere 
filing of one can impose significant costs on the agencies. Even the 
most patently inadequate petition requires a response that, in the case 
of the U.S. Fish and Wildlife Service, has a median cost of 
$39,276.\15\ If the petition indicates that a listing merely may be 
warranted--a relatively low bar--the agency must expend another 
$100,690.\16\ Thus, anyone may easily divert a substantial amount of 
the agency's resources based on a minimum showing. Where a petition has 
merit and leads to the recognition of threats to a species, this is a 
bargain. But that the same resources can be diverted for petitions that 
don't merit such expenditures is troubling.
---------------------------------------------------------------------------
    \15\ See, e.g., Department of Interior, Annual Description of 
Progress on Listing Actions, 79 Fed. Reg. 72,450, 72,456 (Dec. 5, 
2014).
    \16\ See id.
---------------------------------------------------------------------------
    In fact, the greatest burdens are imposed by the weakest petitions 
because they require greater time and effort to decipher. When the 
Obama administration proposed reforms to the petition process, it 
emphasized the difficulty of reviewing weak petitions: ``It has often 
proven to be difficult to know which supporting materials apply to 
which species, and has sometimes made it difficult to follow the logic 
of the petition.'' \17\
---------------------------------------------------------------------------
    \17\ Proposed Revisions to the Regulations for Petition, 80 Fed. 
Reg. 29,286, 29,287 (May 21, 2015).
---------------------------------------------------------------------------
    This is not merely a question of resources. There is compelling 
evidence that merely listing a species, without devoting resources to 
its conservation, may further imperil the species.\18\ In other words, 
resources that would be better spent pursuing species recovery are too 
often diverted to deciphering weak petitions.
---------------------------------------------------------------------------
    \18\ See Adler, supra n.12, at 13.
---------------------------------------------------------------------------
    It is no exaggeration to say that Federal listing policy is, to a 
large extent, dictated by the preferences of whoever is most willing to 
petition and sue, as lawsuits are often required to receive a response 
to a petition. Science on the threats to a species and the agency's 
policy judgment, by comparison, play a reduced role.\19\
---------------------------------------------------------------------------
    \19\ See, e.g., Daniel Benjamin, Public pressure effects species 
listings, PERC Reports, vol. 18 (2000), available at https://
www.perc.org/2000/09/01/public-pressure-effects-species-listings/.

    Until recently, this problem was getting worse. From 1993 to 2007, 
the U.S. Fish and Wildlife Service received petitions requesting an 
average of 20 species' listings per year. From 2008 to 2011, that 
number skyrocketed to 308 per year. Much of this increase was driven by 
the filing of ``megapetitions,'' those urging the listing of dozens or 
hundreds of species at a time. In 2011, Gary Frazier, the assistant 
director for endangered species during the Obama administration, 
---------------------------------------------------------------------------
bemoaned that these petitions had derailed the process:

        [T]hey're basically going to shut down our ability to list any 
        candidates for the foreseeable future . . . If all our 
        resources are used responding to petitions, we don't have 
        resources to put species on the endangered species list. It's 
        not a happy situation.'' \20\
---------------------------------------------------------------------------
    \20\ See Wildlife at Risk Face Long Line at U.S. Agency, supra n. 
14.

    Because this problem is the result of the underlying incentives of 
the petition process, more money may not solve the problem. Any 
additional listing-budget funds would likely be quickly dissipated by 
the filing of more petitions. And, because the weakest petitions 
require greater resources to decipher, it may result in throwing more 
good money after bad.
    In any event, more money is not a politically practical solution. 
In terms of political priorities, the listing budget is a very low 
priority.\21\ If given the power to allocate significant new funding, 
even the most ardent supporters of the Endangered Species Act as 
currently implemented would likely prioritize other actions, such as 
active recovery efforts, over pouring more into a bureaucratic process.
---------------------------------------------------------------------------
    \21\ See Jonathan Wood, Worried About Cuts to the ESA Listing 
Budget?, PERC.org (Feb. 20, 2018), available at https://www.perc.org/
2018/02/20/worried-cuts-esa-listing-budget/.
---------------------------------------------------------------------------
    Solving this problem would require a better allocation of these 
costs between the agency and petitioners. The backlog problem is not 
unique to the Endangered Species Act and Congress' solution to the 
problem in other contexts could provide a blueprint. To address a long 
running backlog in the Food and Drug Administration's review of new 
medicine applications, for instance, Congress brokered a deal by which 
pharmaceutical companies would bear the costs of those reviews in 
exchange for a commitment to reduce delays.\22\ That reform funded a 77 
percent increase in agency staff to review new drug applications and 
cut approval times in half.\23\ Similarly, allowing environmentalists 
and industry to voluntarily pay for expedited petition reviews under 
the Endangered Species Act could improve the process for everyone by 
freeing up agency resources.\24\
---------------------------------------------------------------------------
    \22\ See Congressional Research Service, The Prescription Drug User 
Fee Act: Background and Issues for PDUFA IV Reauthorization (2007), 
available at http://congressionalresearch.com/RL33914/document.php.
    \23\ See GAO, Effect of User Fees on Drug Approval Times, 
Withdrawals, and Other Agency Activities (2002), available at https://
www.gao.gov/new.items/d02958.pdf.
    \24\ See Worried About Cuts to the ESA Listing Budget?, supra n.20.
---------------------------------------------------------------------------
    Until the underlying incentives are reconciled, reforms to the 
petition process can go a long way toward returning, to the agencies 
appointed by Congress to administer the Act, the decision about which 
species most urgently require the government's limited resources. An 
administrative reform by the Obama administration shows how this can be 
done.
Codifying a temporary peace in the listing-backlog wars
    When the absurdity of the most recent backlog became too much to 
bear, the Obama administration brokered a temporary peace. In 2011, the 
Department of the Interior agreed to a settlement that established a 6-
year workplan to review the then-pending megapetitions, in exchange for 
environmental groups submitting fewer such petitions.\25\ For the most 
part, environmental groups cooperated, giving the new plan time to 
work.\26\
---------------------------------------------------------------------------
    \25\ See Juliet Eilperin, Interior Dept. strikes deal to clear 
backlog on endangered species listings, Wash. Post (May 10, 2011), 
available at https://www.washingtonpost.com/national/interior-strikes-
deal-with-conservation-groups-on-endangered-species-listings/2011/05/
10/AF7iX2hG_story .html?noredirect=on&utm_term=.158a4003b88a.
    \26\ But see Allison Winter, Petitions for new species protection 
wobble balance in FWS settlement, agency says, E&E News (Aug. 7, 2012), 
available at https://www.eenews.net/greenwire/2012/08/07/stories/
1059968495.
---------------------------------------------------------------------------
    As the initial 6-year workplan neared its conclusion, the Obama 
administration proposed a rule to formalize it.\27\ Under that rule, 
the Service would assign petitioned species into one of five bins, 
giving each a different priority based on the degree of threat the 
species faces, data quality, and whether state and private recovery 
efforts are ongoing. This allowed the agency to focus its limited 
resources on the petitions that most deserved them.
---------------------------------------------------------------------------
    \27\ Fish and Wildlife Serv., Methodology for Prioritizing Status 
Reviews and Accompanying 12-Month Findings on Petitions for Listing 
Under the Endangered Species Act, 81 Fed. Reg. 49,248 (July 27, 2016).
---------------------------------------------------------------------------
    Because the Endangered Species Act sets firm deadlines to respond 
to listing petitions, this approach has largely relied on goodwill. At 
any time, someone could challenge the agency's failure to respond to a 
petition by the statutory deadline. And a court could order the agency 
to respond promptly, even if the agency had assigned the species a low 
priority under the workplan.
    The PETITION Act would codify the Obama administration's approach, 
eliminating this litigation risk. Importantly, it would rely on the 
Service rather than random litigation outcomes to prioritize listing 
decisions in the face of budget constraints. It explicitly adopts the 
Obama administration's methodology and allows it to be relied on 
anytime that the Secretary of the Interior declares a backlog. This 
methodology allows the government to focus its limited resources on 
those petitions that are most likely to result in species protection, 
rather than allowing those resources to be sapped by weaker petitions 
without such potential. The bill would also require transparency about 
implementation, both for the benefit of petitioners and the public. As 
the bill codifies an administrative reform developed by the Obama 
administration, it should enjoy broad support. Environmentalists and 
industry have experience working under this approach, and the early 
results have been positive.
    The bill could be further improved by allowing the Secretary of 
Interior to adjust which bin a species is assigned to based on updated 
information. For instance, one of the bins is reserved for species that 
the Service expects to receive new information on, revealing important 
data about its status. Once the anticipated study is released, it may 
be sensible for the species to be reassigned to a higher or lower 
priority bin, based on the results.\28\
---------------------------------------------------------------------------
    \28\ But see PETITION Act, Sec. 4(a)(I)(ii).
---------------------------------------------------------------------------
    It would also be useful to clarify what Congress expects to happen 
after the Service declines a petition under the PETITION Act's 
mandatory deadlines.\29\ If such denials serve as a signal to the 
petitioner that she should provide more and better information when 
resubmitting, so that a subsequent petition is assigned a higher 
priority, this would be extremely useful. But if the Service could 
treat the petition denial as a judgment on the merits binding future 
petitions, that would be concerning--especially as the bill precludes 
judicial review of automatic denials based on the bill's deadlines.
---------------------------------------------------------------------------
    \29\ See, e.g., id. Sec. 4(a)(H)(ii)(IV).
---------------------------------------------------------------------------
    Moreover, the Committee should be more concerned generally about 
the dangers of barring judicial review. Undoubtedly, too many 
Endangered Species Act issues result in litigation. But the solution is 
to address the underlying incentives that drive that problem, not to 
ban all litigation, including litigation that advances the public 
interest.\30\ In time, you may be surprised by the novel means agencies 
devise to abuse these provisions and thwart Congress' will.\31\ 
Therefore, you should be extremely cautious about enacting any 
limitation on judicial review.
---------------------------------------------------------------------------
    \30\ PLF regularly litigates Endangered Species Act issues on 
behalf of individuals and organizations whose interests are harmed by 
over-reaching and counterproductive regulations. We have received 
minimal attorney's fees for this work in recent years. PLF also notes 
that the cases in which it has received such fees are those in which 
the government has ignored its own scientists' recommendation that a 
species' status be changed. The LIST Act would address this problem, 
rendering future litigation on this issue unnecessary and eliminating 
this minimal source of attorney's fees.
    \31\ In fact, agencies have long used judicial-review bans to 
thwart Congress' will. For instance, agencies flagrantly ignored the 
Regulatory Flexibility Act until Congress amended it by repealing its 
anti-judicial review provision. See 142 Cong. Rec. H3016 (Mar. 28, 
1996) (statement of Rep. Ewing); 142 Cong. Rec. H3005 (Mar. 28, 1996) 
(statement of Rep. McIntosh). Today, agencies hide behind an ambiguous 
judicial review provision to avoid compliance with the Congressional 
Review Act. See Kansas Natural Resource Coalition v. Dept. of Interior, 
No. 18-cv-01114 (D. Ks. filed Apr. 10, 2018) (government has moved to 
dismiss a case seeking the submission of a rule under the CRA based on 
a theory that would utterly defeat the law's purpose).
---------------------------------------------------------------------------
Recognizing when species have recovered
    There have been depressingly few de-listings under the Endangered 
Species Act. Although this is primarily due to the lack of incentive 
for property owners to recover species, it is also due to agencies' 
stubborn unwillingness to pursue de-listing with the same zeal as they 
pursue listing. Although the law imposes the same standard on de-
listing decisions as applies to listing decisions, the agencies have 
imposed far higher burdens on the former in practice.\32\
---------------------------------------------------------------------------
    \32\ See 83 Fed. Reg. 35,193, 35,196 (July 25, 2018) (acknowledging 
this problem and proposing to clarify that the Endangered Species Act 
requires the same standard be used in both instances).
---------------------------------------------------------------------------
    Getting a species removed from the list is a daunting task, even 
where there is no question that the decision is merited. In case after 
case where the U.S. Fish and Wildlife Service's own scientists have 
determined that a species' status should be changed, the agency has 
ignored them. Property owners can only obtain relief in such 
circumstances by filing several petitions and lawsuits, an ordeal which 
may be too expensive or intimidating for the average landowner to 
undertake.
    For instance, the Service's scientists determined that the Valley 
Elderberry Longhorn Beetle should be de-listed in 2006. It ignored this 
science for 4 years, causing PLF to file a de-listing petition on 
behalf of an affected property owner. Despite this plea from a property 
owner and the agreement of its own scientists, the Service . . . did 
nothing. The property owner had to sue not once but twice before the 
Service finally proposed de-listing the insect in 2012.\33\ However, in 
2014, it withdrew its proposal claiming the studies had become too 
stale--which of course was due to the agency's dilatoriness.
---------------------------------------------------------------------------
    \33\ See Damien M. Schiff, Service proposes to de-list Valley 
elderberry longhorn beetle, PacificLegal.org (Oct. 1, 2012), available 
at https://pacificlegal.org/service-proposes-to-delist-valley-
elderberry-longhorn-beetle/.
---------------------------------------------------------------------------
    Similar frustrations were felt by property owners affected by the 
listing of the manatee, although that story at least has a happy 
ending. In 2007, the Service's scientists determined that the manatee 
had recovered to the point that its status should be upgraded from 
endangered to threatened. The agency again ignored its scientists for a 
prolonged time, prompting PLF to file a petition on behalf of affected 
property owners. When that petition was ignored too, PLF filed a 
lawsuit to force a response in 2012. In response to that suit, the 
Service determined that the species' status should be changed but again 
did not follow through. So PLF had to sue again. The Service finally 
reclassified the manatee in 2017, a decade after the science showed 
this move was warranted.\34\
---------------------------------------------------------------------------
    \34\ See Pam Wright, Florida Manatee Status Changed to `Threatened' 
As Congress Targets Endangered Species Act, weather.com (Mar. 31, 
2017), available at https://weather.com/science/nature/news/florida-
manatee-endangered-species-regulations.
---------------------------------------------------------------------------
    Even the bald eagle, the species most cited as evidence of the 
law's success, fell victim to this bureaucratic morass. When the 
Service determined the eagle should be de-listed, President Clinton 
held a press conference to share the news. That was 1999. But no such 
de-listing was forthcoming. In 2005, PLF sued on behalf of an affected 
landowner, urging the Service to follow through. Instead, it fought to 
have the case dismissed. Only after the courts rejected this gambit did 
the Service belatedly de-list the species in 2007.
    Property owners should not have to sue, sue, and sue again to force 
the Service to do what it has admitted all along should be done. If the 
government behaved this way with listing decisions, it would be a 
national scandal. Imagine if the Service determined a species was 
critically endangered then ignored that determination, even in the face 
of petitions and lawsuits, which it fought rather than doing the right 
thing.
    The LIST Act would fix this imbalance by directing the Service to 
initiate the de-listing process once its scientists conclude that a 
species has recovered or otherwise merits de-listing. That is a 
sensible change. There is no reason why species should linger on the 
list long after the science shows de-listing is warranted.
    The LIST Act also addresses another serious problem: the large 
number of species that have been improperly listed based on bad data. 
The Service acknowledges 19 such mistakes. But a recent Heritage 
Foundation report shows that the actual number is far higher.\35\ The 
data reveal that approximately half of all domestic species reported as 
``recovered'' under the Endangered Species Act were not endangered in 
the first place but, instead, listed based on bad data which were 
subsequently corrected. If these de-listings were properly categorized, 
the number of species delisted for data error would dwarf the few 
recoveries.
---------------------------------------------------------------------------
    \35\ Robert Gordon, Correcting Falsely ``Recovered'' and Wrongly 
Listed Species and Increasing Accountability and Transparency in the 
Endangered Species Program, Heritage Found. Backgrounder (Apr. 16, 
2018), available at https://www.heritage.org/sites/default/files/2018-
04/BG3300_0.pdf.
---------------------------------------------------------------------------
    For instance, the Service listed the Hoover's wooly star in 1989, 
speculating that there were as ``few'' as 35,000 to 300,000 of the 
plants.\36\ A full survey was only performed after the species was 
listed. According to the Service, the actual population size is 
approximately 135,000,000.\37\ Yet, despite this several-orders-of-
magnitude error, the Service considered the de-listing as a recovery. 
It credited the listing as the impetus for the survey and then 
attributed the findings to the listing, even though the survey didn't 
increase the size of the population but only revealed the error on 
which the listing was originally based.\38\
---------------------------------------------------------------------------
    \36\ See id.
    \37\ See id.
    \38\ See id.
---------------------------------------------------------------------------
    Species lingering on the lists dissipate resources from those 
species who need them. In the case of false-recoveries, for instance, 
the Service incurs years of post-listing monitoring. Given the limited 
funding for recovery efforts, such misallocations are unacceptable.\39\
---------------------------------------------------------------------------
    \39\ Ecologists have long observed that scarce conservation funds 
are routinely misallocated. Most notably, they are doled out to 
charismatic species at far greater rates than less popular species. See 
Leah R. Gerber, Conservation triage or injurious neglect in endangered 
species recovery, PNAS (Mar. 29, 2016), available at http://
www.pnas.org/content/113/13/3563.
---------------------------------------------------------------------------
    The LIST Act's solution to this problem could benefit from further 
clarification, however. The bill wisely directs the Service to act 
promptly when it determines that a species' listing depends on a data 
error. However, it also authorizes the Secretary of the Interior to 
declare that a petitioner knew a petition contained inaccurate, 
fraudulent, or misrepresentative information and to deprive such a 
person of the right to submit petitions for 10 years. It's not clear 
whether the aggrieved petitioner would have a right to judicial review 
of this determination, although she should before being denied such an 
important right. As discussed above, statutory bans on judicial review 
can be dangerous licenses for agencies to thwart Congress' true aims.
    This broad grant of power to the Secretary raises the potential for 
mischief, which should concern both sides of this issue. The Secretary 
might abuse this power against environmental groups or industry 
petitioners, depending on the bureaucrats' political views. Here, as is 
often the case, it's best not to confer power to an executive branch 
official without first considering whether you'd want your fiercest 
opponent to wield it. Thankfully, concerns about petitioner foul-play 
could be addressed with less drastic means by, for instance, allowing 
the Service to consider a group's past petitions in assessing the 
credibility of data presented in a subsequent petition. If a group has 
a history of malfeasance, that should be taken into consideration. But 
it may not always be dispositive.
    Finally, and somewhat repetitively, Congress should clarify the 
circumstances in which it intends to forbid judicial review--and should 
minimize such circumstances. The LIST Act provides that a ``negative'' 
finding, but not a ``positive'' one, under Sec. 2(b)(H)(i) is subject 
to judicial review. It's not clear from the text whether this means 
judicial review is only available when the Service de-lists a species 
citing data error or instead only when it maintains the status quo. 
But, that ambiguity aside, judicial review should be available in 
either circumstance to ensure that the agency follows Congress' intent 
under the bill.
                               conclusion
    We need not tolerate the broken procedures I've described in my 
testimony. They benefit neither people nor endangered species, but 
instead harm both. Codifying the Obama administration's backlog 
workplan is a sensible way to convert this temporary peace into a long-
term improvement. Similarly, facilitating more de-listings is an 
effective way to ensure that limited conservation resources go to the 
species that need it. It also reduces the need for litigation brought 
by property owners to force the agencies to listen to their own 
scientists, which unnecessarily taxes both the property owners and the 
agencies.

                               ______
                                 

    The Chairman. Thank you, and I appreciate you all staying 
within the 5 minutes.
    Committee Rule 3(d) allows questions from each Member of 5 
minutes. It doesn't mean you have to ask a question for each 
bill. We are going to go through each bill one at a time. If 
you don't have a question for that particular bill, we will 
just go by it and wait until we come to yours.
    I am going to recognize Members for questions on Tipton's 
bill, the LOCAL Act, which, once again, codifies voluntary 
conservation efforts.
    I am going to take my first time, and I will yield to Mr. 
Tipton on your bill. You have up to 5 minutes. Questions only 
on your bill, though. Everything for this round, only on the 
LOCAL Act. Go for it.
    Mr. Tipton. Since you are starting with the most important 
bill, I appreciate that, Mr. Chairman.
    Mr. Renkes, has the Department of the Interior actually 
used voluntary conservation practices in the past?
    Mr. Renkes. Yes. In fact, it is one of the most important 
tools that we have, and we have a number of different variants 
that create a little bit of an alphabet soup, if you are 
studying this. But they all work, and they work by 
incentivizing private landowners with assurances, regulatory 
assurances, and then working on conservation plans.
    We have a number of success stories involving this. One of 
those is the recovery of the Louisiana black bear. It was due 
in large part to conservation efforts by private forest owners, 
farmers, and landowners across the range of the species. Ninety 
percent of the species' habitat is on private land and the 
recovery of that species was based on the use of these tools.
    So, the stronger they are, the better the conservation is 
going to be.
    Mr. Tipton. Great. So, you have effectively had success 
trying to be collaborative with local landowners, in terms of 
being able to develop policies. Is it pretty much your opinion 
that is something that we ought to continue to be 
incentivizing? And what do you see that role being in the 
future?
    Mr. Renkes. We should definitely continue to find ways to 
incentivize local landowners. I think the way to look at this 
is we need to turn endangered species from liabilities into 
assets. Where I come from--which Congressman Young knows is 
Alaska, but more recently I live in Wyoming--you run into an 
endangered species approach from local landowners. They call it 
shoot, shovel, and shut up. And that is not good for species 
recovery.
    So, by creating incentive programs, voluntary incentive 
programs that you are discussing and the ones that the 
Department is using, we can change that paradigm and actually 
make the species conservation an asset for private landowners 
and states.
    Mr. Tipton. Thank you, sir.
    Mr. Johansson, you are a farmer, somebody that actually 
works the land. Is it safe to be able to make the assumption 
that you actually care about where you live, want to be able to 
see species actually recover, it is part of the ecosystem that 
you rely on for your business?
    Mr. Johansson. Absolutely. Nothing gives us greater pride 
than seeing what we support on our land when it comes to 
wildlife. And certainly even for our kids, we know we are doing 
something right.
    Mr. Tipton. When we talk about the ESA, I think there isn't 
a person on this Committee that will dispute the intent of the 
ESA. We had the example of bald eagles being recovered, 
actually, on species recovery. But in terms of some of the 
actual practice over the period of time, have you seen that the 
ESA has hindered or helped the ability to be able to recover a 
species?
    Mr. Johansson. Well, I think the thing that hinders farmers 
the most and the ranchers the most is just simply the fear of 
the Act, and the unknown, and not having those assurances that 
the steps we take in good faith, the steps we take that we owe 
our land and our family and taking care of everything on our 
land won't be punished down the road with new regulations, new 
interpretations, or simply a new lawsuit.
    I think it has been a hindrance, but I look at the 
opportunities with your bill, H.R. 6344, that also codifying 
efforts, voluntary efforts that farmers and ranchers can take, 
really, to encourage them, also takes into account that one 
size doesn't fit all farms.
    There are large farms, small farms, family farms, and even 
corporate farms. And all too often, we see that the opportunity 
to take further steps in preserving species and developing 
habitat, the small farmers simply cannot afford.
    We look at the tremendous success of farm bill, EQIP, 
working with the NRCS, also the RCDs, the resource conservation 
districts, in our areas. Tremendously supportive in California. 
We have been very successful. But not all farms can 
participate. And those programs generally are funded for about 
3 years.
    What intrigues me most about your H.R. 6344, it begins to 
establish longer time frames that farmers will be rewarded, and 
don't have to show instant success before funding runs out, but 
truly can look at the long-term vision, and also hope for their 
property, in terms of species recovery and habitat.
    Mr. Tipton. Thank you, and I appreciate that. Some of the 
same circumstances we have in my district, we have different 
terrains, different circumstances. And we have seen, actually, 
positive responses working with Interior and others to be able 
to rehabilitate a species using real science and real local 
processes in a collaborative process.
    So, Mr. Chairman, I thank you for holding this hearing and 
I appreciate our panel for being here today. I yield back.
    The Chairman. Thank you.
    Mr. Grijalva, do you have questions for the LOCAL Act?
    Mr. Grijalva. Yes.
    The Chairman. OK, you are recognized.
    Mr. Grijalva. Before those questions, I would like to ask 
for unanimous consent to enter a letter into the record from 
Dr. Jane Goodall. If anybody could be called an expert on 
species conservation, it would be Dr. Goodall. She states in 
her letter, just one section, ``The bills being discussed today 
would undermine these protections, and make it more difficult 
for endangered species to recover. Surely, we do not want to 
live in a world without the great apes, our closest living 
relatives in the animal kingdom, a world where we can no longer 
marvel at magnificent flight of the bald eagles, or hear the 
howl of wolves under the moon, a world not enhanced by the 
sight of a grizzly bear and her cubs hunting for berries in the 
wilderness. What would our grandchildren think if these magical 
images were only to be found in books?''
    If no objection, I would like to enter that into the 
record, Mr. Chairman.
    The Chairman. Without objection, the letter and the words 
will be entered into the record.

    [The information follows:]
   Prepared Statement of Dr. Jane Goodall, Founder, The Jane Goodall 
                               Institute
    Thank you for this opportunity to express my strong support for the 
Endangered Species Act (ESA) and my strong opposition to the package of 
nine bills before the House Natural Resources Committee on September 
26, 2018. It is my considered opinion that if these bills are passed it 
will undermine the scientific integrity of the Act and make it more 
difficult to protect and recover endangered species.
    We, as humans, are fortunate to share the Earth with such a 
magnificent diversity of life forms, but Earth's biodiversity is 
dwindling at an alarming rate. In just over 100 years, the population 
of wild chimpanzees has dropped from an estimated 1-2 million (probably 
closer to 2 million), to as few as 350,000, many of them living in 
fragmented patches of forest with little hope of long-term survival. 
This is only one example of the decline in the population of a species 
the same decline is evident in almost every species of wild animals 
including many in the United States. Indeed, we are experiencing what 
science describes as ``The Sixth Great Extinction.'' A 2017 study found 
that of the 27,600 land-based mammals, birds, amphibians and reptile 
species studied, nearly one-third are shrinking in terms of their 
population numbers and territorial ranges. In the last 40 years, we 
have lost about half of all wild animal species on Earth. Further, the 
rate of extinction is happening at about 100 times faster than what 
would be expected from studies of the fossil record.
    Given this crisis, it is inconceivable to me that Members of 
Congress are spending time to discuss efforts to gut the most 
successful piece of legislation for combating species extinction when 
we should rather be working to strengthen it. We have a moral 
responsibility to protect the incredible life forms with which we share 
this planet for now and for future generations.
    Thanks to the ESA, we've been able, to some extent, to counter the 
rate of extinction. It has been estimated that over 200 species would 
have been wiped from our planet between 1973 and 2005 if it were not 
for the interventions of the ESA. Thanks to the ESA, 99 percent of 
listed species have survived and many more have been set on a path to 
recovery, including the iconic American Bald Eagle, the Grizzly Bear 
and the Florida Manatee. The ESA is one of the only pieces of 
legislation that has long prevented the unique American landscape from 
turning into barren wasteland and is one of the few that has provided 
critical protections to imperiled species worldwide--such as elephants 
and tigers, as well as marine mammals such as whales and turtles who 
migrate between international waters, thus necessitating international 
cooperation.
    The bills being discussed today would undermine these protections 
and make it more difficult for endangered species to recover. Surely, 
we do not want to live in a world without the great apes, our closest 
living relatives in the animal kingdom? A world where we can no longer 
marvel at the magnificent flight of bald eagles or hear the howl of 
wolves under the moon? A world not enhanced by the sight of a grizzly 
bear and her cubs hunting for berries in the wilderness? What would our 
grandchildren think if these magical images were only to be found in 
books?
    In addition to undermining the facts provided by science under the 
ESA, this package of bills would also transfer key authority of 
wildlife management to state officials who all too often lack the 
funding and sometimes the political will to adequately address the 
threats to imperiled species. These bills would also undercut citizen 
involvement in and enforcement of the ESA, further increasing the risk 
that species most at risk won't be afforded vital Federal protections 
until it is too late.
    I urge you to reject this package of bills that would threaten 
species already at risk of disappearing forever, and instead only 
extend or increase protections under the Endangered Species Act to help 
secure adequate funding for projects to protect the world's vanishing 
wildlife.

                                 ______
                                 

    Mr. Grijalva. Thank you very much, sir.
    Mr. Dreher, one of the bills you object to is the LOCAL 
Act, and that requires the government to pay landowners some 
kind of compensation whenever it appears that there are listed 
species on the land that would potentially lead to regulation. 
Can you explain why this is a bad idea, and what it would do to 
habitat conservation planning, generally, under ESA?
    Mr. Dreher. Yes, Mr. Grijalva. Let me start by saying that 
it has been a cherished dream of the far right in this country 
for decades to use the takings clause for just compensation of 
the Fifth Amendment as a means to put a brake on government 
regulation. They have a very simple perception, and that is 
that if you make government pay for every single thing it does, 
the government will shut down. That is what will happen under 
this provision.
    This provision, which is, essentially, a gold mine for 
speculators, would require the Secretary to pay any person that 
submitted a proposal for land use development on his or her 
property. If it, in fact, raised the risk of taking an 
endangered species, the Secretary would have to pay the full 
market value of that proposal.
    There is nothing to stop that applicant from submitting a 
similar proposal the next day, or continuing to submit these 
proposals. And, moreover, the applicant doesn't need to 
actually invest in anything, but he gets the full market value 
of a projected scheme. So, if I wanted to make money quickly, 
this is what I would do, certainly.
    And the problem is that, of course, that money is 
apparently not coming out of the judgment fund. That money 
would come out of the ESA budget. So, I cannot think of a 
better way to collapse the effort to conserve endangered 
species than to create this incredible boondoggle to allow 
people to file speculative claims of land development.
    There are other problems with the LOCAL Act, I think. One 
of them is just this whole process of allowing property owners 
to request assurance letters from the Secretary. Among other 
things, to show how one-sided this bill is, it would 
automatically grant those requests at the end of 180 days--no 
matter how jammed the Secretary may be in responding to them--
automatically grant them, regardless of whether they actually 
would take species. And then that authorization would give an 
exemption from take for 5 years.
    So, I mean, this is really not written to conserve species.
    Mr. Grijalva. Thank you. Mr. Renkes, we didn't have the 
opportunity to visit with you before. What role does your 
office play in the issues pertaining to ESA?
    Mr. Renkes. My office is involved in the analysis of 
legislation and regulations impacting the Department of the 
Interior, and we provide advice and analysis to the rest of the 
Department, across the entire spectrum of activities that take 
place at the Department.
    So, it is within that context that I am here today to 
comment on the nine bills.
    Mr. Grijalva. OK. Given that wide breadth of 
responsibility, how will the Secretary determine if owners 
claiming foregone use of the land due to ESA regulations have 
legitimate plans to implement the use claimed to be foregone--
how will the Secretary determine false claims for a foregone 
use under the authorities provided in this bill?
    How are you going to make those determinations of 
legitimacy and how do you establish fair-market value for any 
of those?
    Mr. Dreher. Obviously, those are important questions. The 
idea of incented conservation on private land is a powerful 
one, and can be an important driver. It obviously has to be 
something that has procedures involved, like a court takings 
proceeding would have to judge fair-market value and the 
legitimacy of the claim.
    We are standing ready to work with the Committee and the 
Committee staff on the bill to flesh out those details.
    The Chairman. All right, thank you. Now, questions to the 
LOCAL Act, just this bill. We will have the others later.
    Mr. Young, do you have questions for the LOCAL Act?
    Mr. Young. No.
    The Chairman. All right. Mr. McClintock, questions for the 
LOCAL Act?
    Mr. Gosar, for the LOCAL Act? Yes, you are recognized.
    Dr. Gosar. This is for Mr. Johansson and Mr. Sauter. From 
your experience in California and Washington State, what 
benefits are there to be gained for species conservation by the 
Federal Government coordinating with local governments and 
private entities?
    Mr. Johansson. I would simply say, being from California, 
coordination between what our state government does and the 
Federal Government is imperative, because having our own 
Endangered Species Act in California, all too often we see the 
state and Federal Government not working hand in hand.
    So, we have to know the parameters of what is expected of 
us as we enter into these programs, how long we are expected to 
be in them, and then be able to measure the results that are 
measured fairly between the state government and the Federal 
Government.
    Mr. Sauter. Thank you for the question, Congressman. 
Speaking from Washington's perspective, at least the county 
perspective, there is a huge benefit for this collaboration to 
take place. When you collaborate at the local level, it really 
gives you access to information and data that these Federal 
agencies cannot necessarily get at, because of, I will call it 
a trust gap between local landowners and Federal agencies.
    As a local government guy, I can tell you that county 
government has great credibility and trust with its citizens, 
and we have numerous examples where we have been able to 
collaborate and get information and data to those Federal 
agencies that would not have happened if the county government 
was not involved.
    Dr. Gosar. What does the government and what do potentially 
endangered species miss out on when that coordination fails to 
take place?
    Go in reverse order.
    Mr. Sauter. Yes. I would just kind of reiterate that what 
happens is that you don't have access to good data, or as 
complete of good data as you can have when you actually have 
local buy-in. And, as we all know, and I will tell you as a 
county commissioner, I need good information to make good 
decisions.
    Dr. Gosar. Mr. Johansson?
    Mr. Johansson. I don't have much more to add to that. 
Having been a former city councilman and working on a habitat 
conservation plan for our county, it was extremely difficult 
because you rely so heavily on data to put together an 
effective plan.
    And, going forward, collaboration is key. And that is all 
we ask for on our farms and ranches, is that, as we put these 
plans together, we have reliable information. And the source 
for that information doesn't just have to come from a state 
agency. We also know, working with our private businesses, who 
also have an interest to keep their businesses going, the 
research they have done, all the way from trail cameras to 
employed wildlife biologists, those are the resources that we 
really need to access to make the right decisions.
    Dr. Gosar. The key you made is buy-in. When you have buy-in 
on the local aspects, where they are thoughtful, and predicated 
that they are experienced and information is rewarded, it makes 
a big deal.
    Thank you, Mr. Chairman.
    The Chairman. Thank you. Mr. Sablan, to this local 
voluntary conservation bill?
    Mr. Sablan. Yes. Thank you very much, Mr. Chairman. 
Actually, I have a question on not just the LOCAL Act, but it 
embraces all the legislation we have.
    The Chairman. Well, do it one by one. Keep it to the LOCAL 
Act first, come on.
    Mr. Sablan. OK, because it involves the right of citizens 
also to hold their government accountable. Thank you.
    The Endangered Species Act is especially important to my 
district, the Northern Mariana Islands, home to several unique 
species such as the Tinian monarch and the Marianas fruit bat. 
Additionally, there are 15 Indo-Pacific coral species listed by 
NOAA's National Marine Fisheries Service as threatened under 
the Act, including two that have been clearly identified as 
living on the reefs of the Northern Marianas.
    Decisions whether to list a species that is endangered or 
threatened should be made based on science. Recently I joined 
letters to the Interior and Commerce Secretaries protesting 
Trump administration proposals to weaken the ESA and to House 
leadership to prevent provisions that undermine national 
conservation policy to be added to appropriations bills.
    I am particularly concerned about proposals that undermine 
citizens' involvement in enforcement of the Act. Many of the 
positive ESA outcomes in my district have been generated by 
actions taken by my constituents.
    Mr. Dreher, is that correct? In your testimony, you state 
that the ESA has been successful because it gives individual 
citizens the right to hold agencies accountable for complying 
with the law. Can you discuss the importance of this right, and 
the way in which the bills before us today will diminish it?
    Mr. Dreher. I am happy to, Congressman.
    The Chairman. Just confine your comments to the LOCAL Act, 
though.
    Mr. Dreher. The LOCAL Act, I don't think, has provisions 
that limit judicial review. There are other bills that are 
before the Committee that would.
    The primary thing I think that you would be concerned about 
with the LOCAL Act is just the fact that it provides economic 
incentives and payment out of the ESA program, or out of the 
Land and Water Conservation Fund for conservation, which 
landowners are otherwise largely either required to do or 
incentivized to do under existing law.
    But this bill does not have, as I read it, restrictions----
    Mr. Sablan. So, my question would apply to which bill 
before us today?
    Mr. Dreher. Two of the bills that have strong restrictions 
on judicial review: the PETITION Act and the LIST Act.
    The Chairman. All right. Let him go on.
    Mr. Sablan. My question has been asked. When you get to 
those two bills, please respond to them, if you will.
    Mr. Dreher. Thank you.
    Mr. Sablan. Or submit your response for the record. Thank 
you.
    The Chairman. You will have a chance to go on those bills 
when we hit those. Do you yield back?
    Mr. Sablan. Yes, I yield back.
    The Chairman. Mr. LaMalfa, for the LOCAL bill.
    Mr. LaMalfa. Thank you, Mr. Chairman. I think at this point 
I will just submit a letter for the record from a local 
resource conservation district on the local level concept from 
the Pit Resource Conservation District of Bieber, California.
    They have been working with the Forest Service to develop a 
salvage sale in what is known as the 30,000-acre Cove Fire. 
They proposed to treat just 1,300 acres of the 30,000, as what 
they thought they could accomplish. They would have preferred 
to treat a much larger area, but given the time restraints, 
they chose to focus on an area of extreme importance to the 
landscape.
    This partnership, using a steward agreement that the RCD is 
working with the Forest Service in the area. They have an EA, 
an environmental assessment, under emergency situation 
determination signed by the chief. All NEPA requirements are 
met. And locals with RCD staff and local consultants have done 
the work and completed the effort.
    They put it out to bid, and only one bidder came in because 
of how long it took to get the process done and then award the 
bid.
    Then, last week, the RCD was notified that the Conservation 
Congress is planning to submit a lawsuit against the Forest 
Service with the intent of an immediate stop work order. The 
basis was not only unfounded, but numerous items stated in the 
court docket were not even factual. The Forest Service and the 
local RCD have been proactively working together with the 
contractor to prepare for the potential litigation and severe 
hardships placed on all parties.
    The Pit RCD is requesting support for this process to 
continue with the salvage that is very vital to forest health.
    I would like to submit this letter for the record, please, 
addressed to Secretary Zinke from Andy Albaugh, the Chairman of 
the Pit Resource Conservation District, and the frustration it 
is with the locals trying to collaborate in an important 
project like this.
    I see Mr. Tipton's bill would probably be quite beneficial 
in that, in moving this direction.
    Thank you, Mr. Chairman.
    The Chairman. Mr. Huffman, to the LOCAL bill?
    OK. Mr. Westerman, to the LOCAL bill?
    OK. Mr. Gallego, the gentleman from Arizona. I am sorry, I 
mispronounced your name. Do you have questions for the LOCAL 
bill?
    Mr. Norman for the LOCAL bill? We are coming to yours next. 
All right, then let's move on to the next one, which is H.R. 
6360, the PREDICTS Act by Mr. Norman.
    I am going to offer you 5 minutes to explain your bill, and 
then see if you have questions for any of the witnesses about 
your particular piece of legislation.

    STATEMENT OF THE HON. RALPH NORMAN, A REPRESENTATIVE IN 
           CONGRESS FROM THE STATE OF SOUTH CAROLINA

    Mr. Norman. Thank you, Chairman Bishop, Ranking Member 
Grijalva, and members of the Natural Resources Committee. Thank 
you for allowing me to come before you today and address the 
Committee. I am proud to be the sponsor of H.R. 6360, the 
PREDICTS Act.
    The PREDICTS Act is part of a larger legislative package to 
modernize the Endangered Species Act. As a whole, this package 
makes necessary and common-sense updates to the Endangered 
Species Act, the legislation that has only had one significant 
reform in the past 40 years.
    This package, this legislation, preserves the intent of the 
Endangered Species Act, and provides for the protection of 
endangered species conservation, while also making improvements 
to the Endangered Species Act that increases transparency, 
includes states in the decision-making process, and brings 
accountability to the decisions to list or de-list a species as 
an endangered species.
    Specifically, the PREDICTS Act codifies the No Surprises 
regulation which provides certainty and rewards the good 
behavior of public and private entities that faithfully uphold 
their agreement to help recover endangered species.
    This regulation was put in place after agencies responsible 
for endangered species conservation realized they were not 
doing as great of a job recovering a species as they would 
like. And to compensate, these agencies were attempting to 
retroactively change habitat conservation plans. This ``No 
Surprises regulation'' was promulgated in response to these 
actions, and simply maintains that it was improper to put new 
mandates on entities that were faithfully and effectively 
implementing previously agreed-to habitat conservation plans.
    The PREDICTS Act highlights the fact that affected species 
conservation can co-exist with project permitting and economic 
development. But public and private entities go through a 
rigorous process to create habitat conservation plans with the 
Fish and Wildlife Service prior to being given a permit. In 
fact, in creating these plans, the applicant is required to 
identify all foreseeable ways in which a project and its 
operations may impact species and account for that.
    The PREDICTS Act simply ensures that after a plan is agreed 
to and these public and private entities are executing the 
plans in good faith, the changes to the plans cannot be made 
retroactively. In essence, this legislation prevents the 
imposition of new mandates, and recognizes that faithful and 
effective compliance with an agreement should not be answered 
with changes that can be costly and burdensome and creates an 
added layer of uncertainty.
    This legislation also codifies two other existing programs 
found in Federal agency handbooks, the Candidate Conservation 
Agreements with Assurances, the CCA, and the Safe Harbor 
Agreements, the SHA.
    Participants in the CCA program voluntarily agree to take 
actions with the intention of reducing threats to specific 
species that are not currently on the endangered species list 
so that species are protected and do not need to be added to 
the list.
    Participants in the SHA program enter into voluntary 
agreements to take actions to help endangered species recover.
    Both of these programs allow for participants to aid in the 
protection of species, and the PREDICTS Act will allow them to 
rely on the agreements they enter into.
    In summary, the PREDICTS Act codifies the requirements for 
habitat conservation plans, Candidate Conservation Agreements 
with Assurances, and Safe Harbor Agreements already found in 
agency regulations. This legislation provides certainty and 
rewards the good behavior of both public and private entities 
that uphold their agreements to help recover species while 
promoting project permitting and economic development.
    I yield back.
    The Chairman. Thank you. Let me ask a couple of questions 
on this particular Act first.
    Mr. Renkes, when the Clinton era No Surprises rule took 
effect, has it had, in your estimation, some positive impact on 
survival and recovery of listed species?
    Mr. Renkes. Yes, it has had a dramatic impact. In fact, 
prior to that policy coming into effect, there were very few of 
these agreements entered into. And then I think they had 
increased by nearly 10-fold.
    The Chairman. Let me come back to you, then.
    Mr. Johansson, let me ask you the next question. Why was 
there hesitancy on farmers, ranchers, those kinds of people to 
enter in these agreements before this rule was put into effect?
    Mr. Johansson. I mean, quite simply, it was a lack of 
predictability in the program, and confidence that they 
wouldn't be punished for taking the right answer should they be 
successful, leading to other species on their land, as well.
    So, I think the No Surprises rule had a positive impact on 
farmers and ranchers turning toward those programs.
    The Chairman. OK. Mr. Renkes, let me come back to you, 
then. This is still rule status, correct?
    Mr. Renkes. That is correct.
    The Chairman. So, if we pass this bill, it codifies what is 
the rule, so it cannot be adjudicated or changed later on.
    Mr. Renkes. That is correct.
    The Chairman. And do you think, as a representative from 
the Department, that that codification would have a positive 
impact?
    Mr. Renkes. Absolutely, because it increases certainty.
    The Chairman. All right. Thank you. Let me yield back.
    Mr. Grijalva, do you have any questions on this one?
    Mr. Grijalva. Yes. Thank you.
    Mr. Dreher, what are your main concerns or considerations 
the Committee should consider in this piece of legislation that 
is before us now?
    Mr. Dreher. Thank you, Congressman. I do have several 
concerns. I think the biggest one, the Candidate Conservation 
Agreements with Assurances, the Safe Harbor Provisions, those 
have been embodied in Department of the Interior regs for many 
years. People understand how they work. There are some small 
changes here that make it more restrictive, make it harder to 
terminate them.
    For example, obviously, under the Fish and Wildlife Service 
regs, you can terminate for failing to comply with an agreement 
or for violating the law. Those things aren't embodied in this 
agreement.
    The big thing about this, though, is that it applies to 
habitat conservation plans. The other two programs both deal 
with voluntary incentivized conservation, one for candidate 
species that are not yet protected, another, the Safe Harbor 
Agreement, if you manage habitat so that it attracts listed 
species onto your property that weren't there before.
    But habitat conservation plans are plans that actually 
involve development that affects and may harm endangered 
species. And these kinds of assurances throw out the actual 
point of the HCP. A habitat conservation plan has to ensure 
that the species in fact doesn't go extinct, that it isn't 
actually harmed because of changed circumstances. And it is 
essential that HCPs actually provide a benefit to the species.
    It is like mixing apples and oranges, but in the worst way, 
because HCPs involve listed species that are actually being 
harmed by a proposed development. The other two policies are to 
incentivize conservation agreements for the benefit of species. 
So, there is a huge difference.
    Mr. Grijalva. Thank you.
    I yield back.
    The Chairman. Mr. McClintock, to this bill?
    Mr. Gosar, to this bill?
    Dr. Gosar. Yes. Mr. Dreher, you have had opposition to all 
the bills in this package, which should come as no surprise to 
anybody given the group that you work for. You even spoke 
against this PREDICTS Act, which codifies the Clinton 
administration's 1998 No Surprises rule.
    Can you name me one reform to the ESA, other than throwing 
money at the problems that you help cause, that the Defenders 
of Wildlife have pursued through congressional legislation and 
supported over the last 30 years?
    Mr. Dreher. Sorry, Congressman, over how long?
    Dr. Gosar. Thirty years.
    Mr. Dreher. The last 30 years, we were certainly 
instrumental in supporting the revisions to the Endangered 
Species Act----
    Dr. Gosar. Be specific.
    Mr. Dreher. It was before my time.
    Dr. Gosar. I am all ears. We are all ears. You are very 
prophetic and very detailed. I like the details.
    Mr. Dreher. Well, I do not go back far enough with 
Defenders of Wildlife to tell how far back we did what we did 
30 years ago when the Act was last amended------
    Dr. Gosar. Well, what I would like, as a nice project for 
you, is to list those out for the Committee, so that we----
    Mr. Dreher. I will be happy to submit that for the record.
    Dr. Gosar. Thank you.
    Mr. Dreher. I will say that we work constantly to try to 
improve the implementation of the Act, and we work very closely 
with landowners, with state governments, and with Federal 
Government agencies to try to improve the implementation of the 
Act. We have a whole department at Defenders of Wildlife that 
develops better scientific methods for implementing the Act.
    Dr. Gosar. We will come back to that one. I am ready for 
that one. Thank you.
    Mr. Dreher. All right. Thank you, Congressman.
    Dr. Gosar. We will look forward to your response.
    The Chairman. Thank you.
    Mr. Sablan, do you have questions for this PREDICTS Act?
    Mr. LaMalfa, for this one?
    Mr. LaMalfa. Thank you, Mr. Chairman. I wanted to turn to 
the California Farm Bureau president, Mr. Johansson, on this 
bill. We do many things in agriculture that also have the 
double benefit, whether you are conserving habitat, whether 
just by the type of crop you are operating, a lot of time in 
rice it indeed is a much parallel habitat benefit at the same 
time.
    How beneficial do you think this proposed legislation would 
be, in light of what we have seen with farmers leaving land 
fallow, whether it is economics, or they are just giving the 
land a rest, and then finding out that they cannot plant their 
land back without a very onerous permit process, or being sued, 
et cetera.
    Mr. Johansson. That certainly is a fear right now that 
farmers live with. We have seen that happen in Tehama County, 
particularly with a wheat field that hadn't been farmed for 
about 6 or 7 years, and then, when he went back on there, ran 
into trouble with water issues, as well, Clean Water Act, and 
all of that.
    One of the things that we have to do is, and this is the 
problem with these programs, it has to have the flexibility in 
those programs to understand that farming and ranching up and 
down--particularly farming--and that oftentimes we don't have 
the water supply. And coming off historic droughts in 
California, we do fallow the land, because we were not given 
the water, perhaps, because we couldn't send them through the 
pumps down in the south, based on the delta smelt or salmon 
numbers, and when we pump water.
    I think, again, we want to do the right thing for our land. 
And if we don't have regulatory certainty, we are going to make 
bad decisions for our farms, and we are going to make bad 
decisions for our environment and the species on there.
    I know you are familiar with the efforts being done with 
salmon restoration in rice fields, and the multiple benefits of 
our rice fields, not only for the rice that we eat, but also in 
flood protection at times, and also in salmon habitat recovery, 
and then also increasing our number of salmon, and some pretty 
innovative uses of our rice industry, which, if you remember, 
had the black mark of burning their rice every fall and winter, 
but has really turned it around with unique programs.
    Mr. LaMalfa. Certainly being able to bail the rice straw 
and find markets for it has been very positive, as an 
alternative. But you do run into a disincentive, whether you 
are allowing habitat to grow on its own, or setting aside, and 
then maybe you have to do something to manage that habitat, and 
then someone comes along and says no, you now cannot touch 
that, which causes disincentive to people not allowing it to 
grow to begin with in ditches or other areas of their land.
    So, with what you see coming on Waters of the United States 
and, again, the lawsuits that happened in Tehama County, what 
is the general feeling of agriculture on whether this 
legislation will be helpful, or some of the others in the 
package, or the general direction that the regulatory agencies 
are going?
    Mr. Johansson. I think the general feeling that any farmer 
and rancher in California wants is to be able to look out over 
his property and know for sure what needs to be done, not only 
to be farming successful, but how to take care of species, as 
well as ensure clean water. I think that is the biggest 
frustration right now, is our own land. We see it one way, and 
there is a big fear that regulators may see it another way, and 
have other designs on it.
    One of the issues we have with habitat conservation plans 
is also we see a lot of water irrigation districts entering 
into them, because as they clean their waterways from weeds, 
and as they clean out their irrigation ditches, that may also 
disturb endangered species that have grown up in those ditches, 
so they also have to enter. And that is something that really--

    Mr. LaMalfa. We are talking man-made ditches?
    Mr. Johansson. Absolutely, man-made ditches put in by an 
irrigation district that also has to participate. It is not 
just the farms that have to participate in our land, it is also 
our irrigation districts that have to pay that cost, as well.
    Mr. LaMalfa. How about the development of habitat 
conservation plans that rely on the farmer tying up his or her 
land maybe into perpetuity. I have seen that, where 
bureaucracies want that so that they can gain long-term 
predictability for their own ends, such as transportation 
projects, using the land, the farm land, as their habitat plan. 
What do you think about that?
    Mr. Johansson. The most important part of any habitat 
conservation plan--and having gone through one in Butte County 
and the difficulties and difference of opinions--is local 
control, and farmers being able to determine what is best for 
them.
    The Chairman. All right, thank you.
    Mr. Westerman, to this Act, the PREDICTS?
    Mr. Bergman, to the PREDICTS Act?
    Thank you. All right, we will now turn to the next--oh, I 
am sorry, Mr. Costa, I didn't ask you if you had one for this 
Act, PREDICTS.
    Mr. Costa. No.
    The Chairman. OK. Then we will turn to the next one, which 
is H.R. 6346, the WHOLE Act by Mr. Johnson, who is not here to 
present it. Let me just ask two questions, then, very quickly 
about this and see if anyone else has questions about this one.
    Mr. Wood, let me ask you on this particular one, the WHOLE 
Act, then, how does this bill build upon existing cumulative 
impact analysis?
    Mr. Wood. The WHOLE Act essentially clarifies that 
cumulative impact analysis cuts both ways. And that makes a lot 
of sense. When an agency is looking at a particular project, it 
should consider that in the context of everything else going 
on, whether everything else is good or bad for a species, and 
let that count toward the project.
    The Chairman. All right. Then let me go to Mr. Sauter. 
Commissioner, can you give me an example, just one example of 
some kind of habitat designation that would have been helped, 
especially one that was maybe economically crippling, that 
could have been prevented or helped if this Act, the WHOLE Act, 
were in place?
    Mr. Sauter. Yes, thank you for the question, Mr. Chairman. 
I can think of a couple of different ones, but I will focus on 
probably the spotted owl, as one that could have been helped. 
Also, we had the example of the Oregon spotted frog. We have a 
lot of spotted animals, apparently, in Washington State that 
could have been helped by this.
    The Chairman. Thank you, I appreciate that.
    I yield back. Mr. Grijalva, specifically to this one?
    Mr. Grijalva. Thank you.
    Mr. Renkes, I noticed in your testimony that the Department 
of the Interior has concerns with this particular piece of 
legislation, the WHOLE Act. Can you explain what those are?
    Mr. Renkes. Yes, thank you. The bill codifies our current 
consultation practice, and we support it. The off-site 
mitigation idea can be effective. We want to work with the 
Committee on the details of how this can work for designated 
critical habitat. Currently, mitigation has reserved two areas 
designated as critical habitat, and we like the idea of off-
site mitigation. Obviously, the use of mitigation banks has 
been effective in other circumstances, and we look forward to 
working with the Committee to see how we can work that out.
    Mr. Grijalva. Mr. Dreher, do you find it concerning that 
this legislation requires the Secretary to consider all 
additional positive measures in determining jeopardy, but does 
not require the Secretary to consider the cumulative impacts to 
a species from other activities? And what other concerns might 
you have with this legislation?
    Mr. Dreher. Well, I do. I think that legislation--the issue 
with mitigation is, of course, the extent to which it is 
reliable, the extent to which it is binding, the extent to 
which it is funded, the extent to which it will actually be 
effective in overcoming these things. The bill doesn't address 
the evaluation of the reliability of mitigation at all.
    Beyond that, the concern that the Department of the 
Interior has raised, I think, is a very significant one. 
Federal agencies are required by section 7 to avoid destroying 
or adversely modifying critical habitat. And if they are doing 
that, and they are conserving lesser-value habitat somewhere 
else that isn't designated as critical habitat, I think it 
raises serious legal questions about how they could actually 
comply with section 7's mandate. If they are actually damaging 
critical habitat, the practice of the Department of the 
Interior to date has been that if there is any offsetting 
conservation, it should be with critical habitat. So, it is 
apples to apples.
    Mr. Grijalva. I yield back.
    The Chairman. Thank you.
    Mr. McClintock, do you have any questions for this bill?
    Mr. Gosar, for this bill?
    Dr. Gosar. Yes. I would like to have Congressman Johnson's 
statement put into the record in its entirety, please.
    The Chairman. Thank you. Without objection, so ordered.

    [The prepared statement of Mr. Johnson follows:]
   Prepared Statement of the Hon. Mike Johnson, a Representative in 
                  Congress from the State of Louisiana
    I would like to thank the Chairman and the members of this 
Committee for having the fortitude to consider the various Endangered 
Species Act (ESA) reforms before us today.
    When Congress passed the Endangered Species Act over four decades 
ago, it was because they recognized the importance of conserving, 
protecting and valuing species whose very existence was threatened. The 
spirit of the law and deep appreciation for preserving these species 
remains alive and well today. We cannot, however, allow the fear of 
challenging the status quo prevent us from taking a hard look at the 
ineffective policies put in place decades ago that have failed to meet 
the goals of the underlying legislation.
    Proponents of preserving this antiquated law despite its obvious 
failings do a disservice to both the listed species, as well as the 
surrounding communities. The truth is, while 99 percent of the species 
classified as threatened or endangered have not gone extinct, the 
recovery management plans have failed to provide the species with the 
opportunity to actually grow and thrive. To that extent, barely 3 
percent of the populations listed are considered to have rebounded and 
thus remain on the threatened or endangered lists. Three percent is 
nowhere near the rate of success we should expect and further 
illustrates the need for modifications to the ESA.
    In addition to failing to help listed species recover, the ESA 
imposes many burdensome and duplicative regulations on America's 
hardworking farmers and ranchers. Absent reforms, the ESA will continue 
to adversely impact their ability to provide food not only to America, 
but to those all around the world. And to exacerbate the problem, 
activist groups are employing sue-and-settle tactics to further their 
ideological agenda and increase the number of species listed under the 
ESA. As the list grows, however, farmers and ranchers are forced to 
shift their primary focus from safe food production to navigating and 
complying with bureaucratic hurdles that threaten their livelihoods.
    My bill would require the Secretary to consider the totality of 
conservation measures already in place, when determining whether a 
potential Federal action will jeopardize species or habitat loss. Our 
Nation's farmers and ranchers are already active participants in 
conservation programs and in implementing protections and mitigation 
factors on their land to protect habitat and wildlife. Despite our 
agriculture community proactively promoting conversation measures and 
seeking guidance from the USDA on best practices, the ESA continues to 
expand far beyond the original intent of the law.
    The time has come for Congress to modernize the ESA, and to that 
end, my bill, the WHOLE Act, takes a holistic approach to protecting 
species and preserving habitats. This legislation will ultimately help 
our Nation's farmers and ranchers get back to doing what they do best--
providing a safe, sustainable food source for Americans. The bipartisan 
WHOLE Act has received over 160 national endorsements, and I urge my 
colleagues to support this critical piece of legislation.

                                 ______
                                 

    Dr. Gosar. Thank you.
    The Chairman. Mr. LaMalfa, to this Act?
    Mr. Westerman, to this Act?
    Mr. Bergman, to this Act?
    Mr. Costa, to this Act?
    Mr. Costa. I am sorry, which bill?
    The Chairman. The WHOLE, Johnson's H.R. 6354. No?
    Mr. Sablan, no?
    Mr. Gallego, no?
    OK, then let us turn to the next one, which is H.R. 6354.
    Mr. Gosar, you are recognized to introduce your bill.
    Dr. Gosar. I will just put my opening statement into the 
record.

    [The prepared statement of Mr. Gosar follows:]
   Prepared Statement of the Hon. Paul A. Gosar, a Representative in 
                   Congress from the State of Arizona
    Good morning. Today, we are here to discuss in-depth the nine bills 
that comprise a bipartisan legislative package that will bring the 
Endangered Species Act into the 21st century. We call it the Western 
Caucus ESA Modernization Package after the 79-Member Caucus I chair, 
but it's a package that applies evenly across the entire country. 
Moreover, it has the support from 165+ organizations ranging from the 
American Farm Bureau, the U.S. Chamber of Commerce, the National 
Association of Realtors, American Loggers Council, Safari Club 
International, the National Association of Conservation Districts, 
Western Energy Alliance, Americans for Limited Government, the 
Competitive Enterprise Institute, the National Association of Home 
Builders, the National Association of Counties, the National Water 
Resources Association and the National Rural Electric Cooperative 
Association, just to name a few.
    The Endangered Species Act serves a noble purpose that is necessary 
to the conservation of many species. However, it is clear that this 
legislation has fallen short of its intended goal. A less than 3 
percent recovery rate for endangered species is anything but the mark 
of a successful law.
    With this in mind, our members came together to address point by 
point many of the shortcomings of the Endangered Species Act. Our 
bipartisan legislative package offers much needed legislative 
improvements that not only assist the law in meeting its original 
purpose of conserving and recovering endangered species and their 
habitats, but also does not stand in the way of economic development 
and job creation that is beneficial to the American people. Species 
conservation and economic development are not zero-sum. They are both 
attainable goals that can be accomplished.
    What is even more important is that the Endangered Species Act 
works for people, not against them. Unfortunately, many hardworking 
Americans throughout the country have felt the inefficiencies of this 
law firsthand. One such person is Mary Thoman, a rancher from Wyoming. 
In a USA Today Op-Ed she wrote on August 29, 2018 entitled, 
``Yellowstone grizzly bears are not an endangered species--but ranchers 
like me are,'' she writes, ``Special interest groups are suing the 
Federal Government to have the grizzly bear population in and around 
Yellowstone National Park returned to the endangered species list--
contrary to the recommendations of research. If those special interest 
groups succeed, state and local officials will no longer be able to 
effectively manage the population that lives in their backyards. And 
grizzlies are bound to grow too numerous and pose a greater threat to 
those who live in the area.'' \1\ As a result of the special 
protections given to the grizzly bear population, Marry Thoman was 
forced to give up the grazing lands that their family had ranched on 
since 1978. This is unacceptable and unfortunately, indicative of the 
current issues with the law.
---------------------------------------------------------------------------
    \1\ Thoman, Mary A. ``Yellowstone grizzly bears are not an 
endangered species--but ranchers like me are.'' USA Today, Gannett 
Satellite Information Network, 29 Aug. 2018.
---------------------------------------------------------------------------
    Sadly, the current processes under the law have enabled gross 
exploitation by special interest groups that stand to profit from 
abusing the current system. An authorized agency should not be forced 
to allocate most of its resources on combating litigation, it should be 
focused on protecting and recovering species. Moreover, hardworking 
Americans like Mary should not be forced from the lands that they have 
worked on for decades because of special interest groups that stand to 
profit from listing species that are not endangered. Stories like Mary 
Thoman's are why Americans are coming together to support the 
legislation being discussed here today--legislation that will offer 
clarity, flexibility, and assistance for authorized agencies, state, 
local and tribal officials, and everyday Americans.
    Our Nation is blessed with an abundance of biodiversity and a 
richness in species distribution across the 50 states and territories. 
Everyone here agrees with the premise that we must make all reasonable 
efforts to protect species facing extinction. Agreeing on that premise 
means that we can go forward in good faith to analyze and propose 
improvements of the Endangered Species Act to the benefit of all 
involved parties--species, industry, government and citizenry alike. 
It's an issue that pits every interest imaginable against one another, 
but our job as Federal legislators is to balance these interests 
appropriately and enshrine that proper balance in legislation.
    We believe to have done just that with this bipartisan legislative 
package. I appreciate all the Western Caucus, Natural Resources and 
other Members who have invested in this package and contributed to 
making it a success. I am grateful for the support of the more than 165 
stakeholders and organizations throughout the country.
    I thank Chairman Bishop and his team for all their hard work on 
these bills and for hosting today's hearing, and with that I yield 
back.

                                 ______
                                 

    The Chairman. OK. Then I will yield my time to you. Do you 
have questions for these witnesses on your Act?
    OK. Mr. Young, to this one?
    Mr. McClintock, to this one?
    Mr. McClintock. No.
    The Chairman. Mr. LaMalfa, to this one?
    Mr. LaMalfa. Which one?
    The Chairman. The STORAGE.
    Mr. Westerman, no?
    Mr. Bergman?
    Mr. Grijalva?
    Mr. Grijalva. I am going to leave the dead horse be.
    The Chairman. Mr. Costa to this one, STORAGE? OK.
    Mr. Costa. Thank you, Mr. Chairman and Ranking Member, for 
holding this hearing, and I think it is really time the 
Committee take a serious look at modifications of the 
Endangered Species Act.
    I would like to thank those who are testifying here today 
for your insight and your perspective, specifically a good 
friend that I have worked with for many years, Jamie Johansson 
from the California Farm Bureau. Having been a member of the 
California Farm Bureau for over 30 years, I have worked with 
you and folks for many years.
    Because of the number of bills that we have before us and 
the limited time for the hearing, I want to just speak 
generally about the bills.
    The Endangered Species Act, obviously, I think as most of 
the witnesses noted, has laudable goals. We ought to be able to 
be good stewards of the environment and ensure that we don't 
act in ways in which species go extinct. But clearly, I think 
with climate change and other factors, species go extinct, and 
that is just a reality. And while the ESA has been passed and 
implemented for four decades now with the best of intentions, 
like any legislation or law, it is not perfect, and I think it 
is time we take a serious look at how we can improve it and 
reform it.
    And I say that to my Democratic friends, as well as to my 
colleagues on the other side. The fact is, I think the way it 
operates today, it is a blunt tool. And I know firsthand from a 
lot of experiences that I have been involved in the San Joaquin 
Valley in California, who have been harmed by the application 
of the Endangered Species Act, limiting the movement of water 
in California, resulting in the fallowing of farm land, reduced 
economic productivity that has all sorts of socio-economic 
effects in farm communities with both farm workers and farmers, 
crime, social ills, unemployment, and you can go on.
    There are several pieces of legislation, I think, that have 
good ideas before us. I think they need some refinement. And 
members of the Committee, I think trying to develop a process 
in which we can work together in a bipartisan way is going to 
be the key as to whether or not we have success. Underlying the 
STORAGE Act, which we have before us right now, the LOCAL Act 
and the PREDICTS Act, I think deserve consideration and further 
refinement.
    In addition to one important concern that I have regarding 
the future of the ESA, is that there is little accommodation 
for the Act impacts to non-migratory aquatic species whose 
ecosystems are being modified by the impact of climate change 
and loss of other factors that have created greater damage. 
Some of these, in some cases, they have gone too far to save. 
Our economic attempts of trying to save them is likely to fail, 
like the discussion of trying to return a spring run of salmon 
to the San Joaquin River in which water temperatures are a big 
issue.
    So, let me ask some questions. Mr. Johansson, you talked 
about both the delta smelt and the salmon as examples in your 
testimony. And we know that the State Water Board is looking at 
unimpeded flows to improve the water quality for the fisheries. 
But they are discounting the impacts of lack of habitat, they 
are discounting invasive species, they are discounting non-
discharges into the waters.
    How do we strive to create a balance if we are going to fix 
some of these problems without taking into account all of the 
science?
    Mr. Johansson. I think we are doing that on our own right 
now, in agriculture, having gone through what we did with the 
delta smelt and the biological opinions--a biological opinion, 
by the way, that also relied on intuition, in which the species 
was managed through intuition, which was very disturbing to us, 
as someone who always has to demonstrate that our farms operate 
on sound science and proven science.
    I bring to fact, and it is very close to Congressman 
LaMalfa's farm there, a rice ranch there that had a situation 
with a spring run chinook salmon that only averaged about maybe 
10 salmon a year coming up the Butte Creek. Proactively, 
understanding that maybe some of their water diversions may be 
having an impact, that water district took the proactive 
approach to start to fix their infrastructure, and now actually 
get about 10,000 salmon a year coming up there. So, we are 
doing that.
    We are also doing that, as I mentioned earlier, in our rice 
fields, in terms of creating that habitat.
    Mr. Costa. Right.
    Mr. Johansson. And trying to demonstrate that, as the Water 
Board talks about flows, it is not about flows, it is about 
functional flows, and making sure that that water is released 
at the right time, based on that species. But we have allowed 
the Endangered Species Act in addressing salmon to come into 
just a small box and not look at what really is going on in the 
entire ecosystem.
    Mr. Costa. Right. And thankfully, your testimony----
    Mr. McClintock [presiding]. The gentleman's time has 
expired.
    Mr. Costa. Yes. I know, my time has expired, but----
    Mr. McClintock. Further questions on H.R. 6354?
    Further questions, any others on the Republican side?
    Dr. Gosar. I am going to be last.
    Mr. McClintock. OK, well, you are going to be last, then. I 
am going to claim time and yield to Mr. Gosar.
    Dr. Gosar. Mr. Dreher, since 1976, your organization, the 
Defenders of Wildlife, have been the litigant in 510 lawsuits. 
How many dollars in attorney's fees has the Defenders of 
Wildlife collected as a result of litigation against the 
Federal Government?
    Mr. Dreher. I will be happy to provide that number for you. 
I have no idea, sitting here today.
    Dr. Gosar. We will expect that for the record.
    Mr. Dreher. I will say that it is an infinitesimal part of 
our budget. It does not factor into our budgeting----
    Dr. Gosar. No, I am a believer that the facts set us free.
    Mr. Dreher. Yes.
    Dr. Gosar. You contradict yourself in your written 
statement by saying you support science-based process for the 
ESA, and that is why you oppose the LIST Act, yet you oppose 
H.R. 3608, which requires public availability on the Internet 
of the best scientific and commercial data available for the 
ESA decisions.
    It seems like you like cherry-picking your science. Your 
allegation against the LIST Act is baseless, by the way, as 
that bill actually allows for the totality of science to be 
considered. Why does your organization hate science?
    Mr. Dreher. You know, Congressman, we call it as we see it. 
We object to legislation----
    Dr. Gosar. Well, I find it very interesting that you like 
to cherry-pick, because that is the perfect term for what you 
actually do----
    Mr. Dreher. We object to provisions that we think, in fact, 
are objectionable. We object to legislation that we think, in 
fact, disserves the purposes of the Act.
    It is not our fault if the legislation that is before us we 
think is bad for the ESA. That is our job to call that out.
    Dr. Gosar. Let me ask you a question, then. That goes back 
to my previous question. What have you supported to change that 
legislation in the better for the critters?
    Mr. Dreher. Well, I don't know----
    Dr. Gosar. And you couldn't do that for me. You couldn't 
site a single example. Yet, you are articulate about everything 
else.
    Mr. Dreher. And I think that is a commentary on the 
partisan nature of the dialogue right now about the ESA, and it 
has been a highly partisan issue for 20 years.
    There have not been bills put forward by the Congress that 
actually would serve the purposes of ESA, and so we have not 
supported those bills.
    Dr. Gosar. That is your opinion.
    Mr. Dreher. Yes.
    Dr. Gosar. But to the gentlemen to your left and right, 
that is quite opposite, in contrary, and a number of people on 
this dais up here. We are not against critters. We want to see 
this work. We want to see that make it forward. So, we have to 
start looking at the people standing in the way, and that is 
you.
    Let me go further. You testify that the ESA was a proven 
success, and tried to brag about its success rate. This is 
another lie. The Committee points out that one of the mammals--
and I quote--``In the 45 years since its enactment, less than 2 
percent of species have recovered enough to warrant removal 
from the list of endangered and threatened species.''
    Did you fail algebra? I am a healthcare provider, and if I 
have a success rate like that, something is wrong. Something is 
wrong with that. I want to go back to raise that number. So, I 
should be doing everything I possibly could with the people to 
my left and the people to my right to make a success story.
    That is why, when you start looking at prime examples like 
the Mexican gray wolf, where the courts actually had to 
intervene because of the management plan, if that is the 
management plan we were going with, no wonder the Mexican gray 
wolf can't be a success story. It is unbelievable, just 
unbelievable.
    You testified that these bills are, and I quote, ``all to 
benefit a minority of special interests in a few states.'' I 
take offense to that. I would encourage you to look at our 
website and review the list of the 166 stakeholders throughout 
the country that are supporting these bills. Is the Florida 
Farm Bureau Federation from the West? No. How about the 
Missouri Sheep Producers? How about the National Association of 
Realtors? Are they really solely in the West? How about the 
U.S. Chamber, are they solely in the West? And by the way, what 
is your disdain for the West?
    Mr. Dreher. I have no disdain for the West. I think----
    Dr. Gosar. Your actions seem to predicate it.
    Mr. Dreher. I do not mean to suggest any disdain for any 
part of the country. I think the commitment the American people 
have to the ESA is something that is nationally felt.
    I think there are particular circumstances in the West, 
including the predominance of federally owned land, and the 
long-standing sort of resentment in the West toward the 
presence of the Federal Government that exacerbate concerns 
over the ESA. And I do think that the concerns over the ESA in 
some instances are higher in some places in the West. But that 
is not in any way denigrating the sensibilities of the people 
that live in the West. That is an issue that we need to work 
with proactively.
    We should be trying to find solutions, as you say, 
Congressman. And we try very hard to find solutions. We 
actually pay for, for example, range riders to try to protect 
people's cattle from wolves and grizzly bears. We engage 
constantly in this sort of cooperative behavior.
    Mr. McClintock. Mr. Sablan.
    Mr. Sablan. I would like to yield my time to Mr. Costa, 
please.
    Mr. McClintock. Mr. Costa is recognized.
    Mr. Costa. Thank you very much. Mr.--is it Dreher?
    Mr. Dreher. It is Dreher, sir.
    Mr. Costa. OK, I concur with you, I think we all recognize 
that the ESA, the Endangered Species Act, has become very 
political over the last two decades.
    From your perspective, would you, shortly, because I want 
to get to some other questions--have you recommended changes to 
deal with science, as it has changed over the last four 
decades, and implementation, and regulation, process, and court 
rulings? Do you or part of your coalition just like it the way 
it is? You think it works?
    Mr. Dreher. Congressman, I think there is a myth that the 
Act, because it is old, is outdated, as if it is a----
    Mr. Costa. I didn't say that. I didn't say that.
    Mr. Dreher. I know. I am trying to respond to your 
question, sir. I mean it is part of what other people say about 
the bill.
    I think that the structure of the Act itself is very 
straight-forward and does not need changing. What it actually 
needs is to be well implemented. We focus a great deal of 
attention on how to improve the implementation of the Act so 
that it works better for species and for stakeholders, and we 
could demonstrate that that makes a difference. But it needs to 
be funded.
    Mr. Costa. OK. But we have had administrations that have 
funded it better than other administrations.
    I think there are two criticisms that I would raise. One is 
that I don't think there is a good accounting--with all the 
changes in our environment, what is the art of the possible.
    I just think this notion that somehow--there has been a lot 
of science on salmon in the Northwest, all the way up to the 
Alaska Peninsula, and how in some areas, with climate change, 
you are just not going to restore that. Would you agree or 
disagree?
    Mr. Dreher. I think climate change is unsettling a lot of 
our expectations. You are absolutely right. Conservationists--

    Mr. Costa. And I think we need to take that into account.
    Mr. Dreher. I agree.
    Mr. Costa. I think this whole effort is a balancing act. 
And I think you have to get the best bang for your buck. We 
have to make some--I mean, we are going to have some 
agricultural land that is going to go out of production. Nobody 
likes that. That is the reality, in terms of our water supply.
    But there is no accounting on the other end as to what 
species you can save and which you cannot. And that is where I 
think my criticism rises.
    Mr. Johansson, you talked again about the science that we 
are dealing with, and water issues in California. The fact is 
that we are trying to come together now on some compromises on 
fixing a broken water system in California. What do you think 
is the outlook in the next 4 months as to whether or not this 
host of issues on the delta, the water fix, and other issues 
involving the ESA, the likelihood that we are going to be able 
to work through the current challenges?
    Mr. Johansson. I think, unfortunately, we have a situation 
with the ESA, where it is the initial blunt instrument that 
stops us, and that is----
    Mr. Costa. That is what I said in my comments. That is what 
you said.
    Mr. Johansson. That is what stops us from pumping. But it 
goes from there, because it goes all the way up into the upper 
watershed in our Sierras. And the inability to manage our 
forests and our public lands properly because of, again, the 
Endangered Species Act. So, therefore, the water doesn't make 
it down to the river.
    But also, too, it stops us--we just really haven't looked 
at the science. And it allows someone who may want to send more 
water to the ocean, or divert it to whatever purposes they deem 
more important, but aren't looking at the fact that it isn't 
just flows that provide the smelt with benefit. That is, the 
dangers to the smelt come from other biological purposes, as 
well, not just----
    Mr. Costa. That is why re-consultation of the opinions is 
very important right now.
    Mr. Johansson. Absolutely. And, I think that is the 
struggle ahead of us in California, is how do we proactively 
get around this ESA by doing efforts up in our forests and in 
our rice fields and on our farms that help us get around the 
ESA and try to demonstrate that we can do this, that the old 
logic, or how we look biologically at the fish in the stream, 
there really are different options that farmers can 
participate----
    Mr. Costa. And as you noted in your comments, the better 
management of our forest lands, the better issue of healthier 
forests, and less of these horrific fires that we have had to 
deal with in recent years all over the West.
    Mr. Johansson. We have created a situation in California 
where either we are under water or on fire. We are letting 
these extremes take over because we are not appropriately 
dealing with what is happening on the ground and what we can do 
better.
    Mr. Costa. Thank you.
    Mr. McClintock. Further questions on H.R. 6354?
    On the Republican side?
    Mr. Gallego.
    Mr. Gallego. Thank you, Mr. Chair.
    Mr. Dreher, we kind of touched on this earlier, when you 
were talking specifically about these bills would take a 
wrecking ball to the ESA and all to benefit a minority of 
special interests in a few western states. I, too, am a 
westerner from Arizona, like Congressman Gosar. But I wanted to 
give you some more time to actually go deeper and elaborate 
what you were specifically thinking about when you made those 
comments.
    Mr. Dreher. Thank you, Congressman. These bills appear to 
want to create special breaks for people that want to develop 
their land in ways that will, in fact, affect adversely 
endangered species. That is the primary thrust of about half of 
them. So, they really are a pro-land development set of bills. 
They are very one-sided.
    It is conspicuous in one sense, in the sense that at least 
twice they exclude judicial review for, for example, 
organizations like mine that try to protect species, and allow 
judicial review for organizations like my colleagues sitting 
next to me, that may be defending property owners that are 
opposed to protection. I don't mean any slight on him, I think 
we both have the same entitlement to use the courts to hold 
agencies accountable to the law.
    I think that when you have bills that attempt to grease the 
skids, or to create special procedures that would allow 
property owners to get exemptions from the way the Act works, 
these are kind of special pleading. These are bills that really 
are being advanced for particular special interests, in many 
cases.
    I don't know what special interests they are being advanced 
for, I have not been part of the development of these bills, 
and I don't mean to disparage the Congressmen that have 
introduced them, but I do think the effect of them is going to 
be to make it easier to develop land in a way which will hurt 
endangered species, and that is not, I think, consistent with 
the intent of the Act.
    Mr. Gallego. Are there any specific groups that you are 
thinking about or have seen in the past? I have been involved 
in this game for a little while, both on the state side also, 
as a state legislator, so I have some idea of who you are 
talking about. But I think an education for anyone else here, 
are there any particular groups that you have seen in the past 
using this type of movement to essentially benefit themselves?
    Mr. Dreher. Well, there has been a constant tension in the 
development of resources in the West. Right now, the theme of 
the Administration is to have as much one-sided development of 
oil and gas and mineral interests as possible on the Federal 
lands. And the Endangered Species Act and other Federal 
statutes can be significant checks on that kind of activity.
    So, if there are ways to carve loopholes in this. One of 
the things that frankly scares me, but maybe only because I 
don't understand it, but there is a provision in one of these 
bills that would allow the Secretary to delegate management of 
a species to a private individual or, apparently, a 
corporation. I would not want endangered species managed by 
Exxon.
    Mr. Gallego. I yield back.
    Mr. McClintock. Further questions on H.R. 6354?
    Seeing none, that concludes the consideration of H.R. 6354.
    The Committee will now take up consideration of H.R. 6345 
by Congressman Pearce. Any questions on H.R. 6345?
    Mr. Grijalva.
    Mr. Grijalva. Thank you, Mr. Chairman.
    Mr. Dreher, first of all, despite some of the questioning, 
I do want to extend belated gratitude to Defenders. They were 
principal members of a grouping in Pima County in Arizona, 
where I was a supervisor that put together the Sonora Desert 
Conservation Plan, along with screaming and kicking of the 
homebuilders. And now they find it a wonderful management tool.
    And for other stakeholders in that community, it is a plan 
that worked, habitat for the species was protected for the 
pigmy owl, and the consequences have been positive on both 
ends: economically, habitat protection, a bond package passed 
by the voters to buy additional open space and land for habitat 
protection, and that was a consequence of collaboration. And 
the presence of the Defenders, in terms of expertise and 
advocates that you brought to that issue was very, very 
important. So, my belated thanks for that effort, sir.
    Mr. Dreher, H.R. 6345 requires the Secretary to consult 
with each state and county in which a species is located before 
the species is considered for protections under ESA. This 
process could create a massive amount of bureaucracy. 
Hypothetically, let's pretend endangered species like the 
whooping crane, that is not currently listed--whooping cranes 
can be found in 17 states and over 700 counties--the bill would 
require the Federal agency to consult with over 700 different 
chief executives to determine whether the species deserves 
protection. What is fundamentally wrong with that?
    Mr. Dreher. I think you have identified at least a couple 
of the major concerns. The first is obviously just the burden 
this would place on an already over-burdened Department of the 
Interior and Fish and Wildlife Service. I think, in fact, the 
Department of the Interior has expressed concerns about that 
burden in its testimony, as well.
    I think there is much more in this bill that is 
troublesome. It goes far beyond saying that it is important for 
the Department of the Interior to solicit information from 
state and local governments. And I think there are already 
provisions in the Act that require that. There already are 
clear policies from the Department of the Interior that 
encourage the coordination with and collaboration with states 
and with local governments to collect information.
    This bill sets up a very odd provision that says that if a 
state or county objects to a listing, then the Secretary can 
only move forward if he can prove that information that the 
state or county submitted was incorrect.
    Mr. Grijalva. If I may, Mr. Renkes, on that point, that the 
bill would preclude the Secretary from proceeding with a 
petition for action if a chief executive advises the action is 
not warranted unless the Secretary can demonstrate the chief 
executive is wrong, is incorrect, how would a Secretary 
demonstrate just information received by the chief executive is 
incorrect? Who would be the arbiter to determine whether the 
chief executive or the Secretary is correct? Who decides that?
    Mr. Renkes. As I understand the bill, it would essentially 
create a rebuttable presumption that the information coming 
from the state is correct, and then, if the Secretary found 
that that information was incorrect, he or she would provide a 
response and a record of decision explaining those reasons.
    Mr. Grijalva. And that explanation would finalize it?
    Mr. Renkes. I believe that record of decision, since they 
used the words ``record of decision,'' would be subject to 
review.
    Mr. Grijalva. Review through the courts, reviewed through--
so the scenario is set up for--OK.
    Do you have any other concerns, Mr. Dreher or Mr. Renkes, 
on this legislation?
    Mr. Renkes. No, we support the bill. We support the idea of 
the involvement of states. We are doing it now. The Fish and 
Wildlife Service has an agency goal of 100 percent of 
participation of states in the listing process and, in fact, 
gives states a seat at the table to consider all the scientific 
information that comes in to determine whether that information 
is the best available science, and then that goes into the 
construction.
    Mr. Grijalva. But it doesn't have veto power, those chief 
executives, those states, those counties. This bill provides, 
essentially, veto power over any listing.
    Mr. McClintock. The gentleman's time has expired.
    Mr. Grijalva. Thank you.
    The Chairman [presiding]. All right. To this bill, Mr. 
Gosar?
    Mr. Westerman, EMPOWERS?
    Mr. Bergman?
    OK.
    [Pause.]
    The Chairman. Let's go to the next one, which is Mr. 
McClintock's bill, H.R. 3608. You are recognized to introduce 
your bill.
    Mr. McClintock. Thank you.

   STATEMENT OF THE HON. TOM McCLINTOCK, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. McClintock. Thank you, Mr. Chairman. H.R. 3608 is based 
on a very simple principle, that sunlight is the best of 
disinfectants. It was originally sponsored by Chairman Doc 
Hastings in the 113th Congress.
    The bill requires the government to publish all science 
underpinning ESA determinations and the costs imposed, and caps 
attorney's fees at $125 per hour, as consistent with the Equal 
Access to Justice Act.
    When this was last considered by the Congress, over 25 
organizations, including the U.S. Chamber of Commerce, the 
Family Farm Alliance, the National Rural Electric Cooperative 
Association, the American Farm Bureau Federation, the National 
Association of Counties, the National Cattlemen's Beef 
Association, the National Water Resources Association, 
Washington Farm Bureau, Oregon Farm Bureau, Public Power 
Council, and National Association of Conservation Districts all 
supported the measure. It passed with bipartisan support both 
out of this Committee and out of the House of Representatives 
in the 113th Congress.
    The bill has four components aimed at improving 
transparency. It requires data used by Federal agencies for ESA 
listing decisions to be made publicly available and accessible 
through the Internet. This provision would allow the American 
people to actually see what data is being used to make key 
listing decisions.
    Second, it requires the U.S. Fish and Wildlife Service to 
track, report to Congress, and make available online the funds 
expended to respond to ESA lawsuits, the number of employees 
dedicated to litigation, the attorney's fees awarded in the 
course of ESA litigation, and settlement agreements. The 
American people should know all of the money that is being 
diverted from species recovery in order to cover lawyers' fees 
and other litigation costs.
    Third, the measure requires the Federal Government to 
disclose to affected states all data used prior to any ESA 
listing decisions, and requires that the best-available 
scientific and commercial data used by the Federal Government 
include data provided by affected states, tribes, and local 
governments. It is important to hear from the state and local 
governments and the tribes when making decisions that will 
affect their land management. Restoring good stewardship of our 
public lands should be our ultimate goal.
    Fourth, it places reasonable caps on attorney's fees, and 
makes the ESA consistent with another Federal law. The Equal 
Access to Justice Act limits the hourly rate for prevailing 
attorney fees to $125 per hour. However, no such fee cap 
currently exists under the ESA, and attorneys have often been 
awarded huge sums of taxpayer-funded money. This provision 
places the same $125-per-hour cap on attorney's fees for suits 
filed under the ESA that currently exist under the Equal Access 
to Justice Act.
    I do want to clear up a misunderstanding expressed by a 
Member earlier. It does not require that state and tribal and 
local governments that have submitted reports be accepted as 
the best-available science. Rather, their work must be 
considered among the reports that ultimately form the decision.
    This is important for a number of reasons, not the least of 
which state witnesses and local governments, and tribal 
governments, which often have a great deal of information on 
the local conditions, have simply been ignored during previous 
consideration of listing decisions.
    There is a growing tendency on the left to hide scientific 
data that is contrary to their own predetermined conclusions. 
That is not science. Science welcomes debate. Science welcomes 
challenge. And it relies on the ability of independent 
researchers to replicate its data. When someone says you are 
not allowed to ask questions, you are not allowed to look at 
the data, you are not allowed to debate the issue, you are not 
allowed to look at the full scope of the data, that is not a 
scientist talking, that is a politician--and an authoritarian 
one, at that.
    So, this measure opens up the information that is available 
so the public can look at it, the science can be debated and 
challenged, and the best possible decision rendered under the 
terms of the Endangered Species Act.
    In my remaining time I want to note the presence of Jamie 
Johansson, the President of the California Farm Bureau 
Federation. His presidency of that federation has been a breath 
of fresh air. Agriculture has suffered a number of setbacks in 
recent years in California, and Mr. Johansson's leadership of 
the Farm Bureau comes at an absolutely critical time.
    In the remaining 19 seconds, Mr. Johansson, any comments on 
the bill?
    [Laughter.]
    Mr. Johansson. Well, thank you----
    The Chairman. Actually, wait.
    Mr. Johansson [continuing]. For the kind words. I will 
quickly say that I think this bill would fully expose----
    The Chairman. Wait, wait, hold on. Wait a minute, wait. 
Start him over again.
    I am going to yield my time to you for questions, if you 
have any, which you do.
    Mr. McClintock. Just for Mr. Johansson to wrap up.
    The Chairman. Go ahead, then.
    Mr. Johansson. All right. I would say thank you for the 
kind words.
    And really quickly, acknowledging that you gave me more 
time--but I think this bill would surely show, in its 
implementation, the industry of conflict that has developed 
around the ESA, which I talked about earlier, which is an 
unfortunate place that we find ourselves and our farms and 
ranches, not getting solutions, but constant conflict.
    Thank you, Congressman.
    Mr. McClintock. I yield back.
    The Chairman. Thank you.
    Do you have questions on this bill?
    Mr. Grijalva. Yes.
    The Chairman. OK.
    Mr. Grijalva. First, Mr. Chairman, I have two questions, 
but I ask unanimous consent to enter a letter into the record 
of over 1,500 scientists and experts urging Congress not to 
weaken the Endangered Species Act, and it is specifically 
addressing portions of this legislation, if there is no 
objection.
    The Chairman. Without objection, as long as you don't read 
it.

    [The information follows:]

              The Union of Concerned Scientists    

                                                 September 25, 2018

    Dear Representative:

    This week, the House Committee on Natural Resources is holding a 
legislative hearing on several proposals that threaten the important 
role of science in implementing the Endangered Species Act, and allow 
for politics to intrude into decisions about which species need 
protection, H.R. 3608, H.R. 6345, H.R. 6355, and H.R. 6356. The Union 
of Concerned Scientists, representing more than 500,000 members and 
supporters across the country, urges you to oppose all of these bills 
which undermine one of our nation's most effective science-based laws 
for protecting imperiled species on the brink of extinction. We are 
especially concerned about H.R. 3608, H.R. 6345, H.R. 6355, and H.R. 
6356. Together, along with the other five bills that the committee is 
scheduled to hear testimony on, they would threaten the integral role 
of science in carrying out the Endangered Species Act.
    H.R. 3608, deceptively named ``The Endangered Species Transparency 
and Reasonableness Act,'' would undermine the Endangered Species Act's 
science-based determination process by declaring any information 
provided by states, tribes, or counties to constitute ``best available 
science,'' regardless of the scientific merit of that information. 
Decisions to list or delist a species are already required to use the 
best available science, which of course can include state, tribal, and 
local scientific studies when they are conducted in accordance with 
well-established scientific standards. Best available science is a 
culmination of the efforts undertaken by scientists and wildlife 
experts at the U.S. Fish and Wildlife Service (FWS) and the National 
Marine Fisheries Service (NMFS), where they conduct studies, gather 
data and other information from the scientific community and the 
public, including state, local, and tribal government and industry.
    H.R. 6345, the ``Ensuring Meaningful Petition Outreach While 
Enhancing Rights of States Act,'' would insert economic considerations 
into the listing decision process and would give states arbitrary veto 
authority over listing decisions. The Endangered Species Act rightfully 
requires listing decisions to be made based on the best available 
scientific and commercial data. By giving states and local governments 
the arbitrary ability to object to science-based decisions to protect 
imperiled species, it politicizes the process of species conservation 
and makes it more difficult for agencies to rely on the best 
information.
    H.R. 6355, the ``Providing ESA Timing Improvements that Increase 
Opportunities for Nonlisting Act,'' would provide a fast track to 
prioritize delistings and downlistings of species in the event of a 
backlog. While this sounds like a method to ease the backlog, this is 
not accompanied by a similar mechanism, to fast track listings, nor is 
it addressing the funding problem at the root of the backlog at the 
agency. This is a misrepresented attempt to push the agency to make 
unscientific decisions to delist and downlist species because they have 
been historically starved for funding.
    H.R. 6356, the ``Less Imprecision in Species Treatment Act,'' is a 
bill meant to intimidate and push scientists and the public out of the 
petition process. This bill would keep petitioners from submitting 
another petition to list imperiled species for 10 years after 
`knowingly' including inaccurate information in a listing petition. 
Scientists and communities should not fear presenting their research in 
petitions in case the agency deems it a misrepresentation and locks 
them out of any future process.
    Earlier this week, more than 1,500 scientists \1\ asked Congress to 
protect the Endangered Species Act. These ill-advised proposals would 
only weaken the Act and hinder science-based policymaking.
---------------------------------------------------------------------------
    \1\ https://s3.amazonaws.com/ucs-documents/science-and-democracy/
esa-letter-final-september-25-20l8.pdf.

    In addition to the four bills listed above, we also stand in 
solidarity with our partners in opposition to H.R. 6344, H.R. 6346, 
H.R. 6354, H.R. 6360, and H.R. 6364. Combined with these egregious 
anti-science bills, all of these proposals attempt to substitute 
politics for scientific judgment and make it harder for the public to 
engage in wildlife stewardship. We urge you to oppose all nine of these 
ill-informed pieces of legislation that undermine our nation's most 
---------------------------------------------------------------------------
effective science-based conservation law, the Endangered Species Act.

            Sincerely,

                                Andrew A. Rosenberg, Ph.D.,
                         Director, Center for Science and Democracy

                                 ______
                                 

    Mr. Grijalva. Mr. Dreher, H.R. 3608 undermines the citizen 
suit provision of ESA. Elaborate on that situation and 
elaborate on the double standard. Some of my colleagues are 
very supportive of restrictions on attorney's fees pertaining 
to ESA, but support such a restriction in other areas that are 
particular to them. If you could elaborate on that, sir, I 
would appreciate it.
    And, also, the issue of who has a monopoly on the best-
available science, and do states, local counties, tribes, and 
private entities, do they have a particular monopoly on what is 
good science, and the science being generated by the agencies 
is not good science because it has been scrubbed?
    Although that seems to be the practice going on in this 
Administration with regard to climate change and anything that 
approaches science. But that is another issue.
    Mr. Dreher?
    Mr. Dreher. Thank you, Congressman. I think the first issue 
you referred to is the limitation on attorney's fees. A number 
of environmental statutes provide for a provision of attorney's 
fees to prevailing parties in order to incentivize citizen 
enforcement of the law.
    And an important part of maintaining the rule of law is to 
hold agencies accountable, and recognizing that many people do 
not have resources to hire high-priced lawyers. Corporations 
often have the money to hire major law firms, but citizens 
groups often don't. And individual citizens certainly don't.
    So, this would cap those fees using the Equal Access to 
Justice Act. One consequence of that I would call out is that 
the Equal Access to Justice Act awards fees from the agency's 
budget. So, this is, again, a way of siphoning off money from 
the listing and protection and recovery of endangered species 
to pay attorney's fees. Attorney's fees that are currently paid 
out under the ESA are paid out of the judgment fund, as they 
are under the Clean Water Act and under the Clean Air Act, and 
other major environmental bills.
    The other point is the issue about the best-available 
science. I certainly think that states and counties and 
localities may well have valid science that should be 
considered, and I think that if this bill did nothing more than 
to encourage the Department of the Interior to consider all 
such material that was provided by governments, it would be 
fully consistent with the Department of the Interior's existing 
policy, and it would be something that certainly Defenders of 
Wildlife would support.
    The problem is the actual language of the Act. And this is 
not the only bill that has recited this. There have been 
several other bills each Congress that declare that the term 
``best available scientific and commercial information'' 
includes data submitted by a state or tribal or a county 
government.
    So, imagine the problem that you have, I mean the sponsor's 
statement about encouraging scientific debate. The whole point 
about choosing and selecting what is the best-available science 
involves scientific evaluation by scientists of the actual 
validity and reliability of scientific studies and information 
that they rely on, on what the data is.
    This would declare that information, which may be 
completely erroneous, it may be irrelevant, or it may just have 
data of conflicts, or it may just be in conflict with other 
scientific information--it may, in fact, be a validly conducted 
study, but it may be an outlier in the field of species 
conservation, but this would declare that the Service has to 
rely upon it. That is what the meaning of ``best available 
scientific and commercial information'' is. That is what they 
have to actually make their decisions on.
    So, it kind of throws out the whole issue about evaluating 
that science to determine if it is valid. And that is, I think, 
why so many scientists are objecting to this.
    The Chairman. You good?
    Mr. Grijalva. Thank you.
    The Chairman. Do you have any questions for this one?
    Dr. Gosar. First of all, I would like to respond to the 
1,500 scientists about weakening the ESA. At a 2 percent 
success rate, that is hardly success. That is hardly success, 
by anybody's standards. So, we ought to be looking at trying to 
mitigate that. And that is why, Mr. Dreher, I came back at you 
to see where we should go, based on your intuitions.
    It is not good enough just to allow this to occur and just 
say, well, these are fundamentally flawed. It is what are your 
solutions. And that is why I asked my first questions to you, 
and you couldn't answer them. And that is what is so sad about 
this, is that everybody's heart is in the right place, to 
mitigate this. I mean, you have a conflict of interest. And 
that is why I asked about the money, is to find out how much 
exactly you have actually benefited from, not just in the 
financial dollars, but in delays and deliberative stoppages of 
any program or anything that could actually benefit. So, I find 
that kind of interesting, that you would look at that.
    Mr. Renkes, what right do states, local governments, 
tribes, and industries have to know what the Federal Government 
is up to? And why does it matter whether states are consulted, 
and whether these entities know the internal deliberations of 
government?
    Mr. Renkes. Let me say the Administration supports the 
thrust of this bill, and a maximum amount of transparency. And 
I think the right that they have to know is the right to know 
that these decisions are based on the very best information, 
which is the goal of the Act. And having the best information 
will result from transparency of the data that is provided.
    I believe this Administration has mentioned before, made it 
100 percent agency goal to bring the states to the table and 
actually--it used to be that in the administration of this Act, 
that science would be reviewed in a corner, and not revealed 
and not transparent to the public in some cases. But now, the 
states are invited to the table to review all of the 
information that comes into the agency, and then participate 
with the Service in the creation of the science document that 
is used in the listing process.
    So, it is that kind of transparency that this bill 
advances, and we think it is a good thing for the Act.
    Dr. Gosar. So, walk with me for a minute in regards to an 
issue you probably are aware of, and that is forest thinning. 
And the tribal involvement, because I look at this 
intentionally from that standpoint.
    We have the Rodeo and Chediski fires over in the eastern 
part of Arizona, and the tribe was very upset because of the 
neglect and the destruction that occurred. So, what they did is 
they took it upon themselves on their tribal lands to thin the 
forest in an appropriate, prescribed application that may not 
have been part of the Federal Government's. And it actually 
worked.
    Would that be an example of how that interaction would 
occur for best-available science?
    Mr. Renkes. After the listing decision has been made, and 
you have a recovery plan, or have that conservation plan, I 
think that then you want continued input and continued 
involvement of the local governments and tribes and the states, 
because they have the best available local knowledge. And I 
think----
    Dr. Gosar. That shows you the success is the implementation 
on the floor. And I think that this bill is important in that 
regard, because it shows you a real time evaluation of success.
    Mr. Renkes. That is correct.
    Dr. Gosar. Thank you. I yield back.
    The Chairman. Mr. Westerman, do you have a question on this 
one?
    Mr. Bergman, on this one?
    Mr. LaMalfa, do you have a question on this one? You do 
have one, though?
    Mr. LaMalfa. You need me to come over there?
    The Chairman. Tell you what. Give your question, then come 
here.
    He's chairing from right there for a second.
    Mr. LaMalfa [presiding]. All right. Give me a second here. 
Thank you.
    OK, Mr. Johansson, let's come back to this on the 
attorney's fees angle of this. I think that is a very important 
component in the bill, and something I have tried to advance 
previously in other legislation, as well, in that the 
incentive--and we kind of talked about it with this letter I 
submitted up there earlier--is that there is a giant incentive 
to sue, just for the heck of it, because there is a good chance 
of recovery.
    And with the cap in the fees, what do you see on all this 
stuff we have been talking about in California, especially 
where we have salvage, fire salvage operations that try to 
happen, and a litany of lawsuits that come from that, and then 
we were talking about on the land use, et cetera. If these fees 
were capped at something that is more reasonable, what do you 
see as far as the frequency of continued lawsuits that appear 
to some of us as being pretty frivolous, because there is no 
downside?
    Mr. Johansson. Well, I would say--and I repeat what I said 
earlier, in terms of exposing an industry of conflict that 
really has developed around the ESA and people or organizations 
that thrive on litigation. It is the first thing they are going 
to turn to, is to litigate and to challenge.
    So, by posting a transparency of what we are spending on 
those fees, or what is being spent on those fees also is 
important in terms of when we discuss how much we are funding 
the ESA, what truly is going into the ESA, in terms of our 
implementation of it. We have to recognize the litigation 
aspect of it. There is no one who goes into a habitat 
conservation plan or any other sort of conservation plan 
without the advice of attorney, because that is your first 
decision, probably, in complying with the ESA, if you have to, 
is who is the good attorney.
    So, we would hope that it would minimize the litigation, 
and we could go forward with conservation.
    Mr. LaMalfa. OK. Thank you, I will yield.
    Mr. Young. Then recognize me.
    [Pause.]
    Mr. LaMalfa. I would recognize Mr. Young. Did you have a 
question?
    Mr. Young. No question.
    Mr. LaMalfa. Oh, no? OK. All right. Then no further 
questions on this bill.
    We will jump to Mr. Young's bill, H.R. 6364. And I will 
recognize Mr. Young.

 STATEMENT OF THE HON. DON YOUNG, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF ALASKA

    Mr. Young. Thank you, Mr. Speaker, Mr. Chairman. First, let 
me tell you what is wrong with this whole program. I am the 
only one that has ever voted on this Act. And when we voted on 
it, it was 10 pages long. And it is now 386 pages long, not by 
congressional action, by action of the agencies that implement 
the Endangered Species Act. That is what is the problem.
    And I want to stress that. And I will tell you I have 
little respect for the Defenders of Wildlife or any other group 
that uses this Act as it never was intended. I remember the 
testimony before us. Unfortunately, it was written wrong, but 
it was to protect animals that were endangered, birds that were 
endangered, but not all this other stuff. But we did put it in 
there that frogs would be protected, flies would be protected, 
hopping mice would be protected, without consideration of the 
science and how it affected other species.
    So, Mr. Chairman, I can suggest one thing. My little bill 
just requires that the counties and states, the tribes work 
together with the Federal agencies to come to an agreement on 
what is the best way to protect the animals and the species, 
including the frogs. That is what we are trying to do.
    But the Act itself has been misinterpreted and misused, 
primarily to take property away from the private individual and 
impede progress, which deeply disturbs me, because that is not 
what America is all about.
    Mr. Sauter, the LAMP program, that is my Act, authorizes 
Federal agencies to delegate greater authority to the states 
and tribes, et cetera. In your experience, do you believe the 
states, along with the tribes and counties and local 
municipalities, have the capability of managing species in a 
professional manner, protecting them, and still going forth 
with everyday life?
    Mr. Sauter. Thank you for the question, Congressman. Yes, 
absolutely. I think there is ample evidence. And I have 
evidence as far as my own personal experience as a county 
commissioner. We work on wildlife programs, we conserve 
species, we save habitat all the time. And I think there is 
this erroneous assumption that local and state and tribal--
maybe not so much tribal--cannot be trusted to look after 
species, that we don't care about species, that we don't want 
to see species recovered. That is simply not true.
    Our view is that the best people, the people that have the 
most to gain from all of this, are actually those local 
landowners.
    Mr. Young. I happen to agree with you. And, by the way, 
most species that are put on the list come from outside 
interests, have nothing to do with the agencies. They are 
proposed, or they will sue to put them on the list. People 
don't look at that. Again, misusing the Act itself.
    Mr. Renkes, congratulations, by the way, appearing before 
this Committee for the first time. Do you believe increased 
support from agencies of state and local-driven conservation 
efforts and species management can lead to more effective 
outcomes of species and the communities most impacted by them?
    Mr. Renkes. Yes, Congressman. The Department appreciates 
and supports the goals of the LAMP Act. And anything we can do 
to increase the involvement and the participation of the states 
and tribes and local governments is better for the conservation 
of endangered species.
    Mr. Young. Mr. Chairman, I just have a little personal 
experience. I was originally from California until I got smart 
and went to Alaska. As you know, I had a ranch there, and my 
brother ran it. And we have a grove. My father set aside 20 
acres.
    Along came California's Fish and Wildlife and Federal Fish 
and Wildlife, and said we set that grove up, my dad did, for 
preservation of species, long before it was popular. And 
because we had an abundance of golden garter snakes, they were 
told that we would have to put a buffer zone in 1,000 yards 
long, away from that little grove. We couldn't farm it.
    Mr. Renkes, you said shoot and shovel--what is it? Shoot, 
shut up, and shovel.
    Mr. Renkes. Shoot, shovel, and shut up.
    Mr. Young. I used the hoe, and I shoveled, and I shut up. 
But the idea that they were going to punish the ranch because 
we protected something, that is how stupid this bill is. It was 
never intended for that.
    So, Mr. Chairman, this is a good piece of legislation. All 
these bills deserve merit. And if we don't do it, in fact, the 
Act itself eventually will be defeated by the people. I yield 
back.
    Mr. LaMalfa. Yes, Mr. Chairman, I think that hearkens back 
to the PREDICTS Act from a little while ago, the conversation 
we are having--can I predict that I can set my land in a 
certain way and be able to use it if I need to in a different 
way later? And you cannot predict that because they pronounce 
it on your private property.
    Let me turn to Mr. Grijalva. Do you have questions? Or any 
of your other colleagues on that side of the aisle there?
    Mr. Grijalva. Which one are we on, LAMP?
    Mr. LaMalfa. H.R. 6364, by Mr. Young.
    Mr. Grijalva. Oh, Mr. Young's bill.
    Mr. Dreher, do you have concerns on this legislation, sir?
    Mr. Dreher. I do, sir. Defenders of Wildlife fully 
appreciates and supports the role of state governments in 
managing resident species of wildlife, and we certainly support 
anything that would help to encourage collaboration between 
states and the Federal Government and other stakeholders, 
including groups like ours and including property owners, to 
try to engage in endangered species conservation.
    There are significant concerns about widescale delegation 
of the ESA to the states. There was a very comprehensive study 
done by the University of California Irvine School of Law that 
examined the authorities that state governments have to protect 
endangered species, and found things that were actually a 
little shocking, like almost no state has authority to actually 
try to recover an imperiled species that is listed under state 
law. Very few of them require expert consultations. Very few of 
them protect plants.
    Almost none of them protect the whole list of endangered 
species that the Federal Government protects. And, maybe most 
revealing, only 5 percent of the money that is spent on 
endangered species conservation is spent by the states.
    So, there are real concerns about the capacity and 
authority of the states to step up and take this kind of 
leadership role on endangered species conservation away from 
the Fish and Wildlife Service and the National Marine Fisheries 
Service. That is not to say they shouldn't work hand in hand, 
and they absolutely should, and as they do, whenever they do, 
we applaud that. But we are concerned about that.
    But I would say the other thing that really gives me pause, 
because I have never actually seen this before, is the 
suggestion in this particular bill that the Secretary could 
delegate management of entire species or groups of species, as 
well as habitats of those species, to private parties. And I 
don't know what a non-Federal party is, but it could include, 
as far as I can tell, an oil and gas company or a mining 
company. I have never seen anything like this in the 
discussions about the endangered species conservation program, 
and I don't know how far it could go. It would exempt those 
parties from take and from the requirement to consult.
    If you have delegation of authority not to a state--states, 
after all, are kindred spirits to the Federal Government in 
their commitment to conserving endangered species. But private 
parties?
    So, I think this bill raises very, very significant and 
large concerns about what it might do to the endangered species 
program.
    Mr. Grijalva. Thank you.
    If I may, Mr. Chairman, just because we were talking about 
the litigation part on the other legislation, a 2017 GAO report 
on Endangered Species Act deadlined litigation, only 
approximately 13 cases were filed per year on deadline lawsuits 
from 2005 to 2015. Moreover, only half of the cases were 
brought by environmental groups, with the rest by a variety of 
plaintiffs, including the California Cattlemen's Association, 
the Florida Homebuilders Association, and finally, of the 141 
cases filed in the 10-year period of deadline lawsuits, 72 were 
resolved through settlement.
    And I mention that because of all the civil cases brought 
against the Federal Government, less than one-half of 1 percent 
are with EPA and Interior. The rest are commercial litigation 
cases, so security litigation cases, prisoner litigation cases, 
and other mostly commercial cases.
    So, I suggest that before we make this the issue of the 
lawsuit and a citizen's right to access the court for redress, 
and handcuff that process, that we look very carefully, because 
this is not the boogeyman that it is being made out to be by 
the proponents of limiting the ability of the citizen to access 
the courts for redress.
    I yield back, Mr. Chairman.
    Mr. LaMalfa. All right. Thank you, Mr. Grijalva. Would Mr. 
Gosar like to be recognized?
    Mr. Westerman? OK.
    I will touch upon a little bit. Mr. Wood, on this bill, 
with what Mr. Young was talking about there, like on a 
management of their own land, they had set aside that 20 acres, 
for good reasons, and then found that they didn't have control 
of their land any more. Can you elaborate a little bit on what 
you see from the legal angle of how does a landowner carry that 
battle these days on regaining their control of managing their 
land, even though they might have a species on that that they 
are actually helping to propagate, but not enough to change the 
use of that land, and not have a buffer zone, et cetera?
    Mr. Wood. It often is very difficult. One of the biggest 
challenges with the Endangered Species Act the way it is 
written and the way it is implemented is that it often punishes 
the landowner who provides habitat for rare species, when what 
we really need is greater incentives to restore and enlarge 
existing habitat, because it is often too small for the most 
imperiled species.
    So, from the property-owner's perspective, it could be 
really dangerous to create or restore habitat, because you are 
essentially setting yourself up for far greater regulation. And 
many of the things that have been done by administrations of 
both political parties and that are codified in many of these 
bills will make that situation better by providing more 
certainty to landowners, as well as additional incentives to do 
that important work.
    Mr. LaMalfa. Mr. Johansson, same thing on that. Again, 
because it seems to be a disincentive for people I know of in 
various Ag. industries to do that good thing and leave 
something on some set-aside land, and then lose control of it 
because you let trees grow too long on that piece of land, or 
something of that nature.
    Mr. Johansson. That is the fear, and this our hope, to 
remedy, and why California Farm Bureau, American Farm Bureau is 
here today, is to bring in the certainty that doing the wrong 
thing--or excuse me, doing the right thing won't end up being 
the wrong thing, in terms of the longevity of your farm and 
your family on that land.
    Mr. LaMalfa. Yes, because the results I see is that people 
are going to leave their land barren and so highly maintained 
that a weed can't grow or a tree can't grow on areas that they 
don't want it to take over, and then lose that control. So, 
thank you.
    Anybody else on the panel have any last thoughts on H.R. 
6364?
    OK, all right. With that we will move on to H.R. 6356 by 
Mr. Biggs of Arizona, called the LIST Act of 2018. I will throw 
this over to our colleagues here.
    Mr. Gosar.
    Dr. Gosar. Mr. Wood and Mr. Renkes, at present do we make 
enough of an effort to distinguish between species that are 
experiencing population decline as a consequence of human 
versus non-human factors at the petitioning and listing stage?
    I will start with you, Mr. Renkes.
    Mr. Renkes. The listing decision is based on the definition 
in the Act. I am not sure if that is what your question was 
getting at.
    Dr. Gosar. Well, do we make a distinction that are 
consequences of human versus non-human factors in the 
petitioning process?
    Mr. Renkes. In the Act, there is a definition of endangered 
and threatened species, as you know. And a five-factor analysis 
is supplied. And in those five factors, the last, fifth factor, 
is natural or man-made factors that affect the continued 
existence of the species.
    Dr. Gosar. Mr. Wood?
    Mr. Wood. I agree. The Act, as written, doesn't distinguish 
between those two different types of threats. And one of the 
challenges of the implementation is that the response required 
will be very different, based on whether a threat is man-made 
or natural.
    And the regulatory approach contained in the Act doesn't do 
as good of a job creating the incentives we need for novel and 
innovative solutions, particularly to those natural threats, 
where a species is competing with another species. Telling a 
farmer he can't plow isn't going to change that underlying 
natural phenomenon.
    Dr. Gosar. Give me an example in regards to how the law 
differentiates.
    Mr. Wood. Well, as I said, in terms of the listing, it 
doesn't. It says----
    Dr. Gosar. I am sorry, it is the opposite. Tell me, by law, 
how it doesn't differentiate, and how it could be effective.
    Mr. Wood. So, for example, the spotted owl in the Pacific 
Northwest was listed based on fears that logging would 
eventually damage too much habitat. Well, today the main threat 
to that species is competition from another species of owl. 
Limiting the ability for timberland owners to harvest their 
land and their trees is not going to change the underlying 
dynamics of that shifting ecosystem and the competition the owl 
is facing.
    Dr. Gosar. Well, obviously, species went extinct before 
humans came around. We just happened to accelerate those rates 
through habitat modification. Do you think that is a useful 
distinction, one that could easily be readily measured and 
implemented in consideration under the ESA, Mr. Wood?
    Mr. Wood. Well, I think, certainly given how popular the 
Act is, no one wants to just accept extinction. It may be 
impossible to prevent all of it, but it is something we all 
care about.
    I think what is important is to stress how those challenges 
make it even more necessary to focus on flexibility and free 
market, or voluntary, conservation means. That is what is going 
to accomplish those solutions we need. Regulating landowners 
doesn't address any of those problems.
    Dr. Gosar. So, more of a--not you can't, but how can you 
help with verifiable outcomes, right?
    Mr. Wood. Exactly.
    Dr. Gosar. Mr. Wood, why does the distinction between 
threatened and endangered matter?
    Mr. Wood. Well, obviously, the biggest reason why it 
matters is that endangered species are on the verge of going 
extinct. Those are the ones that most critically need 
protection. The reason why it matters legally is that Congress 
made different judgments for the two types of species. 
Threatened species don't require the same regulatory 
protections endangered species do.
    Historically, the Service hasn't honored that distinction, 
but the Administration has recently proposed to restore it. And 
that rule change will provide a lot more flexibility for states 
and private property owners to pursue active recovery efforts. 
And I think it will actually boost the rate at which we recover 
species.
    Dr. Gosar. So, do you think Congress should reinforce that 
distinction and that it would benefit species conservation?
    Mr. Wood. Absolutely. I think that is clear from the text 
of the statute, as written. But codifying and emphasizing it, I 
think, would be absolutely helpful.
    Dr. Gosar. Would you agree with that, Mr. Renkes?
    Mr. Renkes. Yes, I would, and it is a major thrust of the 
current regulations.
    Dr. Gosar. This seems like this is a kind of a common-sense 
bill that is looking at outcomes and looking at all resources 
into that predication. Wouldn't you agree, Mr. Wood?
    Mr. Wood. Yes.
    Dr. Gosar. Supporting species, right?
    Mr. Wood. That is exactly right. For instance, the last 
thing we talked about, empowering states, is something that 
builds on efforts by the Obama administration to better engage 
with states. I think most people realize we need changes like 
this to incentivize more active efforts to recover species.
    Dr. Gosar. OK, thank you.
    Mr. LaMalfa. Mr. Grijalva.
    Mr. Grijalva. Mr. Wood, I think earlier today you discussed 
judicial review of endangered species listings for the Wyoming 
gray wolf and grizzly bears. In your testimony, you caution the 
Committee against ``enacting any limitation on judicial 
review.'' However, many of these bills, including this one, do 
just that.
    So, can you explain why that is problematic, and why the 
caution?
    Mr. Wood. Sure. I found, in reviewing other statutes that 
preclude judicial review, that they are essentially invitations 
for agency mischief. And, often, the result is to undermine 
Congress' will.
    That said, I recognize that too many ESA issues result in 
litigation, so something should be done. But I think the answer 
is to deal with the underlying incentives behind that 
litigation, like the amount of attorney's fees, and not to ban 
access to the courts.
    Mr. Grijalva. Mr. Dreher, another reaction to that opinion, 
something to agree on, or not?
    Mr. Dreher. Well, there has been talk among the members of 
the Committee about the need for sunshine and transparency. And 
one of the ways to ensure that is to allow the American public 
to actually look at what has been happening in a government 
decision, regardless of where you stand or what interest you 
represent, to know what it is and, if it is improper, to 
actually contest it against the standards of the law. That is 
what the courts are all about. That is what the rule of law is 
all about.
    I think, if there are too many conflicts over the ESA, the 
issue should be to try to resolve those conflicts, and to try 
to establish better ways to collaborate together. But denying 
American citizens their rights to go to court to indicate their 
civil rights is just not something I think this Committee 
should be doing.
    Mr. Grijalva. Thank you.
    Mr. Dreher, one other question. And speaking of science, in 
all the legislation that we are seeing as a package on 
dismantling the ESA, one subject that doesn't come up, and it 
is a scientific issue, is the issue of climate change and its 
impact on habitat and impact of species on their recovery. Can 
you, from your perspective and expertise, talk a little bit 
about how that is also part of changing the discussion around 
species protection and recovery efforts?
    Mr. Dreher. Yes. I think climate change is the huge and 
growing threat to life on this planet, frankly. And, certainly, 
to the balance that we have and that we know about. It has 
unsettled, I think, all of our expectations in the field of 
conservation. We used to think that we could restore habitat in 
areas to a pristine, pre-Columbian state. Now we are facing the 
fact that we are changing the climate so severely that we--but 
the point about all of this is that what climate change does is 
exacerbate the pressures that we are putting on species.
    Most species are endangered because of the pressures of 
human development. And climate change exacerbates that. So, any 
rational process for trying to conserve biodiversity, including 
one under this Act, has to take climate change into effect. And 
that complicates things.
    It means we have to think about, for example, do we need to 
protect vacant habitat, where a species doesn't currently live, 
but where it will have to move? Species are having to move 
upslope, they are having to move north, they are having to move 
away from temperature gradients that put them at risk. So, it 
may become crucially important to do conservation planning that 
establishes where those trends are, and----
    Mr. Grijalva. Accessing corridors, that is another 
discussion that I have heard, as well. Yes, I think when you 
are talking about this very vital and important legislation, 
the ESA law--not only anticipating what is coming, but 
accepting that as real science, I think helps mitigate 
recovery, both of species and protection and conservation of 
habitats. And all this legislation, and most of what we see on 
this Committee, in terms of environmental issues, the issue of 
climate change is a non-issue, a non-factual issue. I just 
wanted to get your response to that.
    And I yield back.
    Mr. Dreher. Well, we are worried that proposals by the 
Administration would eliminate consideration of climate change 
in administering the ESA.
    Mr. Grijalva. Yes.
    Mr. Dreher. We are also worried, frankly, that the most 
important thing we need to do is develop better ways to work 
together and collaborate. And the kind of accusations in this 
bill, accusing environmentalists of explicit bad faith, are 
entirely unfounded, and not, I think, helpful to establish the 
kind of dialogue we need.
    Mr. LaMalfa. All right, thank you.
    Mr. Westerman? OK.
    I will have one for Mr. Renkes. As just a practical matter 
and summarizing the bill and what that looks like for the 
Secretary, for the Department, again, giving the power to the 
Secretary to de-list when, again, objective, scientific data 
clearly demonstrates a species is recovered, and also to act on 
wrongfully listed species, where the rubber meets the road, 
what does this really look like for the Secretary and for your 
Department there?
    Mr. Renkes. We agree with the focus----
    Mr. LaMalfa. Let me juxtapose this with--we talked about 
gray wolf earlier, where in 2009 it was originally proposed to 
be de-listed, and in my own backyard we have the valley 
elderberry longhorn beetle that was also submitted for de-
listing at least 8 or 9 or 10 years ago, as well, by Fish and 
Wildlife. So, mix that into your answer, too, please.
    Mr. Renkes. We agree with the focus of recovery and getting 
species off the list. And the regulations--public comment just 
closed on and by the way, we received 180,000 comments on the 
regulations, representing the input of over a million people. 
And that comment period closed on Monday.
    But one of the provisions in those regulations makes it 
clear that the standard for getting on or off the list is the 
same. It is the definition in the Act. And it is really the 
definition in the Act that is going to control in each of the 
5-year reviews of the species, or when someone petitions for a 
down-listing or a de-listing.
    So, this LIST Act, we think, really would enhance the 
ability to move through that list. I think right now we have 
533 petitions under review, and 506 of those are past the 12-
month deadline for a decision.
    Mr. LaMalfa. To add new species to the list?
    Mr. Renkes. Yes.
    Mr. LaMalfa. And none of them are de-listing or down-
listing?
    Mr. Renkes. Oh, no. Some of those----
    Mr. LaMalfa. What does that list look like?
    Mr. Renkes. The de-listing and down--I don't have those 
numbers in front of me. We could get those to you.
    I am not familiar with the beetle issue that you raised, 
but I am somewhat familiar with the wolf. And the Service has 
maintained that the wolf had recovered, and it has gone through 
the courts, and now it has been settled for the Wyoming, Rocky 
Mountain population. And we are still waiting on a decision, I 
believe, for the Midwestern population of the wolf.
    Mr. LaMalfa. Whereas, the Secretary could be empowered, 
having looked at all the information, to go ahead and make the 
move, instead of more waiting, right?
    Mr. Renkes. Right.
    Mr. LaMalfa. All right. Mr. Wood, would you care to weigh 
in on that thought?
    Mr. Wood. I think that is right, and it presents two sides 
of the problem. You mentioned the valley elderberry longhorn 
beetle, something I discussed in my written testimony. That is 
a case where the Service's scientists said the science is 
there, this species status needs to be upgraded, and nothing 
happened. A petition was filed, and still nothing happened.
    And by the time the agency got around to acting, it said, 
well, now that science is too old and we have to start all 
over. It just shows that de-listing hasn't been treated as a 
sufficient priority to get the ball moving.
    And, of course, the other challenge is the courts, that 
when a species gets de-listed, it will be challenged, and 
courts will strike the decision down even in situations where 
the species has recovered. It has happened with the gray wolf, 
and it has happened with the grizzly bear.
    Mr. LaMalfa. I recall on the elderberry beetle they 
actually did have the data on that. And then I don't know if it 
was good to de-list in 2008--just because they waste more time 
on that doesn't mean that now that data isn't good any more.
    But my understanding is they didn't like the data they had, 
and they contracted for a different style of gathering the data 
on how they counted the beetle. It is a never-ending circus, 
really.
    OK. Any more questions on this one from the panel?
    With that, we will close out on H.R. 6356 and go to H.R. 
6355 by Mr. Westerman, the PETITION Act.

    Well done, Mr. Westerman, taking an eight-letter acronym, 
putting that together, that is pretty creative.

  STATEMENT OF THE HON. BRUCE WESTERMAN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ARKANSAS

    Mr. Westerman. Pretty creative. Thank you, Mr. Chairman, 
and I thank the witnesses for being here today.
    Mr. Chairman, the gentleman from Alaska, Mr. Young, alluded 
to this a little bit in his remarks, but as I have researched 
the ESA I have found that it was a highly partisan Act, highly 
partisan piece of legislation that was passed back in the early 
1970s. I use that term ``partisan,'' meaning that it is 
something that is to be prejudiced in favor of a particular 
cause. And there was a particular cause. That cause was to 
protect critically imperiled species from extinction.
    And the legislation wasn't partisan by today's standards, 
because it passed the Senate with a vote of 92 to 0, and it 
passed the House with a vote of 390 to 12. There were very good 
intentions for the ESA, and we cannot deny the benefits we have 
seen because of implementation of the ESA. We have seen eagles, 
falcons, whales, grizzly bears, different birds, butterflies, 
and plants, all that have recovered because of the Endangered 
Species Act.
    But this hearing has given us a chance to explore the idea 
that there are updates needed to the ESA, and specifically my 
PETITION Act provides protections from abusing the process. It 
actually starts the listing procedure.
    Forty-five years ago, when the ESA was conceived, it was 
laudably designed so that anyone could work with the government 
to save a species. That is a good thing. As such, there is no 
cost to petition the Service, and the agency must thoroughly 
respond to each individual request within 90 days, even if the 
petition contains unsubstantiated information. Further, if the 
agency fails to respond within this limited time frame, then 
whoever petitioned Fish and Wildlife can take them to court.
    On the surface, this is all well and good. If my Federal 
Government ignores me, I get to take them to court. The problem 
is the process is being abused. Unlike the vision of citizen 
scientists banding together to save one or two species, a 
handful of well-funded organizations have overwhelmed the 
listing procedure.
    From 2007 to 2011, just two organizations were responsible 
for 90 percent of all submitted petitions. These two groups, 
each with annual budgets exceeding $15 million, drove the 
average number of yearly petitions from 20 to well over 300. 
Fish and Wildlife Service has simply not been able to keep up 
with this increase, and, as a result, has been repeatedly drug 
into court and forced to accept settlements that undercut both 
the established listing procedure and Federal scientists.
    Some would suggest that Fish and Wildlife just needs more 
money and more people. Mr. Chairman, there are nearly 22,000 
plant and animal species in the United States alone, and there 
is no limit to how many can have ESA petitions filed on their 
behalf. These organizations have subverted well-intentioned 
policy. Rather than submit scientifically sound petitions, 
well-funded organizations can simply overwhelm the Service and 
then sue to achieve their desired result. This subversion is 
incredibly harmful, not only to the American taxpayer, but to 
species recovery, as a whole.
    My bill, the PETITION Act, attempts to reverse this 
problem. By allowing the Secretary of the Interior to declare a 
petition backlog, and then allow the Fish and Wildlife 
scientists to prioritize which petitions need immediate 
attention, my bill allows for a fair and orderly consideration 
of all new petitions, not just the ones funded by large 
activist organizations.
    The structure of my bill is nothing new to Fish and 
Wildlife. In fact, part of the PETITION Act codifies the 
backlog structure put in place under the Obama administration, 
when frivolous petitions began to stack up.
    Overall, the purpose of my bill is to update a 45-year-old 
law to protect the Endangered Species Act from the current 
abuse it receives. Under the current structure, well-funded 
groups are drowning out sound science and species with true and 
immediate need.
    I am eager to conclude this testimony today, and I look 
forward to working with any member of this Committee to update 
the Endangered Species Act in a sound and responsible manner 
that gets back to doing what it was originally designed for. 
Again, that is to protect critically imperiled species from 
extinction.
    With that, I yield back.
    Mr. LaMalfa. All right, thank you, Mr. Westerman.
    Mr. Grijalva.
    Mr. Grijalva. Mr. Dreher, again, backlog petitions are an 
issue for implementing the ESA. We have the approach being 
represented in Mr. Westerman's legislation. Do you think there 
is a better approach, that one idea would be to increase the 
resources to the implementing agencies to meet this heightened 
demand, in terms of backlog. Beyond that, any other ideas, 
suggestions?
    Mr. Dreher. Thank you, Congressman. The thing is that the 
petition workload has been a burden. I have spent more than 2 
years at Fish and Wildlife Service and 4\1/2\ years defending 
Fish and Wildlife Service at the Department of Justice.
    I was there when we faced the multiple species petitions 
that were filed in 2011, that proposed hundreds of species for 
listing. What happened there was, I think, responsible 
management. The Department of Justice and the Fish and Wildlife 
Service developed a plan.
    First, we took all those listings and all the deadline 
suits and put them into one court. Then we came up with a 
settlement approach that established a reasonable schedule that 
we could actually manage. And we got the commitment of the 
petitioners, the plaintiffs in those cases, to that schedule, 
and we have implemented it. It is difficult, but it can be 
done. But it does require resources.
    What this bill, unfortunately, does is to penalize the 
endangered species that Mr. Westerman says that he is seeking 
to protect. Under his scenario, if a backlog is established, a 
new petition that could be filed that brings to the attention 
of the Service a species that it had not previously recognized 
was in imminent risk of extinction would have to be ignored. 
They could not move on it. And then it would be denied after 
180 days, automatically denied. And that could not then be 
judicially reviewed, all until they managed to bring the 
backlog down.
    And the only thing they can do until they bring the backlog 
down is to grant petitions to de-list, so it is an extremely 
one-sided ratchet. It forces the Fish and Wildlife Service to 
spend all of its time on species which are, at least by 
definition, no longer in need of protections of the Act. So, 
although it is important to get them de-listed, and it is 
important for the success of the Act to show that they are 
recovered, they are not at risk. And it forces the Fish and 
Wildlife Service to spend all of its time and money on those 
species, instead of species that may be brought to its 
attention that, in fact, are critically imperiled.
    So, it is really a one-sided bill, and I think would do 
serious damage to the ability of the Fish and Wildlife Service 
and the National Marine Fisheries Service to respond to 
legitimate petitions.
    And I guess I should just add that many of the species that 
are listed under the Act have been brought to the Service's 
attention by citizens. That is why this Congress created the 
petition process. It is an analog to the citizen suit 
provision, yet recognizes that the agencies aren't perfect, and 
in some cases they are going to sit on their hands. And what 
citizens have to do to make this Act work is be able to submit 
information and make the agencies grapple with it. That is all 
the petition process does.
    Mr. Grijalva. Thank you. Mr. Dreher, you discussed the 
current extinction crisis. Can you elaborate in the time we 
have left a little more on that extinction crisis, the reality 
of it, and ESA's important role in addressing that crisis?
    Mr. Dreher. Well, I was about to say I would be happy to, 
Congressman. It is not a happy subject. I think we are becoming 
aware, societally--scientists are becoming aware, responsible 
government decision makers, the public is becoming aware of the 
effects of the relatively unchecked development by the human 
species of the entire face of the planet. There is almost no 
part of the planet at this point that does not bear the effects 
of human development.
    We have lost half of all wild animals in the last 40 years. 
As many as 10 percent of all species on Earth will be 
endangered within the next 30 or 40 years, and that may be a 
very low estimate. That is according to the National Academies 
of Science. So, we are facing an extinction event that is 
comparable to what happened when the Earth was hit by comets 
that wiped out the dinosaurs.
    And it is our doing, which means that we bear the 
responsibility, the moral, the ethical, and the practical 
responsibility of trying to conserve the planet that we live 
on.
    The Act is the most visionary and the most effective law in 
the world to do that. Many other countries have endangered 
species legislation that really does nothing, except identify 
species that are going under, but don't have any actual program 
for recovery. So, the Act is something we should all, I think, 
commend for its effort.
    Mr. Grijalva. Thank you. I yield back.
    Mr. LaMalfa. The gentleman yields back. We need to 
recognize Mr. Gosar?
    OK, Mr. Westerman.
    Mr. Westerman. Thank you, Mr. Chairman.
    Mr. Wood, in your testimony you mentioned that the Obama 
administration sought a cease-fire with the environmental 
groups suing the Federal Government. In fact, as part of that 
cease-fire, the previous administration imposed a 
prioritization framework to a process that is actually codified 
in my bill.
    In your opinion, what is the status of that cease-fire? Has 
it ended?
    Mr. Wood. The settlement itself has ended. But after that 
the Obama administration proposed a rule to finalize it. And it 
has been working. But, of course, it could be upended at any 
time. Unless Congress acts to codify that approach, at any time 
a petitioner could go to court and get an order to jump the 
line. And I think that would be a mistake.
    The Obama prioritization schedule properly focuses on the 
species that most need protection, rather than the weaker 
petitions that might get ordered by a court.
    Mr. Westerman. So, Mr. Renkes, what is the current state of 
the petition backlog?
    Mr. Renkes. Currently, there are 533 petitions pending; 506 
of those are past the 12-month deadline.
    Mr. Westerman. Is that backlog increasing or decreasing?
    Mr. Renkes. The Service is working to decrease the backlog, 
and they estimate now that it will take about a decade to work 
through that backlog.
    Mr. Westerman. Does the Federal Government anticipate the 
risk of major settlements from lawsuits increasing as a result 
of the state of the backlog?
    Mr. Renkes. Each species is taken on its own, and the 
determination is made of the best-available science, based on 
the definitions in the Act. So, the settlement process really 
doesn't put pressure on the decisions that are made by the 
Service in that regard under the Act.
    Mr. Westerman. And the mass petition settlement was 
mentioned earlier. Mr. Wood and Mr. Renkes, can you compare the 
treatment of a petition considered under normal conditions with 
one which is part of a mass petition settlement of a backlog 
such as happened in the recent years and decade?
    Mr. Wood. Well, I am sure one of the other witnesses can 
testify a little bit more on the challenges it presents to the 
Service, but I think it is laudable that the Obama 
administration took on the problem of mega-petitions, 
recognizing that they make it a lot harder to decipher and 
resolve a petition, and proposed a rule to get rid of it.
    But to a large extent, the backlog crisis we saw in 2011 
was the result of indecipherable petitions proposing to list 
hundreds of species at a time. And that is an incredibly 
challenging problem that I hope is done.
    Mr. Westerman. And Mr. Wood, in your testimony you also 
mentioned that the Federal listing policy is largely dictated 
by whoever is most willing to petition the government.
    Mr. Renkes, is this characterization accurate, in your 
opinion?
    Mr. Renkes. Yes.
    Mr. Westerman. Mr. Wood, the settlements from these suits, 
then, undercuts sound, balanced science produced by the Federal 
Government?
    Mr. Wood. It doesn't affect the outcome. That still has to 
be done, based on the requirements in the Act.
    But what it does is shift the decision about what species 
and what petitions to prioritize from the Service and the 
science to court orders. And those are inherently subject to 
arbitrariness.
    Mr. Westerman. Mr. Wood, is there any reason to suspect 
that some of the petitions that are submitted to Fish and 
Wildlife are actually submitted precisely in order to jam the 
system's resources and create a petition backlog, making the 
government vulnerable to lawsuits?
    Mr. Wood. Yes, it is certainly hard to speculate about the 
intent behind the groups that filed the petitions. You 
occasionally get the sort of smoking gun quote saying, 
``Thankfully, this species existed, because we wanted to stop 
some particular project.''
    But I think the fundamental problem is that Congress chose 
the agency to make the decisions about how to prioritize and 
protect species, and the backlog problem and the petition 
process is taking that away. And that is why a solution is so 
necessary.
    Mr. Westerman. Thank you. I yield back, Mr. Chairman.
    Mr. LaMalfa. Mr. Westerman, you mentioned the 92 to 0 vote 
in the Senate back in 1973, was it?
    Mr. Westerman. That is correct.
    Mr. LaMalfa. Do you think that group of Republicans cared 
more about the environment then than they do now? Is that what 
you attribute that to?
    Mr. Westerman. It was 92 to 0. We can't speculate, but we 
can look at results.
    Mr. LaMalfa. All right. I appreciate that. OK, we will wrap 
up here.
    Oh, Mr. Gosar, you wish to----
    Dr. Gosar. Yes.
    Mr. LaMalfa. OK.
    Dr. Gosar. I just wanted him to go first, because it was 
his bill.
    Mr. LaMalfa. OK.
    Dr. Gosar. Mr. Wood, is there ever a good theoretical 
rationale for a major petition and listing settlement with 
respect to the merits of such listings?
    Mr. Wood. No, and the Service has long taken a position 
that a settlement cannot dictate the outcome of a petition.
    Dr. Gosar. Are such mass settlements, in your opinion, good 
solutions to the backlog and to litigation with respect to the 
goals of the Act?
    Mr. Wood. In 2011, that was probably the best we could get. 
But a formalized rule--and, in fact, Congress codifying the 
approach selected by the Obama administration is far 
preferable, because it provides certainty.
    Dr. Gosar. In your opinion, would there ever be an 
efficient use of Fish and Wildlife Service or NMFS resources 
that would devote serious resources and time to analyzing the 
petitions that are put into the low-priority bins?
    Mr. Wood. If the higher priorities have been exhausted, 
then, of course. But as long as we are going to have a backlog, 
it makes sense for the Service to focus on the species that 
most require consideration.
    Dr. Gosar. Well, that makes some sense.
    Mr. Dreher makes the allegation of such a dire circumstance 
with climate change, with very few countries initiating and 
helping out. Don't you think that we ought to be reviewing and 
utilizing every asset that we actually have, if those 
circumstances are so dire?
    Mr. Wood. Well, I am not sure more money can solve the 
problem. That would just spur more----
    Dr. Gosar. I didn't say money, I said resources. And what I 
am looking at is a group of them, whether they be farmers, 
whether they be corporate entities, whether they be a local 
county board of supervisors. I think those are all considered 
assets.
    Mr. Wood. I agree. This isn't a challenge just being faced 
by the Federal Government. It is something that states and 
private individuals care about. So, the more we engage with 
everyone who has a stake in the outcome for these species, the 
better off we will be.
    Dr. Gosar. And don't you think that if we did it in a 
methodology that our mission is to ensure the success of the 
species. Don't you think that is drive enough?
    Mr. Wood. I am sorry, I missed the last part of the 
question.
    Dr. Gosar. Don't you think that is drive enough, that if 
our goal is to preserve these species, then we ought to look at 
enabling and empowering any and everyone to have a say in it.
    Mr. Wood. Absolutely right. And that is the only way you 
are going to get the active efforts you need.
    And to borrow an example from my own past work, we 
represented property owners affected by the designation of the 
Utah prairie dog. And there, they have been subject to this 
burdensome regulation for decades without any progress. Thanks 
to a lawsuit, we got power shifted back to the states, and now 
that is the model to recover that species. Even the Service 
admits that that is the better approach.
    Dr. Gosar. So, I guess my question to you is I can have my 
cake and eat it, too, right?
    Mr. Wood. I think so. I think the conflict we see is 
unnecessary, that so many people care so deeply about 
recovering species that if we engage with them better, we will 
get better outcomes.
    Dr. Gosar. You hit a great point there. So, why is it that 
Mr. Dreher--his efforts are higher in priority than, let's say, 
the oil and gas companies?
    Mr. Wood. I don't----
    Dr. Gosar. Aren't they both noble, if we get the results?
    Mr. Wood. Absolutely. And often, industries like the oil 
and gas companies, farmers, and others have been key partners 
in protecting and recovering species. And PLF supported the 
Obama administration's efforts to do that, including in 
defending a case brought by the Defenders of Wildlife to blow 
up one of those sorts of compromises.
    So, I think you are exactly right. We shouldn't look at 
anyone as an enemy in this challenge. This is something we need 
all hands on deck, and we have to work with each other.
    Dr. Gosar. But in the conversation today, Mr. Dreher used 
the ``boogeyman'' over and over and over again as oil and gas 
companies. And I find that disingenuous, because we all inhabit 
this planet together, and we are going to have to collaborate 
and cooperate together to make it work.
    And particularly when you look at the things that we cannot 
control, like plate tectonics, molten mass, and elliptical 
orbit around an irregular solar mass, that is changing 
dramatically as we speak--so, I mean, it behooves us to use all 
those assets. And that is why, Mr. Dreher, I came at you very 
hard, is that if you find those problems, you ought to be 
addressing those with us.
    This is an attempt to start that conversation. And if you 
are part of that solution, you are remanded to make changes to 
facilitate the effectiveness of that law. And doing nothing 
isn't the answer.
    Thank you, I yield back.
    Mr. Dreher. Mr. Congressman, I really would ask a right to 
reply. I have actually been accused of a number of things by 
the Congressman, and have not had a chance to respond to him.
    As I have said, I think Defenders of Wildlife--and I 
personally----
    Mr. LaMalfa. The time has expired for Mr. Gosar's time.
    Mr. Dreher. So, there is no opportunity to reply to 
personal attacks?
    Mr. LaMalfa. Ten seconds.
    Mr. Dreher. All right. We work very hard for conservation 
of species, including things like range mapping, trying to 
actually find out where the species are. We are trying to make 
things actually work better, and that is a much better outcome 
than anything in any of these bills. So, we are trying to make 
the Act work.
    Mr. LaMalfa. Thank you.
    About 6 minutes left on votes. If you two fellows want to 
take off, I will finish up. Or you are welcome to stay, too.
    I want to just come back, as we finish on this bill, to Mr. 
Johansson. What we hear about is, again, with this backlog, 
with just a blizzard of petitions that come into the various 
departments asking for yet another listing. And you hear the 
results sometimes, when they get so far behind, they want to 
just settle them all to back off the lawsuits that then will 
come.
    So, what you see is deals being cut, basically to placate 
the environmental organizations with Ag, with grazing, timber, 
minerals, all that, basically feeling like they are barely 
hanging on in the negotiations.
    For example, in one of the areas in my district, Lassen 
National Forest, you have the martin, red-legged frog, the 
spotted owl, maybe others that are all overlapping in their 
time frame for what would allow timber harvest, and you are 
down to a limit of a little less than 30 days, mostly in 
September, that you can do logging operations, because of this 
overlapping.
    What do you see with your experience, whether that applies 
to grazing on certain listings, or timber? How widespread is 
this settle process and limitation on doing the types of things 
we need to be doing outdoors for industry?
    Mr. Johansson. I am not familiar with the specifics of, as 
you say, the settle----
    Mr. LaMalfa. Not on that one, but in general. When they 
settle----
    Mr. Johansson. Well, unfortunately, it becomes a business 
decision, and it doesn't become what is the right thing to do, 
or what do I have to do to make my farm better, or my 
timberland better, or my grazing land better, but it becomes a 
business decision. And we are seeing those business decisions 
being made, which is less and less mills in our forest.
    Also, too, in Lassen National Forest, the grazing permits 
that are allowed, those aren't even all allocated. Even what 
they do allow for cattlemen to graze up there aren't doing it, 
because it is simply becoming cost-prohibitive, in terms of 
everything you have to comply with under ESA and other issues, 
as well.
    But, there is a loss of opportunity, and you are seeing 
that in our rural communities.
    Mr. LaMalfa. And what have you seen on the positive side 
for grazing, maybe, with helping on fire control or even 
limiting noxious weeds, things like that?
    Mr. Johansson. I think it is a lack of grazing, and one of 
the things, in terms of--we just had an important bill in 
California which we could get you the wording for, that would 
liberalize what we can do in our state lands, and making sure 
that we can better fight wildfires, and that which we have been 
having the last few summers.
    So, yes, at the end of the day we could do much better. And 
I thank you for the opportunity to talk on these nine bills 
that go toward that end.
    Mr. LaMalfa. Mr. Renkes, again, what has your experience 
been in the Department when you get a blizzard of petitions and 
you fall behind just because there are so many that you then 
feel the pressure that you are going to get sued? Tell me what 
that looks like from your scenario.
    Mr. Renkes. Well, the way that has played out, it has been 
the exposure to litigation, and then the diversion of resources 
to fight litigation, as opposed to working on recovery plans or 
other aspects of the Act that would help. So, there really is 
no defense that we have against litigation over petitions that 
are overdue.
    We are in a position right now, as I mentioned, where we 
have a decade worth of work to reduce to deal with the current 
backlog.
    Mr. LaMalfa. As I recall, there was a backlog where about 
700, maybe just a few short years ago, that it was easier for 
previous administrations to just try to make deals on so many 
of them to get them off their back. If you could, elaborate on 
that a little bit.
    Mr. Renkes. I am not----
    Mr. LaMalfa. And how this legislation can help, instead of 
having to settle in a hurry, but more methodical.
    Mr. Renkes. Well, yes, I can speak to that. I am not 
familiar with the settlement process in the previous 
administration in any detail, but this bill would, by creating 
this petition backlog status and changing some of the rules, 
reduce the pressure of litigation on that process and allow 
those resources to be dedicated to actually dealing with the 
petitions at hand. That could be very helpful, and we support 
the bill in that regard.
    Mr. LaMalfa. OK, thank you.
    Mr. Wood, please touch on that, too, from your perspective.
    Mr. Wood. I agree. Codifying the approach adopted by the 
Obama administration will provide the agency cover, and give 
certainty to everyone that the prioritization schedule that has 
been adopted is law, and cannot be blown up by litigation.
    Mr. LaMalfa. OK, all right, thank you. We are really on the 
edge on time here. So, indeed, I want to thank the witnesses, 
all of you, for your travel, for your time here today, and your 
expertise.
    The members of the Committee might have additional 
questions. We will ask you to respond to those in writing. 
Under Committee Rule 3(o), members of the Committee must submit 
those witness questions within 3 business days following 
today's hearing by 5:00 p.m. on that day. The hearing record 
will be held open for 10 business days for those responses.
    If there is no further business, without objection, the 
Committee stands adjourned.

    [Whereupon, at 5:12 p.m., the Committee was adjourned.]

            [ADDITIONAL MATERIALS SUBMITTED FOR THE RECORD]

Prepared Statement of the Hon. Andy Biggs, a Representative in Congress 
                       from the State of Arizona
    I thank Chairman Rob Bishop and Ranking Member Raul Grijalva for 
holding this important legislative hearing. I am honored to join 
Western Caucus Chairman Paul Gosar and colleagues in introducing the 
Western Caucus ESA Modernization package. This package includes my 
bill, the LIST Act of 2018, which makes a number of improvements to 
bring the ESA into the 21st century.
    The LIST Act authorizes the Secretary of the Interior to de-list 
species from the endangered species list when he receives an objective, 
measurable, and scientific study demonstrating a species has recovered; 
and penalizes those who intentionally submit false or fraudulent data 
in order to cause a species listing. The Act does not eliminate 
protections for truly endangered species. Rather, these actions will 
allow the Federal Government to focus resources toward protecting 
species that actually need it.
    The ESA is one of the most intrusive Federal policies on western 
states. Over the last four decades, ESA regulations, including the 
listing of endangered species, have done more to infringe on private 
property and states' rights than they have to recover endangered 
species. The ESA was created to protect threatened species and their 
habitats; however, biased science and de-listing regulations are often 
used to harm western priorities instead of protecting endangered 
species.
    Hundreds of species are listed as endangered under the ESA, 
including the infamous Gray Wolf. Scientific data shows that this 
species has fully recovered and no longer needs Federal protection, but 
inexplicably remains on the list. This listing allows unelected Federal 
bureaucrats, in the name of protecting the Gray Wolf, to limit the use 
of public lands. It also prevents farmers and ranchers from protecting 
their land and livestock from these predators.
    ESA listings are meant to give short-term support for species 
recovery; it is not supposed to turn into a permanent classification. 
Current regulations make it much easier for the U.S. Fish and Wildlife 
Service to list new species as endangered instead of examining the 
current list for potential removal. Over the last 45 years, less than 2 
percent of the total species listed have eventually been de-listed--42 
distinct species out of 2,386 to be exact. Unfortunately, several of 
the bureaucratic processes for de-listing recovered species have broken 
down or failed entirely.
    Listing a species is not insignificant. These classifications 
impose costly requirements on private landowners and Federal agencies, 
and limitations on private and public project proposals.
    Radical environmental groups exploit false or fraudulent data in 
order to cause a species to be listed as endangered. Oftentimes, newly 
discovered or poorly understood species are quickly listed and later 
turn out to be ecologically abundant. This leads to unnecessary costs 
and burdens for everyone impacted by the listing.
    The Arizona Farm Bureau, which is headquartered in my district, 
warns that ``as the law is written today, the Fish and Wildlife Service 
is forced to rely on existing data however faulty it might be, and 
petitioners know this and use the lack of scientific evidence to force 
listings.''
    ESA regulations not only harm westerners, but Americans across the 
country. Mr. Chairman, we have an opportunity to make a significant 
change by cutting job-killing regulations and passing legislation to 
fix their unintended consequences. The Western Caucus ESA modernization 
package is long overdue and will help millions of Americans around the 
country by protecting local interests--not special interests.

                                 ______
                                 

Rep. Bishop Submissions

List of 170+ organizations and letters of support endorsing H.R. 6356, 
H.R. 6345, H.R. 6344, H.R. 6355, H.R. 6364, H.R. 6360, H.R. 6346, H.R. 
                          6354, and H.R. 3608

        Aethon Energy                 Land Conservation Assistance 
                                      Network
        American Exploration & 
        Mining Association            National Aquaculture Association
        American Exploration & 
        Production Council            National Association of 
                                      Conservation Districts
        American Farm Bureau 
        Federation                    National Association of Counties 
                                      (NACo)
        American Highway Users 
        Alliance                      National Association of Home 
                                      Builders
        American for Limited 
        Government                    National Association of Realtors
        American Loggers Council      National Cotton Council
        American Petroleum 
        Institute                     National Endangered Species Act 
                                      Reform Coalition (NESARC)
        American Sheep Industry 
        Association                   National Grazing Lands Coalition
        Colorado River Energy 
        Distributors Association      National Mining Association
        Family Farm Alliance          National Rural Electric 
                                      Cooperative Association
        Federal Forest Resource 
        Coalition                     Neiman Timber Company
        Free Market America           Safari Club International
        Hardwood Federation           United Water Conservation 
                                      District
        Healthy Forests Healthy 
        Communities                   U.S. Chamber of Commerce
        Independent Petroleum 
        Association of America        Western Energy Alliance
        Intermountain Forest 
        Association

                                 *****

        Agribusiness & Water 
        Council of Arizona            La Paz County Supervisor Duce 
                                      Minor
        Arizona Cattle Feeders 
        Association                   La Paz County Supervisor D.L. 
                                      Wilson
        Arizona Farm Bureau 
        Federation                    Minnesota State Cattlemen's 
                                      Association
        Arizona Mining Association    Missouri Sheep Producers
        Arizona Pork Producers 
        Council                       Mohave County Supervisor Buster 
                                      Johnson
        Arizona Rock Products 
        Association                   Mohave County Supervisor Gary 
                                      Watson
        California Wool Growers 
        Association                   Montana Woolgrowers Association
        Campbell County Board of 
        Commissioners                 New Mexico Association of 
                                      Conservation Districts
        Colorado Cattlemen's 
        Association                   New Mexico Cattlegrowers' 
                                      Association
        Colorado Farm Bureau          New Mexico Federal Lands Council
        Colorado Pork Producers 
        Council                       New Mexico Wool Growers
        DC Cattle Co LLC              Oregon Water Resources Congress
        Florida Farm Bureau 
        Federation                    Pima Natural Resource 
                                      Conservation District
        Food Resource Group           Salt River Project
        Hawaii Aquaculture and 
        Aquaponics Association        Utah Mining Association
        Idaho Farm Bureau 
        Federation                    United Dairymen of Arizona
        Idaho Water Users 
        Association                   Wyoming Senate President Eli 
                                      Bebout
        Imperial Irrigation 
        District                      Yavapai Cattle Growers 
                                      Association
        Lake Havasu Area Chamber of 
        Commerce                      Yuma County Chamber of Commerce
        La Paz County Supervisor 
        Holly Irwin

                                 *****

Arizona Sportsmen's Groups:
        Apache County BigGame 
        Forever                       Mognlian Sporting Association
        Arizona BigGame Forever       Northern Arizona BigGame Forever
        Arizona Deer Association      Phoenix BigGame Forever
        AZ Bass Nation                Southwest Fur Harvesters
        Bass Federation               Sportsmen's Business Alliance
        BASS Junkyz                   SRT Outdoors
        Flagstaff BigGame Forever     Tuscon BigGame Forever
        Malihini Sports Association   Wild at Heart Adventures
        Mesa/Gilbert BigGame 
        Forever

                                 *****

Colorado Sportsmen's Groups:
        Boulder BigGame Forever       Colorado Sportsmen Make America 
                                      Great
        Centenial BigGame Forever     Colorado Springs BigGame Forever
        Colorado BigGame Forever      Colorado Wool Growers
        Colorado Mule Deer 
        Association                   Grand Junction BigGame Forever
        Colorado Outfitters 
        Association                   Pagosa Springs BigGame Forever

                                 *****

Idaho Sportsmen's Groups:
        BigGame Forever Idaho         Northern Idaho BigGame Forever
        Idaho Falls BigGame Forever   Pocatello BigGame Forever
        Idaho for Wildlife            Save Western Wildlife
        Idaho Sportsmen for 
        Wildlife                      Twin Falls BigGame Forever

                                 *****

Montana Sportsmen's Groups:
        BigGame Forever Gallatin 
        City                          Citizens for Balanced Use
        BigGame Forever Missoula      Montana Sportsmen for Wildlife
        BigGame Forever Montana       Montana Trappers Association
        BigGame Forever Park County   Southwest Montana SCI
        BigGame Forever Sweet Grass 
        County

                                 *****

Oregon Sportsmen's Groups:
        Oregon United Sporting Dog 
        Association.

                                 *****

Utah Sportsmen's Groups:
        Sportsmen for Fish and 
        Wildlife                      Utah BigGame Forever

                                 *****

Washington State Sportsmen's Groups:
        Boeing Employees Everett 
        Gun Club                      Ruffed Grouse Society--WA
        Borderline Bassin' 
        Contenders                    Safari Club International--
                                      Central WA
        Capitol City Rifle/Pistol     Safari Club International--
                                      Columbia Basin
        Cascade Mountain Men          Safari Club International--Inland 
                                      Empire Chapter
        Cascade Tree Hound Club       Safari Club International--
                                      Northwest
        Cedar River Bowmen            Safari Club International--
                                      Seattle Puget Sound
        Citizens for Responsible 
        Wildlife Management           Safari Club International--
                                      Southwest Washington
        Double U Hunting Supply       Seattle Sportsmen's Conservation 
                                      Foundation
        Edison Sportsmen's Club       Skagit Sportsman and Training 
                                      Association
        Inland NW Wildlife Council    Tacoma Sportsmen's Club
        KBH Archers                   Vashon Sportsmen's Club
        Kittitas County Field & 
        Stream                        Washington Falconer's Association
        National Wild Turkey 
        Federation--South Sound 
        Longbeards                    Washington for Wildlife
        North Flight Waterfowl        Washington Game Fowl Breeders 
                                      Association
        Northwest Sportsman's Club    Washington Muzzleloaders 
                                      Association
        NW Field Trial & Hound 
        Association                   Washington State Archery 
                                      Association
        Okanogan Hound Club           Washington State BigGame Forever
        Pacific Flyway                Washington State Hound Council
        Pateros Sportsman's Club      Washington State Hunter Heritage 
                                      Council
        Paul Bunyan Rifle and 
        Sportsmen's Club              Washington State Trappers 
                                      Association
        Pheasants Forever Chapter 
        #257                          Washington Waterfowl Association
        Pierce inlandCounty 
        Sportsmen's Council           Washingtonians for Wildlife 
                                      Conservation
        Richland Rod & Gun Club       Wildlife Committee of Washington.

                                 ______
                                 

                          Morning Consult Poll


Available at: https://morningconsult.com/wp-content/uploads/
2018 /09/180941_crosstabs_POLITICO_v1_HS.pdf

Rep. LaMalfa Submission

                Pit Resource Conservation District,
                                         Bieber, California

                                                 September 14, 2018

Secretary Ryan Zinke
U.S. Department of the Interior
Mail Stop 6242
1849 C Street, NW
Washington, DC 20240-0001

    Dear Mr. Zinke:

    The Pit Resource Conservation District (RCD) has been working with 
the USFS Modoc National Forest staff to develop a salvage sale on the 
30,000+ acre Cove Fire area. The RCD proposed to treat a minimal 1,380 
burned acres that include: 1) hazard trees along roads and trails; 2) 
salvaging fire-killed conifers; 3) fuels treatments; and 4) site prep 
and reforestation. The RCD would have preferred to have treated a much 
large area, but given the time restraints, chose to focus on areas of 
extreme importance to the landscape. The partnership was made possible 
by using a Stewardship Agreement that the RCD currently has with the 
Forest Service to expedite the process and assure that valuable timber 
resources would be utilized and important reforestation efforts could 
be attained. An Environmental Assessment (EA) was completed and an 
Emergency Situation Determination (ESD) was signed by the Chief. All 
NEPA requirements were fully met, and the RCD staff and local 
consultants led this effort. Pre-advertisements and advertisements were 
noticed in the newspapers of record and a list of potential bidders was 
also noticed by email. A bid packet along with timber cruise 
information was compiled and interested bidders contacted the RCD for 
the information. The process to complete all required activities was 
very lengthy which caused the sale date to be moved several times. This 
action precluded several interested parties as they were concerned that 
the timber might not be marketable due to the bluing and bug 
infestation possibilities. On July 20, 2018, a public meeting was held 
to accept and award the bid. There was only one bid received which was 
awarded to Tubit Enterprises, Inc. Tubit began the removal process 
around the end of July and has been actively working on the project 
since.
    Last week, the RCD was notified that Conservation Congress was 
planning to submit a lawsuit against the Forest Service with the intent 
of an immediate stop work order. The basis of the lawsuit is not only 
unfounded but numerous items stated in the court docket are not 
factual. The Forest Service and the RCD have been proactively working 
together with the Contractor to prepare for the potential litigation 
and severe hardship this will place on all parties.
    The Pit RCD is requesting your support with this process. We 
believe that salvage is vital to forest health and we strongly advocate 
for the utilization of burned timber which promotes economic vitality 
and helps restore the landscape for public and wildlife benefit. The 
RCD is also interested in future outcomes regarding litigation and 
would like to request that an effort be made to amend current 
legislation to include language that would prevent frivolous lawsuits. 
It is the belief of the RCD that if those parties that are interested 
in prosecuting be responsible for court costs and damages incurred 
through their actions, this type of litigation could be greatly 
reduced. To that end, we ask that your office work to promote such 
legislation to assist in future endeavors.
    Thank you for your attention to this extremely time sensitive issue 
and we look forward to hearing from you. Please contact our Project 
Manager, Todd Sloat or Business Manager, Sharmie Stevenson for 
additional information or questions.

            Sincerely,

                                              Andy Albaugh,
                                                          Chairman.

                                 ______
                                 

Rep. Grijalva Submissions
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                                             September 25, 2018

Re: Please Oppose H.R. 3608, H.R. 6344, H.R. 6345, H.R. 6346, H.R. 
        6354, H.R. 6355, H.R. 6356, H.R. 6360, and H.R. 6364 (the 
        ``Expanded Wildlife Extinction Package'')

    Dear Representative:

    The House Natural Resources Committee meets this week for a 
legislative hearing on nine bills. This package of legislation would 
dramatically weaken the Endangered Species Act and should be labeled 
the ``Expanded Wildlife Extinction Package.'' These bills would 
undermine the role of science in the listing process, transfer undue 
authority to state officials, make it more difficult for species to 
gain federal protections (and easier to lose them), and undercut 
citizens' vital role into helping to enforce the law. On behalf of our 
millions of members and activists nationwide, we urge you to oppose the 
``Expanded Wildlife Extinction Package.''

    Science shows that we are currently facing a devastating sixth mass 
extinction. According to the latest scientific studies, three-quarters 
of all species could disappear in the coming centuries.\1\ The 
Endangered Species Act is America's most effective law for protecting 
wildlife in danger of extinction. It serves as an essential safety net 
for imperiled plants, fish, and wildlife. Since its enactment, ninety-
nine percent of listed species have avoided extinction and many more 
have been set on a path to recovery, including the iconic American bald 
eagle, the grizzly bear and the Florida manatee. The Endangered Species 
Act has seen such remarkable success--even in the face of dramatic 
underfunding--because it relies on best-available scientific data to 
make listing decisions and empowers citizens to participate in and 
ensure adequate implementation of the law. The bills before Committee 
attack these fundamental strengths and the very foundation on which the 
ESA was written, representing a clear and present danger to wildlife 
preservation nationwide.
---------------------------------------------------------------------------
    \1\ ``Accelerated modern human-induced species losses: Entering the 
sixth mass extinction,'' ScienceMag. 2015. http://
advances.sciencemag.org/content/1/5/e1400253.

    The Endangered Species Act is our nation's declaration of the 
fundamental value of protecting species from extinction. Recent peer-
reviewed research from the Ohio State University shows that roughly 
four out of five Americans support the law.\2\ Members of Congress 
should recognize this broad public support and protect the Endangered 
Species Act so that it can continue working to save our nation's 
remaining plants, fish and wildlife from extinction. We therefore urge 
you to oppose these harmful bills.
---------------------------------------------------------------------------
    \2\ Jeremy Bruskotter, John Vucetich, Ramiro Berardo, ``Support for 
the Endangered Species Act remains high as Trump administration and 
Congress try to gut it.'' The Conversation, July 20, 2018.

    H.R. 3608 (``The Endangered Species Act Transparency and 
Reasonableness Act'') would undermine the use of sound science in 
Endangered Species Act listing decisions by declaring that state and 
local data is by definition the best available science, regardless of 
whether it is scientifically inferior. Under current law, the federal 
government already works extensively with the states, considers state 
and local data when making listing decisions, and notifies affected 
states of proposed listing determinations. This bill also threatens to 
undercut citizen enforcement of the Endangered Species Act. Indeed, 
under H.R. 3608, citizens who successfully challenge illegal government 
actions under the Endangered Species Act would be subject to fee 
recovery restrictions that could make it difficult for them to obtain 
counsel. In doing so, this bill would make it easier to violate the law 
---------------------------------------------------------------------------
with impunity.

    H.R. 6344 (``Land Ownership Collaboration Accelerates Life Act'') 
would create a loophole in the Endangered Species Act's prohibition on 
take \3\ of endangered species by requiring the Secretary to determine, 
upon the request of an individual, whether a given activity complies 
with the law. If the Secretary does not provide a written determination 
of compliance within 180 days of receiving the request, the proposed 
activity will be automatically deemed not to constitute unlawful take 
of a species, effective for five years. If the Secretary determines 
that the proposed activity is in compliance with the law, then any use 
or action taken by the property owner in ``reasonable reliance'' would 
not be considered a violation of the law, and would remain effective 
for 10 years. This loophole could result in the harm and/or death of 
endangered and threatened species, as well as in the destruction of 
critical habitat. Most disturbing, if the Secretary finds that the 
proposed use would not comply with the Endangered Species Act's take 
prohibition (or withdraws a no take determination), H.R. 6344 would 
entitle the landowner to financial compensation. Thus, the government 
would have to expend taxpayer dollars simply to ensure compliance with 
the law. This potential cost would cripple enforcement of the Act.
---------------------------------------------------------------------------
    \3\ The term ``take'' is defined in the Endangered Species Act to 
mean harass, harm, pursue, hunt, shoot, wound, kill, trap, capture, or 
collect, or to attempt to engage in any such conduct.

    H.R. 6345 (``Ensuring Meaningful Petition Outreach While Enhancing 
States Rights Act'') would severely undermine the Endangered Species 
Act's science-based listing process by giving state and local 
governments de facto veto authority over decisions to list species as 
threatened or endangered. Under H.R. 6345, if the Secretary finds that 
a species' listing may be warranted, he or she must solicit information 
and advice from each state and county in which the species is located. 
If the state or county advises that the listing is not warranted, the 
Secretary may not proceed unless he or she demonstrates that the 
information submitted in support of an unwarranted finding is 
---------------------------------------------------------------------------
incorrect.

    H.R. 6346 (``Weigh Habitats Offsetting Locational Effects Act'') 
would increase the likelihood that a federal agency action would 
jeopardize the continued existence of a threatened or endangered 
species or result in the destruction or adverse modification of 
critical habitat. The Section 7 consultation process is designed to 
prevent this outcome in part by reviewing a federal agency action's 
negative effects and considering any offsetting measures, such as 
avoidance, minimization, or mitigation. Yet H.R. 6346 would allow the 
Secretary to consider non-binding offsetting measures. In doing so, 
this bill increases the risk that a federal agency action will have 
detrimental impact on a species or its habitat.

    H.R. 6354 (``Stop Taking On Reserves Antithetical to Germane 
Encapsulation Act'') would restrict designations of critical habitat 
for threatened or endangered species. Specifically, the bill would 
prohibit the Secretary from designating as critical habitat any area in 
water storage, diversion, or delivery facilities where habitat is 
periodically created and destroyed as a result of changes in water 
levels caused by the operation of such facility. This could prevent the 
designation of a sufficient amount of a critical habitat necessary for 
a species to survive.

    H.R. 6355 (``Providing ESA Timing Improvements That Increase 
Opportnnities for Nonlisting Act'') would undercut citizens' ability to 
participate in and ensure adequate implementation of the law by 
weakening the citizen petition process and limiting judicial review. 
H.R. 6355 would automatically trigger denials of petitions to list or 
uplist species in the event of a ``petition backlog'' as declared by 
the Secretary under the procedures set forth in the bill. Once the 
backlog has been declared, the Secretary would be required to 
prioritize petitions to delist or downlist species over petitions to 
list or uplist species. In effect, the bill would create additional 
barriers to listing species and automatically deny most listing 
petitions in the event of a declared backlog. What's more, these 
automatic negative petition findings would be exempt from judicial 
review.

    H.R. 6356 (``Less Imprecision in Species Treatment Act'') would 
make it easier to delist species that may not be fully recovered, while 
simultaneously deterring the public from petitioning to list imperiled 
species deserving of protection. First, the bill would require the 
Secretary to delist a species without regard to the Endangered Species 
Act's listing requirements if he or she receives ``substantial 
scientific or commercial information'' demonstrating that a species is 
recovered or that recovery goals set for a species have been met. 
Second, if the Secretary determines that a listing was in error, the 
bill would shield a subsequent delisting decision from judicial review. 
In doing so, this bill eliminates a vital check on delisting decisions 
that may not have been based on the best available science. Finally, 
the bill would prohibit a citizen from submitting a listing petition 
for 10 years if they ``knowingly'' included inaccurate, fraudulent, or 
misrepresentative information in a listing petition, but does not 
adequately define how such an inquiry would take place.

    H.R. 6360 (``Permit Reassurances Enabling Direct Improvements for 
Conservation, Tenants, and Species Act'') would weaken existing 
regulations governing cooperative conservation efforts between the Fish 
and Wildlife Service and landowners. Agency regulations currently allow 
landowners to voluntarily enter into Candidate Conservation Agreements 
with Assurances, which address conservation measures for species that 
are anticipated to be listed, and Safe Harbor Agreements, which address 
conservation measures for listed species. These agreements benefit 
landowners because they grant ``take permits'' and provide assurances 
that if circumstances involving a species change, they would not be 
required to undertake additional conservation activities. H.R. 6360 
would weaken requirements for landowners entering into such agreements 
and make it more difficult to terminate agreements if a landowner fails 
to meet his or her responsibilities.

    H.R. 6364 (``Localizing Authority of Management Plans Act'') would 
undermine the ability of federal agencies to conserve threatened or 
endangered species by delegating significant management authority to 
state governments and individuals and removing a prohibition against 
state laws that are less restrictive than the Endangered Species Act. 
The Endangered Species Act currently allows states and the federal 
government to enter into cooperative agreements, wherein states propose 
programs to conserve listed species and the Secretary assists with 
management of these programs. However, H.R. 6364 would delegate 
management to the states and non-federal parties with little to no 
federal oversight. Furthermore, the bill would allow states to enact 
laws regarding the take of listed species that are less restrictive 
than federal laws, effectively allowing less protective laws to replace 
federal Endangered Species Act protections.

    Please protect the Endangered Species Act, our nation's most 
effective and important law for species conservation, by voting ``no'' 
on the ``Expanded Wildlife Extinction Package,'' including H.R. 3608, 
H.R. 6344, H.R. 6345, H.R. 6346, H.R. 6354, H.R. 6355, H.R. 6356, H.R. 
6360, and H.R. 6364. These bills constitute an extreme assault on our 
nation's wildlife, public participation, and one of our most popular 
and successful laws.

    Thank you for your consideration.

            Sincerely,

        Alaska Wilderness League      National Audubon Society
        American Bird Conservancy     National Parks Conservation 
                                      Assoc.
        American Rivers               Natural Resources Defense Council
        Animal Welfare Institute      NY4WHALES
        Blue Heron Productions        Oceana
        Born Free USA                 Oregon Wild
        Braided River                 Public Interest Coalition
        Center for Biological 
        Diversity                     Quality Parks
        Clean Water Action            RE Sources for Sustainable 
                                      Communities
        Defenders of Wildlife         Save Animals Facing Extinction
        Delaware Ecumenical Council 
        on Children and Families      Save Wolves Now Network
        Earthjustice                  Sierra Club
        Earthworks                    Students for the Salish Sea
        Endangered Habitats League    The Bay Institute
        Endangered Species 
        Coalition                     The Humane Society of the United 
                                      States
        Environment America           The Jane Goodall Institute
        Environmental Protection 
        Information Center            The Maine Wolf Coalition, Inc.
        Friends of Blackwater, Inc.   The Rewilding Institute
        Friends of the Earth          Trap Free Montana
        Great Old Broads for 
        Wilderness                    Trap Free Montana Public Lands
        Hip Hop Caucus                Turtle Island Restoration Network
        Howling For Wolves            WE ACT for Environmental Justice
        Humane Society Legislative 
        Fund                          Wildlands Network
        International Marine Mammal 
        Project, Earth Island 
        Institute                     Wolf Conservation Center
        Klamath Forest Alliance       Wolf Haven International
        League of Conservation 
        Voters

                                 ______
                                 

                         GreenLatinos              

                                                 September 26, 2018

Hon. Raul M. Grijalva, Ranking Member,
House Committee on Natural Resources,
1329 Longworth House Office Building,
Washington, DC 20515.

Re: OPPOSITION TO Endangered Species Act ROLLBACKS

    Dear Ranking Member Grijalva:

    On behalf of GreenLatinos--a national network of Latino 
environmental and conservation advocates--I write to you with concerns 
over the continued rollbacks and legislative attacks to the Endangered 
Species Act (ESA); one of this nation's bedrock environmental laws. The 
ESA is one of our most important conservation laws. Over 99% of the 
species that have received ESA protection are still with us today, and 
90% of listed species are on track to meet their recovery goals.
    GreenLatinos conducted a post-election survey in 2016 that found 
that 97% of Hispanic voters felt that they and those that represent 
them have ``a moral responsibility to take care of the earth--the 
wilderness and forests, the oceans, lakes, and rivers.'' It is our 
view, this protection of critical landscapes and habitat extend to the 
rich biodiversity that those habitats support--especially those species 
that are threatened or endangered.
    Tomorrow, your committee will mark up several bills that would 
further weaken the critical protections enshrined in the ESA. 
GreenLatinos has deep concerns with any attempts to weaken such 
protections, in particular with H.R. 6345 (Rep. Pearce)--The EMPOWERS 
Act; H.R. 6355 (Rep. Westerman)--The PETITION Act; H.R. 3608 (Rep. 
McClintock)--The Endangered Species Transparency and Reasonableness 
Act; and H.R. 6346 (Rep. Johnson)--The WHOLE Act. The goal of each of 
these bills is to weaken the ESA, not to make it ``work better,'' and 
enacting these bills into law would drive to the extinction of fish, 
wildlife, and plants in America and around the globe.
    The ESA has strong support among our membership, and among the 27.3 
million Latino voters that our organization and its members interface 
with regularly in communities across the country. It does not need to 
be ``reformed'' or ``modernized.'' It is an effective law that gives 
all stakeholders an incredible amount of flexibility to proceed with 
projects in a way that protects biodiversity.
    We urge you to consider these views and encourage you and your 
fellow committee members to defend the ESA and its protective 
provisions from being weakened by the continued attacks represented 
through these ESA rollback bills.
    Thank you for your attention to this matter.

            Sincerely,

                                           Jessica M. Loya,
                                          National Policy Director.

                                 ______
                                 

                                                 September 25, 2018

    Dear Members of Congress:

    As denominations representing a broad spectrum of religious 
traditions and more than 10 million congregants, we write to you today 
unified in our support for the protection of God's precious and good 
creation and in particular the Endangered Species Act. This bedrock 
piece of conservation law has been extremely effective in preventing 
species from becoming extinct and we urge Congress to uphold this 
critical piece of legislation. Dismantling it or entangling it in 
unnecessary and damaging modifications or loopholes will only serve to 
diminish its effectiveness.
    Our Scriptures are filled with messages about taking care of 
Creation. In those passages, we are reminded that the world belongs to 
God and we are instructed to be stewards of God's earth. The story of 
Noah's ark sets forth an example for us to follow as we care for 
creatures great and small. God's instructions were clear to Noah: 
protect each and every one, two by two. We note that in the story, 
following the flood, God's covenant with Noah and his descendants as 
well as with the entirety of Creation makes it clear that God views 
Creation, both human and non-human, as valuable and as being in 
relationship with one another.
    It is with this perspective that we view the Endangered Species 
Act, a modern day Noah's Ark that can preserve the creation that God 
has bestowed in our care. Any action, legislative or otherwise, that 
weakens the Endangered Species Act or puts economics or individual 
interests before our duty as stewards runs contrary to our moral 
charge.
    Because of our strong conviction that God entrusted the care of 
Creation to us, including the most vulnerable species, religious 
denominations over the years have released policy statements urging 
that we, as a nation, uphold our duty to steward God's creatures. In 
1993, the General Synod of the United Church of Christ passed a 
resolution entitled ``Respect for Animals,'' that reminds church 
members that God has given humanity responsibility for the care and 
protection of all living creatures.
    Following that resolution, a 2001 statement passed by the 213th 
General Assembly of the Presbyterian Church that called for government 
``face the severity of thus (mass extinction) threat, and to take the 
steps in practice, polity and systemic change that will prevent mass 
extinction and preserve the biodiversity essential to the flourishing 
of life.'' The United Methodist Church, one of the largest religious 
denominations in the country, also issued a policy statement on the 
``Preservation of the Diversity of Life,'' which stated ``that the 
wondrous diversity of nature is a key part of God's plan for creation. 
Therefore, we oppose measures which would eliminate diversity in plant 
and animal varieties, eliminate species, or destroy habitats critical 
to the survival of endangered species.'' Inspired by the commandment of 
Bal Taschit, do not destroy, the Union for Reform Judaism passed a 
resolution in 1991 calling on the government to ``protect our current 
wilderness areas, create new ones, and work to protect ecologically 
sensitive and endangered bioregions of the world'' and ``ensure the 
continuation of animal and plant species.''
    The set of nine bills introduced this summer run counter to our 
stewardship mandate for species protection. Taken collectively, these 
nine bills would work to undermine the current Endangered Species Act, 
which has been one of our most successful tools for preventing 
extinction. This package of bills creates loopholes, allows for state 
veto rights, limits legal recourse, and resurrects barriers to listing 
species. These bills are not science-based and will undercut the 
ability of current and future endangered and threatened species to 
survive.
    We urge the House Natural Resources Committee to reject this 
package of nine bills that would be detrimental to the Endangered 
Species Act and thus to God's creation.

            Sincerely,

        Rev. Jimmie R Hawkins, 
        Director,                     Rabbi Jonah Pesner Director,
        Presbyterian Church (USA) 
        Office of Public Witness      Religious Action Center for 
                                      Reform Judaism

        Rev. Sandy Sorenson, 
        Director, Washington Office   Rev. Dr. Susan Henry-Crowe, 
                                      General Secretary,
        United Church of Christ, 
        Justice and Local Church 
        Ministries                    General Board of Church and 
                                      Society, The United Methodist 
                                      Church

                                 ______
                                 

    Comments of the Attorneys General of Massachusetts, California, 
   Maryland, New York, Oregon, Pennsylvania, Rhode Island, Vermont, 
                Washington, and the District of Columbia


Available at: https://ag.ny.gov/sites/default/files/
multistate_ag_ 
comments_on_esa_listing_interagency_cooperation.pdf

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
